<html>
<title> - THE PERSISTENT THREAT: AL-QAEDA'S EVOLUTION AND RESILIENCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


        THE PERSISTENT THREAT: AL-QAEDA'S EVOLUTION AND RESILIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 13, 2017

                               __________

                           Serial No. 115-21

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                  

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PUBLISHING OFFICE                    
27-975 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fb9c8b94bb988e888f939e978bd5989496d5">[email&#160;protected]</a> 
            


                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
Scott Perry, Pennsylvania            Donald M. Payne, Jr., New Jersey
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bonnie Watson Coleman, New Jersey
Martha McSally, Arizona              Kathleen M. Rice, New York
John Ratcliffe, Texas                J. Luis Correa, California
Daniel M. Donovan, Jr., New York     Val Butler Demings, Florida
Mike Gallagher, Wisconsin            Nanette Diaz Barragan, California
Clay Higgins, Louisiana
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
                   Brendan P. Shields, Staff Director
             Kathleen Crooks Flynn,  Deputy General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Lou Barletta, Pennsylvania           Kathleen M. Rice, New York
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Will Hurd, Texas                     William R. Keating, Massachusetts
Mike Gallagher, Wisconsin            Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
            Nicole Tisdale, Minority Staff Director/Counsel
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Kathleen M. Rice, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               Witnesses

Ms. Katherine Zimmerman, Research Fellow, American Enterprise 
  Institute:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Jennifer Cafarella, Lead Intelligence Planner, Institute for 
  the Study of War:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Dr. Seth Jones, Director, International Security and Defense 
  Policy Center, Rand Corporation:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

                                Appendix

Questions From Honorable Mike Gallagher for Katherine Zimmerman..    57

 
       THE PERSISTENT THREAT: AL-QAEDA'S EVOLUTION AND RESILIENCE

                              ----------                              


                        Thursday, July 13, 2017

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room HVC-210, Capitol Visitor Center, Hon. Peter T. King 
(Chairman of the subcommittee) presiding.
    Present: Representatives King, Perry, Hurd, Rice, Jackson 
Lee, and Keating.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittee on Counterterrorism Intelligence will come to 
order. The subcommittee is meeting today to hear testimony from 
three experts in al-Qaeda and global terrorism.
    While the focus the past few years has primarily been on 
ISIS, we cannot forget and must not forget that al-Qaeda still 
has a global network intent on attacking the homeland.
    I would like to welcome the Members of the subcommittee, 
particularly Ranking Member Miss Rice, and express my 
appreciation for the witnesses being here today, and I 
recognize myself for an opening statement which I will keep 
brief. I will ask that my full statement be inserted in the 
record because I do want to get to the testimony.
    Nine-eleven changed the world. All emphasis was focused on 
al-Qaeda and an excellent job was done in those early years in 
going after al-Qaeda and taking away their base in Afghanistan, 
putting them on defense around the world and then culminating 
in the killing of bin Laden in 2011.
    But I think there has been a mistake made over the last 
several years by people and this is not a partisan issue--it 
involves both parties, it involves spokespeople in both 
parties--is to emphasize ISIS. ISIS became the enemy. ISIS 
became the face of Islamist terrorism.
    The fact is during this time al-Qaeda was reconstituting. 
It was reinforcing itself. Now where ISIS is certainly on the 
verge of losing its attempted caliphate, it also is really on 
its heels right now. It is definitely on defense.
    But the fact is al-Qaeda, itself, al-Qaeda has been 
selecting new, younger leadership. It has become more media-
savvy. It has positioned itself to, I think, in effect, 
reassume its leadership position as ISIS goes down. So I really 
look forward to the witnesses we are having here today. I think 
that we have--again, in the United States we like the easy 
answers.
    Al-Qaeda was the enemy, we are going after al-Qaeda. Now 
ISIS is the enemy, we are going after ISIS. The fact is al-
Qaeda is still there. Al-Qaeda is extremely dangerous, and so 
again, I look forward to the testimony from the witnesses.
    We had a brief chance to talk before, but again, I think 
this hearing is particularly important because we now know how 
we let our guard down before 9/11. I don't want us to ever let 
our guard down again. That is a concern that I have as ISIS is 
on the run and we sort-of take our eye off the ball of al-
Qaeda.
    So with that, I look forward to hearing from the witnesses 
the current state of al-Qaeda, an evaluation of their current 
intent, capability, the leadership structure and their 
affiliated networks. Again, this is a critical time, and let us 
not make mistakes we have made in the past with claiming 
victory too soon.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
                             July 13, 2017
    On September 11, 2001, the world at large was introduced to the 
brutal, murderous, and morally bankrupt terrorist organization known as 
al-Qaeda. Although some in the United States intelligence community had 
been paying attention to their actions abroad before 9/11, the tragic 
events of that Tuesday morning presented al-Qaeda's distorted world 
view for everyone to see, at the cost of thousands of American lives.
    In the time since those horrific attacks took place much has 
changed: Wars have been fought and won, our National security apparatus 
has been transformed, the Department of Homeland Security was created, 
and legislation has been enacted to counter the menace posed by al-
Qaeda and its offshoots.
    Some things, however, have not changed: The dedication and 
professionalism of the members of the United States military, law 
enforcement, and intelligence communities, the determination of the 
American people to defeat terrorism wherever it is found, and, 
unfortunately, the persistent threat posed by al-Qaeda.
    Al-Qaeda has suffered severe defeats and setbacks in the nearly 16 
years since America was attacked. From the 2011 raid on an Abbottabad 
compound that brought justice to Osama bin Laden, to the continued, 
sustained decimation of al-Qaeda senior leadership throughout the 
world, to the increased collaboration and partnerships that have been 
forged by the United States and our allies, al-Qaeda is under constant 
and relentless attack.
    In response to this pressure, al-Qaeda has demonstrated its 
resilience and evolved: It has diffused its leadership structure across 
the globe, franchised jihad with various affiliates, and metastasized 
in the Middle East, Asia, Africa, Europe and North America.
    The last several years have seen the creation, rise, and eventual 
decline of ISIS, al-Qaeda's most potent knockoff. During these years 
the shocking atrocities committed by ISIS in Syria, Iraq, Western 
Europe, the United States, and elsewhere have monopolized much of the 
attention focused on the global jihadist movement. However, al-Qaeda 
has remained active during this time. They have selected new, younger 
leadership, become more media savvy and positioned themselves as an 
alternative to ISIS's brand of jihad.
    In the face of the evolving threat posed by al-Qaeda, it is 
essential that we examine the direction that the organization is 
headed. This examination will help inform how Congress and the new 
administration can respond and continue to pressure al-Qaeda and its 
network of affiliated terrorists around the world, and ensure that 
there are no safe havens where these murders can hide.
    Today's hearing will feature testimony from a distinguished panel 
of experts who have studied and analyzed the organizational and 
operational functions of al-Qaeda. These professionals work for 
institutions that have dedicated substantial resources to collecting 
and processing information that can provide insight into the future 
course that al-Qaeda may attempt to chart. This information, in turn, 
can help us to make determinations about how we can best and most 
effectively counter future al-Qaeda efforts, continue to keep the 
pressure on al-Qaeda, and ultimately destroy the terror network.
    I look forward to hearing from today's witnesses about the current 
state of al-Qaeda, including an evaluation of their current intent, 
capability, leadership structure, and affiliate network. This hearing 
comes at a critical time as al-Qaeda is making efforts to once again 
take leadership of the global jihadist movement.

    Mr. King. So with that, I now recognize the gentlelady from 
New York, Ranking Member Rice.
    Miss Rice. Thank you, Mr. Chairman, for holding this 
hearing and thank you to the witnesses who are testifying 
before us today. As we gather to discuss the evolution and the 
current state of core al-Qaeda and its affiliates, we know that 
there may be no clear-cut end to the war on terror, and 
particularly the war on this particular group, at least no 
clear end that we can see today.
    But we also know that we have made real, significant 
progress in this fight. In the 16 years since 9/11, the United 
States, together with our allies and partners around the world, 
have severely weakened al-Qaeda's leadership and significantly 
reduced their power and operations here and abroad. As a New 
Yorker, I join the Chairman as a New Yorker here. That means a 
great deal to both of us.
    I want to say how incredibly grateful I am for all those 
who work so hard and sacrifice so much in this fight. First and 
foremost, our fallen heroes, service members, veterans, and 
military families, but also our diplomats and government 
officials and policymakers, everyone who has come together and 
done their part to defeat an enemy that has taken so many 
innocent lives.
    I think it is important to recognize that under the Obama 
administration we saw the creation, evolution, and 
implementation of effective counterterrorism policies that help 
lead to the deaths of several key al-Qaeda leaders, most 
notably, Osama bin Laden, among others. But there is no 
partisanship when it comes to fighting terrorism.
    While many of the tangible successes against core al-Qaeda 
came under President Obama, there is no question that President 
George W. Bush's administration helped to lay the groundwork 
for that progress.
    Days after the 9/11 attacks, President Bush reminded us 
that while our war on terror would begin with al-Qaeda, it 
would not end until every terrorist group that seeks to do us 
harm was found and defeated.
    I think it is fitting to remember that now, first because 
we know that the threat from other terrorist groups has grown 
in recent years, but also because al-Qaeda has not been 
defeated. They have not given up, and that threat has not yet 
been eliminated.
    So now almost 7 months into the Trump administration, I 
believe it is critically important for the new administration 
to craft and implement real strategies for countering the 
resurgence of al-Qaeda, as well as ISIS and other groups that 
still pose a real, evolving threat to our homeland and to our 
allies and interests abroad.
    We need a serious comprehensive strategy across our entire 
government. Fiery rhetoric and tough talk is not a 
comprehensive strategy. Whether you agree with the policy 
itself or not, I think we can all agree that a travel ban on a 
few Muslim countries is not a comprehensive strategy and could 
actually undermine our counterterrorism efforts by fueling 
propaganda campaigns.
    What we need is a serious, focused, long-term 
counterterrorism strategy that builds on all that we have 
learned over the past 16 years and guides us forward as we take 
on the evolving threats that we face right now and in the years 
ahead.
    I sincerely hope that people within the administration are 
working to create and implement such a strategy. I know that 
our committee would welcome the opportunity to engage in that 
process, and I look forward to hearing any input our witnesses 
have on what some priorities and goals should be as we look to 
the future of our counterterrorism efforts.
    Thank you, Mr. Chairman, again, and I yield back.
    [The statement of Ranking Member Rice follows:]
               Statement of Ranking Member Kathleen Rice
                             July 13, 2017
    As we gather to discuss the evolution and the current state of core 
al-Qaeda and its affiliates, we know that there may be no clear-cut end 
to the war on terror, and particularly the war on this particular 
group. At least no clear end that we can see today. But we also know 
that we have made real, significant progress in this fight the 16 years 
since 9/11. The United States, together with our allies and partners 
around the world, have severely weakened al-Qaeda's leadership, and 
significantly reduced their power and operations here and abroad.
    As a New Yorker, that means a great deal to me. I want to say how 
incredibly grateful I am for all those who all those who worked so hard 
and sacrificed so much in this fight--first and foremost our fallen 
heroes, service members, veterans and military families, but also our 
diplomats, and government officials, and policymakers--everyone who has 
come together and done their part to defeat an enemy that has taken so 
many innocent lives.
    I think it's important to recognize that under the Obama 
administration, we saw the creation, evolution, and implementation of 
effective counterterrorism policies that helped lead to the deaths of 
several key al-Qaeda leaders, most notably Osama bin Laden, among 
others.
    But there is no partisanship when it comes to fighting terrorism. 
And while many of the tangible successes against core al-Qaeda came 
under President Obama, there's no question that President George W. 
Bush's administration helped to lay the groundwork for that progress.
    Days after the 9/11 attacks, President Bush reminded us that while 
our war on terror would begin with al-Qaeda, it would not end until 
every terrorist group that seeks to do us harm was found and defeated. 
I think it's fitting to remember that now--first, because we know that 
the threat from other terrorist groups has grown in recent years. But 
also because al-Qaeda has not been defeated--they have not given up, 
that threat has not been eliminated.
    So now, almost 7 months into the Trump administration, I believe 
it's critically important for the new administration to craft and 
implement real strategies for countering the resurgence of al-Qaeda, as 
well as ISIS and other groups that still pose a real and evolving 
threat to our homeland and to our allies and interests abroad.
    We need a serious, comprehensive strategy across our entire 
Government. Fiery rhetoric and tough talk is not a comprehensive 
strategy. Whether you agree with the policy itself or not, I think we 
can all agree that a travel ban on a few Muslim countries is not a 
comprehensive strategy--and could actually undermine our 
counterterrorism efforts by fueling propaganda campaigns.
    What we need is a serious, focused, long-term counterterrorism 
strategy that builds on all that we've learned over the past 16 years, 
and guides us forward as we take on the evolving threats that we face 
right now and in the years ahead. I sincerely hope that people within 
the administration are working to create and implement such a strategy, 
I know that our committee would welcome the opportunity to engage in 
that process, and I look forward to hearing any input our witnesses 
have on what some priorities and goals should be as we look to the 
future of our counterterrorism efforts.

    Mr. King. Thank you, Miss Rice. Other Members of the 
committee are reminded that opening statements may be submitted 
for the record.
    We are pleased to have a distinguished panel of witnesses 
before us today on this vital topic. All the witnesses are 
reminded that their written testimony will be submitted for the 
record.
    Our first witness is Katherine Zimmerman. Ms. Zimmerman is 
a research fellow with the American Enterprise Institute which 
she manages AEI's Critical Threats Project. As a senior al-
Qaeda analyst, she is a sought-after expert by major news 
networks and print news.
    She has written a number of articles for AEI and other 
publications. She continues to be a great resource for the 
committee. It is my pleasure to welcome Ms. Zimmerman back 
before the subcommittee.
    Ms. Zimmerman, thank you. You are recognized.

  STATEMENT OF KATHERINE ZIMMERMAN, RESEARCH FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Ms. Zimmerman. Chairman King, Ranking Member Rice, and 
distinguished Members of the subcommittee, thank you for this 
opportunity to discuss the persistent threat from al-Qaeda. 
U.S. strategy is setting the stage for al-Qaeda to lead the 
Salafi-jihadi movement again.
    Al-Qaeda has adapted and evolved to exploit our own 
strategic weaknesses, and our strategy has changed little since 
2001. U.S. policy no longer recognizes the seriousness of al-
Qaeda's threat.
    The United States risks strategic surprise with al-Qaeda. 
Nothing indicates that al-Qaeda has altered its long-term 
objectives. Al-Qaeda's entrenchment into local conflicts is 
dangerous for the United States because al-Qaeda seeks to alter 
Muslim communities and unifying them under its name in its 
violent struggle for Islam. Al-Qaeda is determined to bring war 
to the United States.
    Al-Qaeda is almost certainly refining and improving its 
external attack capabilities in order to deploy them against 
the United States at a future date. If current policy 
continues, al-Qaeda will begin attacking the United States anew 
with orders of magnitude, more resources, experience, and 
capability than it did on 9/11.
    I would like to highlight key points from my prepared 
statement today: First, al-Qaeda's focus on local wars is not a 
sign of its decline; second, the al-Qaeda network is robust 
today; and third, on-going trends will strengthen al-Qaeda.
    To my first point, the impression of al-Qaeda's weakness is 
a deliberate pose. Senior al-Qaeda leadership rightly 
determines that portraying global dissolution and publicly 
embracing local fights would create confusion in Western minds 
about al-Qaeda's strength and its threat to the United States.
    In fact, the West's prioritization of the anti-ISIS fight 
and the spread of civil wars and conflict in Muslim states gave 
al-Qaeda the freedom of operation to focus on strategic 
objective--the transformation of Muslim societies.
    Al-Qaeda deliberately localized to build a popular support 
base and key human terrain in the Muslim world. Al-Qaeda's 
leaders have been incredibly focused on gaining popular 
acceptance since the 1990's, but had failed repeatedly.
    Al-Qaeda seized the opportunity presented by the break-down 
of states and governance across the Muslim world after the Arab 
Spring to finally win over the people. It seeks to buy support 
with its rebranding, softening its image and focusing on the 
local population.
    It is doing so by delivering much-needed assistance to fill 
governance gaps and by fighting alongside local militias in 
defense of the community.
    Al-Qaeda brings basic services, food, water, electricity, 
justice and security, and military skills and expertise to 
these communities, which accept al-Qaeda's presence based on a 
short-term calculation to secure their own survival. This is 
how al-Qaeda insinuates itself.
    Al-Qaeda leadership made deliberate decisions to avoid 
attempting large-scale attacks in the United States and Europe 
and establishing Taliban-like governments. If accessed 
correctly this posture would prevent additional Western 
military action against it and further a narrative that it was 
weak.
    To my second point, the al-Qaeda network is strong today 
and al-Qaeda's decentralized approach has made it more 
resilient. Al-Qaeda obfuscates its relationships with local 
groups to better achieve its objectives.
    It is strengthening in each of the theaters in which it is 
active. Al-Qaeda prioritizes Syria as the primary struggle 
against Western and Russian aggression. It has used the 
conditions created by the Syrian civil war and the anti-ISIS 
fight to establish deep sanctuary in the northwest and position 
itself to expand further. Al-Qaeda is poised to reenter Iraq as 
ISIS weakens.
    It is reconstituting in Afghanistan in concert with the 
Afghan Taliban. Al-Qaeda in the Arabian Peninsula is set to 
strengthen further in the context of the Yemeni civil war.
    Al-Shabaab in Somalia serves as a key node between the 
Middle East and Africa for the al-Qaeda network, and it is 
gaining ground. Al-Shabaab remains a regional threat, 
particularly to Kenya.
    Al-Qaeda reconsolidated in the Maghreb and Sahel after the 
rise of ISIS. It remains embedded in the insurgencies, and it 
is looking to reassert itself in the Indian subcontinent 
through the Punjab. Rising sectarian attacks in India might 
help drive support to al-Qaeda.
    The senior leadership is no longer concentrated in 
Afghanistan-Pakistan, nor is it synonymous with what the Obama 
administration once dubbed al-Qaeda core.
    Al-Qaeda's senior leadership is found today in Syria, 
Yemen, Afghanistan, Pakistan, and beyond. The old leadership 
continues to provide strategic guidance, Ayman al-Zawahiri 
issues overall direction to the network, and leadership 
attrition has compelled al-Qaeda to reveal a deeper bench than 
we knew it was there before.
    But a new generation of al-Qaeda is also rising. Osama bin 
Laden's son, Hamza, issued his first statement in August 2015 
threatening attacks against the West. It also appears to be 
developing new leaders inside of Syria, though al-Qaeda is 
minimizing its public face for the time being. Affiliate 
leaders throughout the world will serve to amplify al-Qaeda's 
echo chamber.
    To my third point, trends favor al-Qaeda's future. Synergy 
among global trends will increase support for the Salafi-jihadi 
movement. Al-Qaeda seeks to capture this support. Rising 
sectarianism, not just Sunni-Shia, but Muslim and non-Muslim, 
will polarize populations.
    Anti-Muslim Brotherhood policies pushed by Egyptian 
President Sisi and Emirati Crown Prince bin Zayed will almost 
certainly feed extremism rather than eliminate it. Al-Qaeda 
seeks to capture these disenchanted with the non-violent route.
    Al-Qaeda may continue to attack Russian targets for 
Russia's role in Syria. It may begin attacks against the 
Emirates because of the Emirati role in Yemen, and it may also 
start to focus on Egypt.
    We need to understand that al-Qaeda is prepared for the 
weakening of ISIS. ISIS galvanized a global movement and 
inspired a wave of fight-in-place attacks in the West, 
something al-Qaeda never did.
    But al-Qaeda seeks to recruit these individuals to its own 
movement and to capture the remnants of ISIS. Warningly, the 
voices of pro-al-Qaeda ideologues have been amplified as a tool 
against ISIS to promote a more moderate group in al-Qaeda.
    Al-Qaeda's evolution ensures that it will threaten the 
United States long-term and emerge stronger from the chaos that 
has enveloped the Muslim world. The American policy decision 
that al-Qaeda is not a priority threat gives al-Qaeda time and 
space to stockpile resources and plan truly devastating attacks 
of multiple types against the United States.
    It is near impossible to guess when al-Qaeda will resume 
attacks against the United States. Our history shows that we 
have gotten it utterly wrong every time before. It is not 
sufficient just to defeat al-Qaeda and ISIS.
    The Salafi-jihadi movement predates both groups and will 
generate another transnational organization if they are 
defeated. The United States must move beyond focusing on the 
groups and instead seek to weaken and defeat the global Salafi-
jihadi movement. I thank the subcommittee for its attention.
    [The prepared statement of Ms. Zimmerman follows:]
               Prepared Statement of Katherine Zimmerman
                             July 13, 2017
    Chairman King, Ranking Member Rice, and distinguished Members, 
thank you for the opportunity to testify before the committee on the 
persistent threat from al-Qaeda.
    U.S. strategy is setting the stage for al-Qaeda to lead the Salafi-
jihadi movement again when that movement is the strongest it has ever 
been globally. Al-Qaeda has adapted and evolved as America focused 
myopically on retaking two cities from the Islamic State of Iraq and al 
Sham (ISIS). Al-Qaeda has become more resilient and ready to exploit 
our own strategic weaknesses. It seized the opportunity presented by 
conflicts in the Muslim world to advance its strategic objectives. It 
has acted deliberately below the thresholds that would set off alarms 
in Washington. It embedded itself in local insurgencies from Mali to 
Syria to Afghanistan that will serve as a source of strength for the 
global organization. The rise of the ISIS galvanized the Salafi-jihadi 
movement globally, which will continue to strengthen al-Qaeda long 
after ISIS is gone. America's strategy to counter al-Qaeda has remained 
relatively unchanged since 2001 even as the organization has adapted. 
The United States does not even recognize any more the seriousness of 
the threat al-Qaeda poses.
                 al-qaeda's role as the vanguard force
    Al-Qaeda sees itself as the vanguard of the Salafi-jihadi movement. 
It does not seek to establish a state in the short term, unlike ISIS. 
It aims, rather, to provide strategic guidance and capabilities to the 
network of individuals, groups, and organizations that subscribe to the 
Salafi-jihadi ideology and form the true base of the movement.
    Al-Qaeda's objectives remain to unify the umma, Muslim community, 
in a struggle to destroy current Muslim societies and build in their 
stead what al-Qaeda considers to be true Islamic polities and 
eventually, a caliphate. Al-Qaeda prioritizes the Muslim world rather 
than attacking the West. It works hard to teach its religion to the 
masses, having learned through experience that too-rapid imposition of 
its views will alienate the population. It compares Muslims today to 
children, who must first learn right from wrong before they can be held 
accountable. Al-Qaeda senior leadership directed attacks against the 
United States and the West to compel them to retreat from the Muslim 
world and end their support for state governments, which al-Qaeda 
believed would pave the way for the success of popular revolutions in 
the name of Islam. Attacks against the West were always subordinate to 
the larger aims al-Qaeda pursues in the Muslim world itself.
    Salafi-jihadi ideology shapes al-Qaeda's global strategy and 
operations in predictable ways. It holds that Islam must be revived in 
rigid allegory to the initial spread of the religion (See Figure 1). 
That allegory contains three primary phases: Mecca I, in which Mohammad 
began to receive the Qur'an from Allah but was threatened and 
persecuted in a hostile community; Medina, during which he emigrated to 
a more favorable location and built the base of the religion and its 
core followers; and Mecca II, when he returned to his original 
community, gained the ascendancy, and began to expand the faith broadly 
and rapidly. Al-Qaeda assesses the Salafi-jihadi movement to be in the 
Medina phase of defensive jihad and gathering strength through 
governance and building military capabilities. (ISIS, by contrast, 
argues that the movement is in the Mecca II phase.) Like the Prophet 
Mohammed during this period, al-Qaeda uses mediation and arbitration as 
a mechanism to generate support in local communities.
  figure 1.--the phases of the prophet's life and al-qaeda's strategy
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Source.--Author.

    Divisions weaken the umma, thus al-Qaeda rejects state nationalism 
and judging the purity of Muslims, especially when facing a common 
enemy. Al-Qaeda seeks to eradicate the Nation as a primary form of 
identity for Muslims because al-Qaeda saw nationalism as part of the 
failure of the mujahideen in the 1990's in Algeria, Tunisia, Libya, and 
Egypt. Ayman al-Zawahiri stated:

``The cause of Sham is the cause of the entire umma. . . .The enemy 
seeks to transform the Jihad in Sham from a cause for the Muslim umma 
to an exclusively nationalist Syrian cause, then turn the nationalist 
cause to an issue of specific regions and localities, and finally 
reduce this to an issue of a few cities, villages, and 
neighborhoods.''\1\
---------------------------------------------------------------------------
    \1\ SITE Intelligence Group, ``AQ Leader Zawahiri Declares Syrian 
Jihad an Issue Concerning All Muslims, Calls to Reject Nationalist 
Sentiment,'' April 23, 2017, https://news.siteintelgroup.com/Jihadist-
News/aq-leader-zawahiri-declares-syrian-jihad-an-issue-concerning-all-
muslims-calls-to-reject-nationalist-sentiment.html.

    Al-Qaeda also rejects the division that ISIS introduced to the 
Salafi-jihadi movement because it distracted Muslims from fighting a 
shared, common enemy.
    Zawahiri's September 2013 guidance identified a military line of 
effort against the United States and others to weaken their support for 
Muslim governments and a political line of effort to both form and 
cultivate the vanguard force and mobilize the masses in the name of 
Islam.\2\ Zawahiri gave explicit guidelines for operational activities 
and legitimate targets, which local affiliates have reinforced.\3\ 
Specifically, Zawahiri called for al-Qaeda to support the revolutions 
of ``the oppressed against the oppressors'' regardless of whether the 
groups are Muslim and to teach the revolutionaries Islam. Al-Qaeda 
affiliates all follow this guidance.
---------------------------------------------------------------------------
    \2\ SITE Intelligence Group, ``Zawahiri Gives General Guidelines 
for Jihad Regarding Military, Propaganda,'' September 13, 2013, https:/
/news.siteintelgroup.com/Jihadist-News/zawahiri-gives-general-
guidelines-for-jihad-regarding-military-propaganda.html.
    \3\ Al-Qaeda in the Indian Subcontinent, for example, released a 
substantial document that provided a ``Code of Conduct'' for mujahideen 
in the Indian subcontinent. See SITE Intelligence Group, ``AQIS 
Publishes Its `Code of Conduct,' Declares U.S. Citizens and Interests 
in Pakistan Its `Foremost Priority,' '' June 25, 2017, https://
ent.siteintelgroup.com/statements/aqis-publishes-its-code-of-conduct-
declares-u-s-citizens-and-interests-in-pakistan-its-foremost-
priority.html.
---------------------------------------------------------------------------
    Al-Qaeda has thus become less visible, less oppressive, and less 
violent because its leaders have changed their approach, not because 
the organization has become weaker. It has, on the contrary, grown much 
stronger and in ways more dangerous than ever before.
                       the al-qaeda network today
    Al-Qaeda deliberately ``localized'' to build a durable popular base 
in key human terrain in the Muslim world. The conflicts that spiraled 
out of control after the initial popular movements during the 2011 Arab 
Spring did what al-Qaeda had never been able to do for itself: They 
mobilized the Sunni populations against the state. Al-Qaeda seized the 
opportunity and insinuated itself into the local insurgencies to hijack 
and redirect them toward its own purposes. It intertwined its network 
with the Salafi-jihadi base, which serves as a source of resilience and 
strength for al-Qaeda. It eschewed directed attacks against Western 
targets, assessing correctly that the absence of such attacks would 
lead to the false narrative that it was weak and prevent additional 
military action against its groups. Al-Qaeda is not in decline; it is 
preparing to emerge from the shadows to carry forward the Salafi-jihadi 
movement.
    The conditions in the Muslim world empower al-Qaeda, ISIS, and the 
Salafi-jihadi base. The collapse of five states since 2011--Iraq, 
Syria, Yemen, Libya, and Mali--and the weakening of strong states such 
as Egypt made Sunni populations vulnerable. Communities mobilized in 
their own defense or as part of a popular insurgency. Al-Qaeda and the 
Salafi-jihadi base support their efforts; have also filled governance 
gaps, exacerbated by conflict; and have expanded into Sunni 
communities. Rising sectarianism and the slow polarization of societies 
from Africa to the India subcontinent created additional opportunities 
for the Salafi-jihadi base to expand. Communities that had rejected 
Salafi-jihadi ideology for decades now tolerate its presence as part of 
a short-term calculus to survive.
    The marbling of al-Qaeda in local movements sometimes creates the 
appearance that local groups reject al-Qaeda as they break and reform 
relations with it. However, the shifting and realignment within the 
network is largely over organizational, rather than ideological, 
differences. Normal personal power politics and operational-level 
disagreements play a role in al-Qaeda's organizational relations, too. 
These fractures must not be mistaken for overall weakness or 
disintegration. Nor should the United States try to distinguish between 
the globally-focused and locally-focused groups, as the Salafi-jihadi 
ideology is inherently global in nature. The focus on the local 
objectives advances the overall global objectives of the Salafi-jihadi 
movement by design.
    Counterargument: Al-Qaeda Is in Decline.--Serious and respectable 
experts argue against the view outlined above. Daniel Byman, among 
others, recently argued that al-Qaeda's strength has waned because of 
its low operational pace, limited resources and popular support, and 
backward slide in its own objectives.\4\ Yet he notes that even as al-
Qaeda declined, the Salafi-jihadi movement that it helped mobilize is 
thriving. Byman based his assessment on the absence of a successful 
mass-casualty attack in the West in the past 10 years and the focus of 
the affiliates on local and regional objectives. He cited al-Qaeda 
core's inability to attract recruits--now drawn to ISIS--and the core's 
reliance on its affiliates for resources, rather than the reverse. 
Byman further identified the rejection of al-Qaeda by popular clerics 
as an indicator the group is failing. He noted, finally, that al-Qaeda 
is in decline because the organization underestimated the effect that 
the U.S. counterterrorism campaign and al-Qaeda's alienation from the 
people had on the organization itself.\5\
---------------------------------------------------------------------------
    \4\ Daniel Byman, ``Judging al-Qaida's Record, Part 1: Is the 
Organization in Decline?'' Lawfare blog, June 27, 2017, https://
lawfareblog.com/judging-al-qaedas-record-part-i-organization-decline.
    \5\ Daniel Byman, ``Judging al-Qaida's Record, Part II: Why has al-
Qaida Declined?'' Lawfare blog, June 28, 2017, https://lawfareblog.com/
judging-al-qaedas-record-part-ii-why-has-al-qaeda-declined.
---------------------------------------------------------------------------
    Many analysts have interpreted al-Qaeda's localization, its 
marbling in the local Salafi-jihadi base, as a strategic error that 
will weaken the al-Qaeda organization in the long term. Charles Lister, 
for example, cited al-Qaeda's dissolution of its affiliate in Syria, 
Jabhat al-Nusra, and the concessions al-Qaeda leaders have made in 
Syria to a local support base as constraints on al-Qaeda's activities 
and an indicator that al-Qaeda will be absorbed into the local fight. 
Lister argued that the shifts in Syria move what was al-Qaeda's 
affiliate further outside of the al-Qaeda senior leadership's sphere, 
breaking up what was once a global network.\6\ Al-Qaeda's deliberate 
localization risks its ability to achieve its long-term objectives in 
this view, as al-Qaeda groups compromise on ideology and strategy to 
court local support. Al-Qaeda global will become a diluted version of 
itself over time.
---------------------------------------------------------------------------
    \6\ See for example, Charles Lister, ``Al-Qaeda's Turning Against 
Its Syrian Affiliate,'' Middle East Institute, May 18, 2017, http://
www.mei.edu/content/article/al-qaeda-s-turning-against-its-syrian-
affiliate.
---------------------------------------------------------------------------
    Al-Qaeda may indeed be in decline, but the evidence strongly 
suggests otherwise. Al-Qaeda's leadership statements, its stated 
objectives and strategy to achieve these objectives, and its 
adaptations to new conditions lead to a different assessment.
    Al-Qaeda Rising.--Al-Qaeda benefits from the rise of ISIS and the 
conflicts that have swept through the Muslim world. It is positioned 
itself across the Muslim world to recapture the leadership of the 
Salafi-jihadi movement as pressure increases on ISIS. Al-Qaeda's shift 
toward decentralized operations and the dispersal of its network built 
resilience within the organization and adapted to pressures from U.S.-
led counterterrorism actions.\7\ It obfuscates is relationships with 
the Salafi-jihadi base to better achieve local objectives and to 
confound analysts and policymakers. Al-Qaeda gained local popular 
support previously denied to it by the very population it sought to 
influence and now governs communities by proxy to begin to restructure 
society in pursuit of its long-term objectives.
---------------------------------------------------------------------------
    \7\ Katherine Zimmerman, ``The al-Qaeda Network: A New Framework 
for Defining the Enemy,'' AEI's Critical Threats Project, September 10, 
2013, https://www.criticalthreats.org/analysis/the-al-qaeda-network-a-
new-framework-for-defining-the-enemy.
---------------------------------------------------------------------------
    ISIS has strengthened al-Qaeda. It has galvanized the global 
Salafi-jihadi movement and drawn the West's attention. It has inspired 
a wave of would-be recruits to conduct fight-in-place attacks in the 
West, something al-Qaeda was never able to do. Competition between ISIS 
and al-Qaeda is limited to the top echelons of the movement: Groups on 
the ground deconflict and sometimes even cooperate. Should ISIS's 
global network collapse, al-Qaeda will be able to capture the remnants 
and incorporate ISIS's capabilities into its own organization. Al-Qaeda 
casts itself as more moderate than ISIS, gaining acceptance in 
populations that seek to defend themselves from ISIS. Finally, the 
West's prioritization of the anti-ISIS fight and the spread of civil 
wars and conflict in Muslim States gave al-Qaeda the freedom of 
operation to focus on a strategic objective: The transformation of 
Muslim societies.
    Al-Qaeda's ``rebranding'' in the post-Arab Spring environment--the 
softening of its image and focus on local populations--is intended to 
buy support from the population. The shift signaled an inflection in 
al-Qaeda's population-centric approach in which it began to use the 
Salafi-jihadi base as a means to entrench itself in local contexts. 
Zawahiri reinforced this approach when he took over the movement from 
Osama bin Laden. Zawahiri experienced failure in Egypt in the 1990's as 
the population rejected his Egyptian Islamic Jihad group completely. 
This failure shapes Zawahiri's decision making. He is sensitive to the 
requirement of gaining popular acceptance and thus continuously forbids 
actions that could isolate al-Qaeda from the people. He recently 
ordered groups not to attack even legitimate targets if the masses 
would not understand the purpose of the action.\8\ Al-Qaeda seeks to 
change the very fabric of Muslim society and cannot do so from a 
position of isolation.
---------------------------------------------------------------------------
    \8\ SITE Intelligence Group, ``AQIS Publishes Its `Code of 
Conduct,' Declares U.S. Citizens and Interests in Pakistan Its 
`Foremost Priority.' ''
---------------------------------------------------------------------------
    Al-Qaeda is aggressively working through the Salafi-jihadi base to 
transform Sunni communities so that they willingly accept its ideology. 
The spread of violence and collapse of order imperils communities. 
Some, such as those in Syria, are under direct threat. These 
communities now accept the presence of al-Qaeda and the Salafi-jihadi 
base because their presence delivers much-needed assistance so that the 
community can survive. Al-Qaeda insinuates itself indirectly through 
the partners and proxies in the Salafi-jihadi base that focus on 
meeting the needs of the community. Communities receive not only basic 
assistance but also a sermon on Islam. The intent is to spread the 
Salafi-jihadi ideology alongside good works. Al-Qaeda embeds itself 
into local insurgencies by providing much-needed capabilities, 
resources, or planning and then hijacks the insurgency toward its own 
purpose. Al-Qaeda fills governance gaps in such a way as to deliver its 
message alongside basic services. Al-Qaeda channels resources through 
Salafi charities and organizations and elevates local Salafis to 
positions of authority in communities to begin to transform the 
governance system into one that meets al-Qaeda's requirements under 
shari'a.
    The impression of al-Qaeda's weakness is a deliberate pose. Senior 
al-Qaeda leadership correctly assessed that portraying global 
dissolution and publicly embracing local fights would create confusion 
in Western minds about the threat al-Qaeda poses. The group seeks to 
remain below the level of U.S. and Western policy redlines to pursue 
its strategic objectives in the Muslim world without attracting Western 
responses. Al-Qaeda has thus for the most part avoided attempting 
large-scale attacks in the United States and Europe and establishing 
Taliban-like governments. Al-Qaeda has messaged that it no longer 
threatens the West, that it lacked centralized leadership, and that the 
rise of ISIS crippled it.\9\ Al-Qaeda's prioritization of local fights 
also exploits the reluctance in Western governments toward intervening 
in local conflicts.
---------------------------------------------------------------------------
    \9\ Two top al-Qaeda ideologues, Abu Muhammad al Maqdisi and Abu 
Qatada, discussed the weakening of al-Qaeda in a 2015 interview with 
the Guardian. Shiv Malik et al., ``How ISIS Crippled al-Qaida,'' 
Guardian, June 10, 2015, https://www.theguardian.com/world/2015/jun/10/
how-isis-crippled-al-qaida.
---------------------------------------------------------------------------
    Al-Qaeda today.--Al-Qaeda currently seeks to incite the umma to 
undertake a global jihad to defend Muslims. Propaganda and media 
material focuses on the arguments to fight Western and Russian 
aggression against Muslims and on the need to unify against common 
enemies. It tailors its message toward target audiences in Muslim lands 
that are threatened and in the West. Al-Qaeda encourages those in 
Muslims lands to support the mujahideen fighting in their defense by 
whatever means possible. It tells Muslims in the West to mobilize and 
conduct small-scale attacks against Jews, Americans, and NATO allies, 
Russians, and those denigrating Islam. The group that conducted the 
recent terrorist attack in St. Petersburg, Russia, claimed to have done 
so on al-Qaeda's orders.
    Al-Qaeda senior leadership (AQSL) no longer concentrates in the 
Afghanistan-Pakistan theater. Neither is it any longer synonymous with 
what the Obama administration dubbed ``al-Qaeda core''--the al-Qaeda 
node in Afghanistan-Pakistan. This shift began in the early 2010's. 
AQSL is now dispersed throughout al-Qaeda's network with strong 
concentrations in Syria (primarily al-Qaeda's network that had been 
based in Iran), Yemen, and Afghanistan-Pakistan. AQSL is comprised of 
the senior leaders of al-Qaeda affiliates and veteran operatives, 
including those who gained their freedom from prison during the Arab 
Spring uprisings. The dispersion of the AQSL cadre creates certain 
operational challenges, such as rapid coordination, but also 
complicates Western efforts to eliminate the group.
    Affiliate leadership still coordinates for strategic messaging. The 
joint releases by al-Qaeda in the Arabian Peninsula (AQAP) and al-Qaeda 
in the Islamic Maghreb (AQIM) are the strongest points of coordination. 
These groups issued a joint statement eulogizing Omar Abdul Rahman (the 
Blind Sheikh) 1 day after reports of his death surfaced and one 
eulogizing Abu Khayr al Masri 4 days after his death. They may have 
secure communications to coordinate these joint statements rapidly, or 
the groups may emplace members with one another to approve such joint 
statements. The echo of the same themes across affiliate leadership 
statements during the same period is another sign of coordination. 
Common talking points on ISIS and now on the global jihad and 
authorized activities are the primary examples of this coordination.
    Al-Qaeda could again take the helm of the Salafi-jihadi movement. 
The core al-Qaeda leaders and groups remained part of the al-Qaeda 
network and have rejected ISIS. The entrenchment of its affiliates into 
local dynamics better positions al-Qaeda to capture the remnants of 
ISIS as the global anti-ISIS coalition degrades it. Al-Qaeda is 
strengthening in each of the theaters in which it is active.
    Iraq and al Sham (Syria and Lebanon).--Al-Qaeda prioritizes the 
Syrian theater as the primary struggle against Western and Russian 
aggression. AQSL emphasizes the importance of the Syrian fight for all 
Muslims. Senior al-Qaeda members operate in Syria to provide overall 
strategic guidance to al-Qaeda's Syrian network. The United States 
first identified these individuals as the ``Khorasan group'' and sought 
to eliminate the cell.\10\ Al-Qaeda operatives who had been in Iran 
began to base in Syria in 2013. Al-Qaeda secured the release of at 
least five senior operatives in a prisoner swap with Iran for an 
Iranian diplomat it captured in Yemen.\11\ These operatives then 
traveled to Syria, among them al-Qaeda's chief of military operations, 
Saif al Adel, and the late deputy leader Abu Khayr al Masri.
---------------------------------------------------------------------------
    \10\ Katherine Zimmerman, ``The Khorasan Group: Syria's al-Qaeda 
Threat,'' AEI's Critical Threats Project, September 23, 2014, https://
www.criticalthreats.org/analysis/the-khorasan-group-syrias-al-qaeda-
threat.
    \11\ Iran reported that an Iranian operation freed its diplomat in 
Yemen in March 2015. Details emerged in September 2015 of the swap. See 
BBC, ``Iranian `Operation' in Yemen Freed Kidnapped Diplomat,'' March 
5, 2015, http://www.bbc.com/news/world-middle-east-31744613; and Adam 
Goldman, ``Top al-Qaeda Operatives Freed in Prisoner Swap with Iran,'' 
Washington Post, September 18, 2015, https://www.washingtonpost.com/
world/national-security/top-al-qaeda-operatives-freed-in-prisoner-swap-
with-iran/2015/09/18/02bc58e2-5e0c-11e5-9757e4927-3f05f65_story.html.
---------------------------------------------------------------------------
    Al-Qaeda is strongest in Syria, where it has used the conditions 
created by the Syrian civil war and Operation Inherent Resolve against 
ISIS to establish deep sanctuary in the northwest and position itself 
to expand farther into the Syrian theater. Al-Qaeda is consolidating 
control over Idlib province, which it likely will retain uncontested in 
the near term. Through Jabhat al-Nusra and Salafi-jihadi organizations 
such as Ahrar al Sham, al-Qaeda co-opted the majority of Syria's 
mainstream opposition into the Salafi-jihadi ranks, establishing itself 
as the dominant force within the northern Syria's opposition.\12\ Al-
Qaeda has set conditions for the future establishment of an Islamic 
emirate--not necessarily under al-Qaeda's name--that will secure al-
Qaeda's objective to build an Islamic polity in Syria. Ayman al-
Zawahiri explicitly referenced al-Qaeda's work toward establishing an 
Islamic emirate in Syria in May 2016.\13\
---------------------------------------------------------------------------
    \12\ Jennifer Cafarella, Nicholas A. Heras, and Genevieve 
Casagrande, ``Al-Qaeda is Gaining Strength in Syria,'' Foreign Policy, 
September 1, 2016, http://foreignpolicy.com/2016/09/01/al-qaeda-is-
gaining-strength-in-syria/.
    \13\ SITE Intelligence Group, ``Zawahiri Calls Fighters' Unity in 
Syria a Matter of `Life and Death' in Audio,'' May 8, 2016, https://
news.siteintelgroup.com/Jihadist-News/zawahiri-calls-fighters-unity-in-
syria-a-matter-of-life-and-death-in-audio.html.
---------------------------------------------------------------------------
    The Syrian al-Qaeda network is one of the best-resourced nodes in 
al-Qaeda because of Syria's primacy in the global theaters for jihad. 
Syria remains a top destination for al-Qaeda's foreign-fighter flow, 
creating a large foreign recruitment base. Al-Qaeda in Syria suffered 
some financial hits because of its loss of control over oil fields, but 
these losses will not likely affect its operations.\14\ It funnels 
resources from groups in its network that receive external support 
(especially from Qatar and Turkey), it receives donations from 
individuals, conducts kidnappings for ransom, and also generates 
resources through taxation and commercial enterprise.
---------------------------------------------------------------------------
    \14\ For a detailed account on financing into Syria, see Yaya J. 
Fanusi and Alex Entz, ``Al-Qaeda's Branch in Syria: Financial 
Assessment,'' Foundation for the Defense of Democracy, June 2017, 
http://www.defenddemocracy.org/content/uploads/documents/CSIF_TFBB- 
_AQIS.pdf.
---------------------------------------------------------------------------
    Zawahiri continues to see Iraq and al Sham as a single theater for 
al-Qaeda and desires the al-Qaeda organization to reenter Iraq. He 
argued for the treatment of Iraq and al Sham as a single theater during 
the break with ISIS and continued to direct al-Qaeda support to the 
Sunni in Iraq. Zawahiri called for Syrian mujahideen to reach out in 
support of the Iraqi Sunni in an August 2016 statement:

``As for our brothers the heroes of Islam from the mujahideen of Sham, 
I urge them to help their brothers in Iraq to reorganize themselves, 
for their battle is one, and Sham is an extension of Iraq, and Iraq is 
the bedrock of Sham.''\15\

    \15\ SITE Intelligence Group, ``Zawahiri Urges Sunnis in Iraq to 
Mount Long-Term Guerrilla War Against `New Safavid-Crusader 
Occupation,' '' August 25, 2016.
---------------------------------------------------------------------------
    Al-Qaeda will reenter Iraq seeking to lead a Sunni insurgency as 
ISIS weakens.
    Afghanistan.--Al-Qaeda is reconstituting in Afghanistan in concert 
with the Afghan Taliban, which provides sanctuary to al-Qaeda. AQSL, 
such as Ayman al-Zawahiri and Hamza bin Laden, operates from the 
Afghanistan-Pakistan region. Retaining al-Qaeda's sanctuary in 
Afghanistan is a secondary but important effort for the global 
organization because the victory against the Soviets in Afghanistan 
remains al-Qaeda's crown jewel, proving that the mujahideen can defeat 
a superpower. Al-Qaeda never fully lost its sanctuary in Pakistan and 
used this base to project forward into Afghanistan again as the United 
States drew down militarily.\16\ By 2015, al-Qaeda was running large 
training camps inside Afghanistan.\17\ The United States began revising 
its assessments of al-Qaeda's strength in Afghanistan based on the 
discovery of these training camps.\18\ The United States killed senior 
al-Qaeda leaders operating in Afghanistan in an October 2016 air 
strike, their presence a telling indicator that al-Qaeda had returned 
to the country.\19\
---------------------------------------------------------------------------
    \16\ Lauren McNally and Marvin G. Weinbaum, ``A Resilient al-Qaeda 
in Afghanistan and Pakistan,'' Middle East Institute, August 2016, 
http://www.mei.edu/sites/default/files/publications/
PF18_Weinbaum_AQinAFPAK_web_1.pdf.
    \17\ Bill Roggio, ``Afghanistan's Terrorist Resurgence: Al-Qaeda, 
ISIS, and Beyond,'' testimony prepared for the House Foreign Affairs 
Committee, Subcommittee on Terrorism, Nonproliferation, and Trade, 
April 27, 2017, http://www.longwarjournal.org/wp-content/uploads/2017/
04/Cover_Roggio-Afghanistan-testimony-April-2017-final-1.pdf.
    \18\ According to remarks by Major General Jeff Buchanan, deputy 
chief of staff for the U.S. military presence in Afghanistan in April 
2016. Nick Paton Walsh, ``Al-Qaeda `Very Active' in Afghanistan: U.S. 
Commander,'' CNN, April 13, 2016, http://www.cnn.com/2016/04/13/
middleeast/afghanistan-al-qaeda/index.html.
    \19\ US Department of Defense, ``Statement by Pentagon Press 
Secretary Peter Cook on Strikes Against al-Qaida leaders in 
Afghanistan,'' press release, December 19, 2016, https://
www.defense.gov/News/News-Releases/News-Release-View/Article/1033929/
statement-by-pentagon-press-secretary-peter-cook-on-strikes-against-al-
qaida-le/.
---------------------------------------------------------------------------
    Yemen.--Yemen serves as a critical safe haven to support al-Qaeda's 
global operations and a cadre of senior leaders, and as the battlefield 
for the religiously significant Arabian Peninsula. AQAP remains one of 
al-Qaeda's premier nodes and is set to strengthen further in the 
context of Yemen's civil war. AQAP facilitates global al-Qaeda 
operations. AQAP-trained bombmakers went to Syria and Libya in 2011 and 
2012. AQAP almost certainly provided the equipment or the expertise for 
al-Shabaab's 2016 laptop bomb.\20\ Al-Qaeda leaders in Yemen, including 
long-time veterans, provide strategic guidance alongside senior leaders 
in Afghanistan-Pakistan to the global movement.
---------------------------------------------------------------------------
    \20\ Katherine Zimmerman, ``Did al Shabaab Get a Bomb on Plane? Or 
Not?'' AEIdeas, February 5, 2016, http://www.aei.org/publication/did-
al-shabaab-get-a-bomb-on-a-plane-or-not/.
---------------------------------------------------------------------------
    The collapse of Yemen into civil war presented al-Qaeda with a 
second chance to embed itself in the population.\21\ Al-Qaeda's 
experiment with governance in 2011 failed after the group lost the 
support of the population in which it was operating. It learned from 
its errors. It used proxy groups drawn from the local population to 
provide security and governance after that debacle, which ensured a 
local face on al-Qaeda's efforts. These groups seized control of and 
administered Yemen's third-largest port city for a year, making nearly 
$2 million per day, and the populated areas that AQAP had controlled in 
2011.\22\ An Emirati-led counterterrorism operation ended AQAP's 
control of terrain, but AQAP's strength comes from its relationship 
with the mobilized Sunni population in Yemen, not the land.\23\
---------------------------------------------------------------------------
    \21\ Katherine Zimmerman, ``AQAP: A Resurgent Threat,'' CTC 
Sentinel, September 11, 2015, https://ctc.usma.edu/posts/aqap-a-
resurgent-threat.
    \22\ Katherine Zimmerman, ``AQAP Expanding Behind Yemen's 
Frontlines,'' AEI's Critical Threats Project, February 17, 2016, 
https://www.criticalthreats.org/analysis/aqap-expanding-behind-yemens-
frontlines; and Noah Browning, Jonathan Saul, and Mohammed Ghobari, 
``Al-Qaeda Still Reaping Oil Profits in Yemen Despite Battlefield 
Reverses,'' Reuters, May 27, 2016, http://www.reuters.com/article/us-
yemen-security-smuggling-idUSKCN0YI0Q2.
    \23\ Katherine Zimmerman, ``AQAP Post-Arab Spring and the Islamic 
State,'' in How al-Qaeda Survived Drones, Uprisings, and the Islamic 
State, edited by Aaron Y. Zelin, Washington Institute, June 2017, 
http://www.washingtoninstitute.org/policy-analysis/view/how-al-qaeda-
survived-drones-uprisings-and-the-islamic-state.
---------------------------------------------------------------------------
    East Africa.--Al-Qaeda affiliate al-Shabaab serves as a key link 
between the Middle East and Africa for the al-Qaeda network and is 
gaining ground in Somalia.\24\ Al-Shabaab still administers parts of 
south-central Somalia and generates funding through taxation and 
control over certain trade.\25\ It has increasingly projected force 
back into Mogadishu, Somalia's capital, and into northern Kenya. Al-
Shabaab has also conducted multiple high-profile raids on military 
bases in Somalia that decimated military units and restocked al-
Shabaab's military equipment. Its attraction is not its attacks against 
the government or African Union peacekeeping forces, but rather its 
competitive shadow government that appeals to disenfranchised 
clans,\26\ which is how al-Shabaab expanded in Somalia originally. Al-
Shabaab could broaden its support base through its limited provision of 
humanitarian aid as famine looms in Somalia.\27\ It seeks to influence 
the Kenyan electorate and stoke tensions ahead of the August 2017 
elections, which may result in political unrest in the country.
---------------------------------------------------------------------------
    \24\ Katherine Zimmerman, Jacqulyn Meyer Kantack, and Colin Lahiff, 
``U.S. Counterterrorism Objectives in Somalia: Is Mission Failure 
Likely,'' AEI's Critical Threats Project, March 1, 2017, https://
www.criticalthreats.org/analysis/us-counterterrorism-objectives-in-
somalia-is-mission-failure-likely.
    \25\ Yaya J. Fanusi and Alex Entz, ``Al-Shabaab: Financial 
Assessment,'' Foundation for Defense of Democracy, June 23, 2017, 
http://www.defenddemocracy.org/content/uploads/documents/CSIF_TFBB_Al-
Shabaab_v05_web.pdf.
    \26\ Tricia Bacon, ``This is Why al Shabaab Won't Be Going Away 
Anytime Soon,'' Washington Post, July 6, 2017, https://
www.washingtonpost.com/news/monkey-cage/wp/2017/07/06/this-is-why-al-
shabaab-wont-be-going-away-any-time-soon/.
    \27\ Jordan Indermeuhle, ``Al Shabaab's Humanitarian Assistance,'' 
AEI's Critical Threats Project, April 24, 2017, https://
www.criticalthreats.org/analysis/al-shabaabs-humanitarian-response.
---------------------------------------------------------------------------
    Sahel.--Al-Qaeda's network in the Sahel now operates under the name 
Jama'a Nusrat al Islam wa al Muslimeen (JNIM), merging various Salafi-
jihadi groups that had been cooperating with al-Qaeda. Al-Qaeda 
targeted key human terrain in the Sahel in order to expand its base. 
Iyad ag Ghali, JNIM's leader, not only heads al-Qaeda's associated 
group in the Sahel, but is also a key smuggler and leader within the 
Ifoghas Tuareg. Al-Qaeda embedded first within the 2012 Tuareg 
insurgency in Mali and then helped stoke a Fulani insurgency in central 
Mali.\28\ Its recruitment of Fulanis likely enabled al-Qaeda's attacks 
against Western targets in Burkina Faso and the Ivory Coast. Salafi-
jihadi groups are reconstituting in northern Mali after the 2013 French 
intervention. JNIM coordinates closely with AQIM and could be 
subordinated to the al-Qaeda affiliate. A breakaway faction pledged to 
ISIS in the Sahara, but its presence has not affected al-Qaeda's 
activities. It is not clear whether al-Qaeda will restore relations 
with Boko Haram, which has split with both factions cleaving to ISIS.
---------------------------------------------------------------------------
    \28\ Alix Halloran and Katherine Zimmerman, ``Warning from the 
Sahel: al-Qaeda's Resurgent Threat,'' AEI's Critical Threats Project, 
September 1, 2016, https://www.criticalthreats.org/analysis/warning-
from-the-sahel-al-qaedas-resurgent-threat.
---------------------------------------------------------------------------
    Maghreb.--ISIS and al-Qaeda compete for the loyalty of North 
African groups. Al-Qaeda reunified in North Africa after the split with 
ISIS, consolidating multiple splinter groups that had left AQIM since 
2011 to avoid division in its ranks. Al-Qaeda aims to preserve its 
sanctuaries and continue to capture foreign fight flows from the 
region. These include positions in Algeria, Tunisia, and Libya. It is 
not yet clear what al-Qaeda's play is with its dissolution of Ansar al 
Sharia in Libya, but it may be a move similar to Jabhat al-Nusra's 
dissolution in Syria that will permit al-Qaeda personnel to remain 
accepted by the local populations. Al-Qaeda will almost certainly 
benefit from Egyptian President Abdel Fattah el Sisi's crackdown on 
political and violent Islamists in Egypt and in Libya. AQIM continues 
to generate resources through smuggling and kidnappings for ransom that 
it shares with JNIM and other members of the Salafi-jihadi base.
    Indian Subcontinent.--The al-Qaeda presence in the Indian 
subcontinent remains weak after Ayman al-Zawahiri announced the launch 
of a new affiliate in September 2014.\29\ Al-Qaeda divides the 
Pakistani theater by ethnic group. The Pashtun are part of its Khorasan 
theater, which includes Afghanistan and Iran, and the Punjab are under 
al-Qaeda in the Indian Subcontinent (AQIS), which works through the 
Indian Punjab and Bangladesh. A recent surge in propaganda from AQIS 
leadership may indicate an attempt to revive the group.\30\
---------------------------------------------------------------------------
    \29\ Anurag Chandran, ``Al-Qaeda in the Indian Subcontinent: Almost 
Forgotten,'' AEI's Critical Threats Project, September 3, 2015, https:/
/www.criticalthreats.org/analysis/al-qaeda-in-the-indian-subcontinent-
almost-forgotten.
    \30\ Critical Threats Project, ``Threat Update,'' July 6, 2017, 
https://www.criticalthreats.org/briefs/threat-update/update-and-
assessment-july-6-2017.
---------------------------------------------------------------------------
                       al-qaeda's next generation
    U.S. counterterrorism actions have significantly degraded the al-
Qaeda leadership cadre over the years. But targeted killing has only 
had a short-term effect on the global organization. Al-Qaeda had a much 
deeper bench than assumed in 2001 when the high-value targeting began 
and has been able to generate a next generation of leaders who are 
rising to the fore today. Al-Qaeda's ideology and the Salafi-jihadi 
ideology provided the group's doctrine and strategy, which is exogenous 
to any single individual.
    The old generation continues to provide strategic guidance to the 
Salafi-jihadi movement. The voices of pro-al-Qaeda ideologues, in fact, 
have been amplified as a tool against ISIS. Abu Qatada and Abu Muhammad 
al Maqdisi, for example, are active on the global stage to condemn 
ISIS, but in the process, justify support for al-Qaeda's methods (even 
as they portray al-Qaeda as weak). Ayman al-Zawahiri, whom many 
dismissed as irrelevant and uncharismatic, still issues guidance to his 
subordinates and addresses those living in Muslim lands to call them to 
join the jihad. Operational tensions between field commanders and the 
headquarters persist today, especially in Syria, as they did in the 
2000's in Iraq. Zawahiri likewise might be elevating his former network 
from his days leading the Egyptian Islamic Jihad. Less visible but 
still active is a cadre of senior leaders based in Syria and 
Afghanistan-Pakistan such as Saif al Adel and others. Mokhtar 
Belmokhtar, if he is still alive, is coordinating operations in the 
Sahel.
    Attrition at the leadership level compelled al-Qaeda to unmask 
long-standing senior operatives who could speak with legitimacy on a 
global platform. AQAP, which had lost its leader, deputy leader, and 
religious officials in a year, released a video showcasing the depth of 
its bench in Yemen in December 2015. Sheikh Ibrahim al Banna, who 
served as AQAP's security chief, appeared in the video after keeping a 
low profile because he was reported to have been killed in 2010. Al 
Banna earned a degree from al Azhar University, giving him religious 
credentials that add authority to his messages to all Muslim to embrace 
jihad. Another individual in the video was Ibrahim al Qosi, a former 
Guantanamo detainee released to Sudan who claimed to have been 
operating from Yemen since December 2014. Al-Qaeda continues to 
leverage individuals who had returned to the battlefield from 
Guantanamo as a badge of honor.
    A new generation of al-Qaeda is rising. Osama bin Laden had been 
cultivating his son, Hamza, for years before his death. Al-Qaeda's al 
Sahab media released a message from Hamza bin Laden for the first time 
in August 2015.\31\ Hamza called for lone-wolf attacks in the West. His 
continued focus on inciting attacks by Muslims living in the West, 
alongside criticism of the Saudi Kingdom, seems to indicate that Hamza 
is taking on his father's mantle. Al-Qaeda operatives released from 
prison in the Arab Spring and after, such as Khaled Batarfi in Yemen, 
have also taken an active role at a senior level. Zawahiri, likewise, 
appears to be developing new leaders. Syrian al-Qaeda leader Abu 
Muhammad al Julani\32\ and the senior operatives now heading Hay'at 
Tahrir al Sham and Ahrar al Sham, may be new operational leaders whom 
Zawahiri could elevate if need be. It seems, for the time being, that 
Zawahiri is minimizing al-Qaeda's visible presence in Syria. Likewise, 
affiliate leaders Ahmed Umar (Abu Ubaidah) of al Shabaab and Asim Umar 
of AQIS will serve to amplify the al-Qaeda echo chamber.
---------------------------------------------------------------------------
    \31\ SITE Intelligence Group, ``Hamza bin Laden, Son of Usama, 
Calls for Lone-Wolf Attacks in the West,'' August 14, 2015.
    \32\ Jennifer Cafarella, ``The Threat of New al-Qaeda Leadership: 
The Case of Syria's Abu Mohammed al-Joulani,'' Institute for the Study 
of War, June 30, 2015.
---------------------------------------------------------------------------
               looking forward: al-qaeda's future threat
    The United States risks strategic surprise with al-Qaeda. Nothing 
indicates that al-Qaeda as a global organization has altered its long-
term objectives nor changed its position on how to achieve these 
objectives. Al-Qaeda's entrenchment into local conflicts is dangerous 
for the United States because al-Qaeda seeks to alter Muslim 
communities and unify them under it in its violent struggle for Islam. 
Global trends are also moving in al-Qaeda's favor such that it will 
likely benefit from increasing sectarianism and polarization in the 
Muslim world and even in the West. Al-Qaeda could reassume its position 
as the vanguard force of a much-empowered Salafi-jihadi movement as 
pressure increases on ISIS.
    Al-Qaeda is almost certainly refining and improving its external 
attack capabilities to be prepared to deploy them at a future date. 
Ibrahim al Asiri, al-Qaeda's innovative bombmaker, remains at large and 
has already trained others in his tradecraft. Al-Qaeda's external 
attack capabilities are degraded because of United States and partnered 
counterterrorism actions, but they have not been destroyed. The 2017 
Worldwide Threats Assessments from Director of National Intelligence 
Daniel Coats assesses that al-Qaeda still intends to conduct attacks 
against the United States and the West, although the group's capability 
to do so from the Afghanistan-Pakistan region has been degraded.\33\ 
However, al-Qaeda's affiliates in Syria and Yemen ``have preserved the 
resources, manpower, safe haven, local influence, and operational 
capabilities to continue to pose a threat,'' and al-Shabaab in Somalia 
has the ``operational capabilities to pose a real threat to the 
region.'' Al-Qaeda may continue to attack Russian targets for Russia's 
role in Syria, may begin attacks against Emirati targets for the United 
Arab Emirates' role in Yemen, and may also focus on Egypt.
---------------------------------------------------------------------------
    \33\ Daniel R. Coats, ``Worldwide Threat Assessment of the 
Intelligence Community,'' Statement for the record before the U.S. 
Senate Select Committee on Intelligence, May 11, 2017, https://
www.intelligence.senate.gov/sites/default/files/documents/os-coats-
051117.pdf.
---------------------------------------------------------------------------
    Synergy among global trends will increase support for the Salafi-
jihadi movement overall, which al-Qaeda seeks to capture. Rising 
sectarianism, not just between Sunni and Shi'a, but between Muslims and 
non-Muslims, will polarize populations. Of concern are the reflections 
today in places such as India, where far-right Hindu groups are 
attacking Muslims for eating cow. Intercommunal sectarian violence 
serves to bolster support for Salafi-jihadi groups. Closing political 
space to Islamists and persecution of Salafis in the Muslim world will 
also drive some of these individuals and factions toward violence to 
achieve their aims or defend themselves. Al-Qaeda seeks to capture 
those disenchanted with the nonviolent route, especially in Egypt, 
Libya, and Yemen. The anti-Muslim Brotherhood policies pushed by 
Egyptian President Abdel Fattah el Sisi and Emirati Crown Prince 
Mohammed bin Zayed will almost certainly feed extremism rather than 
eliminate it.
    Al-Qaeda is prepared for the weakening of ISIS. It has the position 
inside Syria to expand into terrain liberated from ISIS, some of which 
al-Qaeda had occupied before ISIS. Populations that had lived under 
ISIS will be less likely to reject al-Qaeda's ideology, although both 
are a far cry from mainstream Islam. The mass mobilization of Muslims 
in the West will continue beyond the defeat of ISIS in Iraq and Syria. 
Hamza bin Laden and other al-Qaeda leaders seek to recruit these 
mobilized individuals under al-Qaeda's leadership.
    Al-Qaeda's evolution and adaptation to conditions ensures that it 
will threaten the United States long-term and emerge stronger from the 
chaos that has enveloped the Muslim world. It is poised to take over 
the reins of the Salafi-jihadi movement. Yet, it is not sufficient just 
to defeat al-Qaeda and ISIS. The Salafi-jihadi movement predates both 
groups and will generate another transnational organization if they are 
defeated. Instead, the United States must move beyond focusing on the 
groups and instead seek to weaken and defeat the global Salafi-jihadi 
movement.

    Mr. King. Thank you very much for your testimony.
    Our second witnesses is Ms. Jennifer Cafarella. Ms. 
Cafarella is the lead intelligence planner for the Institute 
for the Study of War where she is responsible for shaping and 
overseeing the development of ISW's plans and recommendations 
on how to achieve U.S. objectives against enemies and 
advisories and in conflict zones. She has focused on terror 
groups in Syria and in the region, including al-Qaeda 
affiliates.
    Ms. Cafarella, thank you for being here today, and you are 
recognized.

  STATEMENT OF JENNIFER CAFARELLA, LEAD INTELLIGENCE PLANNER, 
                 INSTITUTE FOR THE STUDY OF WAR

    Ms. Cafarella. Chairman King, Ranking Member Rice, and 
distinguished Members of the subcommittee, thank you for 
inviting me today. I am honored for the opportunity to testify 
on a critical National security issue facing our Nation.
    Despite efforts made thus far, America still does not 
understand its enemy. The United States continues to fall 
victim to strategic surprise at the hands of Sunni jihadist 
groups.
    The resurgence of ISIS was clear by at least mid-2013, but 
the United States did not act until ISIS had seized Iraq's 
second-largest city, beheaded Americans, launched a genocide 
against an Iraqi minority and launched a blitz defensive that 
threatened the survival of Baghdad.
    The United States is now making the same mistake with al-
Qaeda, which is building armies in failed states while the 
world focuses on ISIS. America's consistent inability to 
identify and neutralize the threat as it emerges reflect a 
failure to understand the nature of this enemy and the 
requirements to defeat it.
    Al-Qaeda and ISIS are elite military organizations pursuing 
a religious war in defense of Sunni Muslim communities, which 
they perceive to be under existential threat.
    Their goals are the same: To restore what they believe to 
be correct Islamic rule by tearing down the existing state 
system, expelling external actors from the Muslim world, and 
establishing Islamic governance in accordance with a 
fundamentalist interpretation of the Quran. Both groups intend 
to destroy the United States and the Western way of life.
    Al-Qaeda differs from ISIS only on the practicalities of 
how to pursue these goals. ISIS' strategy is one of massive and 
sustained confrontation with the West that it calculates will 
break America's will to fight, while activating Sunni Muslim 
communities to join ISIS' war.
    Al-Qaeda is pursuing long-term advantage, rather than 
short-term wins. It is dedicating most of its efforts to 
identifying and supporting local causes within vulnerable or 
victimized Sunni Muslim communities in order to develop the 
legitimacy, dependence, and trust that will allow it to 
transform those communities over time into adherence of al-
Qaeda's ideology and supporters of its global religious war.
    Its main effort is in Syria. Its initial reception in Syria 
was largely that of a necessary evil. Syrians exploited al-
Qaeda's willingness to contribute to the war against the Assad 
regime even though most disagreed with al-Qaeda's vision.
    Al-Qaeda is molding the opposition with a combination of 
infiltration, negotiated mergers, and discrete attacks against 
moderate rebel groups. Al-Qaeda has thus far attacked and 
destroyed four moderate U.S.-backed groups in northern Syria 
and co-opted at least four more.
    Al-Qaeda's contribution to the anti-Assad war effort 
ensures that it will not face meaningful blowback for these 
actions. Al-Qaeda's rise in Syria is in part a direct outcome 
of the strategy of Bashar al Assad and his external backers, 
Iran and Russia.
    Assad has waged a campaign of deliberate slaughter against 
the elements of the opposition that were willing to negotiate 
with him, including chemical weapons, intentional targeting of 
civilian infrastructure, and mass executions of political 
prisoners.
    His aim was to preclude a Western intervention by 
eliminating any moderate opposition force that the United 
States could reasonably support. His slogan was ``Assad, or we 
burn the country,'' and that is exactly what he has done.
    Al-Qaeda's rise has been quickest in northwestern Syria, 
where the military campaign of the Assad regime and its 
external backers has focused since Russia's intervention in 
late 2015. The brutal siege and bombardment of opposition-held 
neighborhoods of Aleppo in 2016, helped al-Qaeda finalize its 
consolidation of power in northwestern Syria.
    Al-Qaeda is now shifting its main effort to Daraa province 
on the Israeli and Jordanian borders in order to replicate its 
success in the north. Al-Qaeda's efforts make it a more, not 
less, dangerous enemy to the United States.
    Al-Qaeda is still developing external attack capability 
from its safe havens. Al-Qaeda has deprioritized executing an 
attack in order to avoid triggering an American response at 
this time, but it is still preparing capability for the future.
    It is innovating explosives, cultivating its own foreign 
fighter population, and likely quietly developing its own 
networks in Europe. Al-Qaeda's future global phase may be even 
more effective than ISIS' current global campaign if al-Qaeda 
manages to acquire popular support inside of Syria for that 
world war.
    America's current strategy is setting conditions that favor 
al-Qaeda. The United States has taken no meaningful action to 
contain al-Qaeda or slow its growth in Syria, aside from a 
handful of airstrikes against leaders which have had little 
effect on the organization's overall strength.
    The United States has been ceding regional power to Iran 
and Russia in order to focus on fighting ISIS, causing many 
Syrians to perceive us to be de facto in support of Bashar al 
Assad's war effort. It is not an unfair conclusion to make.
    This perception lends legitimacy to al-Qaeda's narrative 
that it and it alone is the source of protection for Syria's 
rebelling population. Destroying al-Qaeda is necessary to 
protect the American homeland, but al-Qaeda's local roots may 
make that fight even harder than our current fight against 
ISIS.
    We at the Institute for the Study of War tested over 20 
possible American ways forward in Syria, most of which failed 
because they either strengthened or failed meaningfully to 
weaken al-Qaeda's strength in Syria.
    Al-Qaeda's core source of strength is a connection to the 
rebelling population. We will not destroy al-Qaeda or protect 
the American homeland until or unless we execute a counter-
Assad strategy in Syria that begins to address the core reasons 
for this war to begin with and al-Qaeda's rise within it. I 
thank the subcommittee for its attention.
    [The prepared statement of Ms. Cafarella follows:]
                Prepared Statement of Jennifer Cafarella
                             July 13, 2017
    Chairman King, Ranking Member Rice, and distinguished Members of 
this subcommittee, thank you for inviting me today. I am honored for 
the opportunity to testify on a critical National security issue facing 
our Nation.
    Sixteen years after the September 11 attack, America still does not 
understand its enemy. The United States continues to fall victim to 
strategic surprise at the hands of Sunni jihadist groups. The 
resurgence of the Islamic State of Iraq and al Sham (ISIS) in Iraq and 
its expansion into Syria was clear by at least mid-2013 but the United 
States did not act until ISIS had seized Iraq's second-largest city, 
beheaded Americans, launched a genocide against an Iraqi minority, and 
launched a blitz offensive campaign that threatened the survival of 
Baghdad.\1\ The United States has intervened against ISIS, but is 
making the same mistake with al-Qaeda, which is building armies in 
failed states while the world focuses on ISIS. America's consistent 
inability to identify the threat as it emerges or to neutralize it 
before it does places Americans at risk and drives up the cost of 
protecting the homeland by conceding the strategic initiative to the 
enemy. This pattern of American behavior is the outcome of a 
fundamental failure to understand the nature of the jihadist movement 
and the requirements to defeat it.
---------------------------------------------------------------------------
    \1\ Jessica Lewis, ``Al Qaeda in Iraq Resurgent,'' Institute for 
the Study of War, September 2013, http://docs.house.gov/meetings/FA/
FA18/20131212/101591/HHRG-113-FA18-Wstate-LewisJ-20131212.pdf; Jessica 
Lewis, ``Al Qaeda in Iraq's `Breaking the Walls' Campaign Achieves Its 
Objectives at Abu Ghraib--2013 Iraq Update No. 30'', Institute for the 
Study of War, July 28, 2013, http://iswresearch.blogspot.com/2013/07/
al-qaeda-in-iraq-walls-campaign.html; Jessica Lewis, ``Further 
Indications of al-Qaeda's Advance in Iraq: Iraq Update No. 39,'' ISW 
Blogs, November 15, 2013, http://iswresearch.blogspot.com/2013/11/
further-indications-of-al-qaedas.html; Jessica Lewis, ``ISIS in Iraq: 
Battle Plan for Baghdad,'' Institute for the Study of War, June 27, 
2014, http://iswresearch.blogspot.com/2014/06/in-iraq-battle-plan-for-
baghdad-coming.html; Lauren Squires, Jessica Lewis, and ISW Iraq Team, 
``Warning Intelligence Update: Baghdad,'' Institute for the Study of 
War, July 23, 2014, http://iswresearch.blogspot.com/2014/07/warning-
intelligence-update-bagdad.html; Jessica Lewis ``The Battle for 
Baghdad: Scenarios,'' Institute for the Study of War, June 13, 2014, 
http://iswresearch.blogspot.com/2014/06/the-battle-for-baghdad-
scenarios.html.
---------------------------------------------------------------------------
    Al-Qaeda and ISIS are elite military organizations pursuing a 
religious war in defense of Sunni Muslim communities, which they 
perceive to be under existential threat.\2\ Their goals are the same: 
To ``restore'' what they believe to be Allah's rule on earth by tearing 
down the existing state system, expelling external forces from the 
Muslim world, and establishing Islamic governance in accordance with a 
fundamentalist interpretation of the Qur'an.\3\ Both groups intend to 
destroy the United States and the Western way of life. Al-Qaeda differs 
from ISIS only on the practicalities of how to pursue those goals. 
ISIS's approach was to launch and sustain an immediate world war. 
ISIS's strategy is one of massive and sustained confrontation against 
the West that it calculates will break America's will to fight while 
activating Sunni Muslim communities to join ISIS's war.\4\ ISIS 
launched its world war before it had even seized Mosul, deploying 
attack cells into Europe by at least January 2014.\5\ Mosul fell 6 
months later.\6\ ISIS's strategy is an evolution of its predecessor's 
shock and awe approach under Abu Mohammad al-Zarqawi, which ultimately 
failed because it drove Iraq's Sunni community to support the United 
States instead. The lesson ISIS learned was to go bigger and harder 
next time, which it has done to devastating success.
---------------------------------------------------------------------------
    \2\ The then-leader of al-Qaeda's Syrian affiliate, Abu Mohammad al 
Joulani, echoed this theme in a June 2015 interview with al Jazzera, 
stating: ``Everything that is happening is a conspiracy against 
Sunnis.'' Alessandria Masi, ``Jabhat al-Nusra leader interview: `no 
solution' to ISIS, al-Qaeda tension in Syria, Americans joined Nusra 
Front,'' International Business Times, June 3, 2015, http://
www.ibtimes.com/jabhat-al-nusra-leader-interview-no-solution-isis-al-
qaeda-tension-syria-americans-1951584.
    \3\ Frederick Kagan, Kimberly Kagan, Jennifer Cafarella, Harleen 
Gambhir, and Katherine Zimmerman, ``Al Qaeda and ISIS: Existential 
Threats to the U.S. and Europe,'' Institute for the Study of War and 
Critical Threats Project, January 2016, https://www.aei.org/wp-content/
uploads/2016/01/PLANEX_Report1_FINAL.pdf; Jennifer Cafarella, Harleen 
Gambhir, and Katherine Zimmerman, ``Jabhat al-Nusra and ISIS: Sources 
of Strength,'' Institute for the Study of War and Critical Threats 
Project, February 2016, https://www.aei.org/wp-content/uploads/2016/02/
jabhat_al_nusra_isis_sources_of_strength_report_three_final.pdf; `` 
`They came to destroy': ISIS Crimes Against the Yazidis'', U.N. Human 
Rights Council, June 15, 2016, http://www.ohchr.org/Documents/HRBodies/
HRCouncil/CoISyria/A_HRC_32_CRP.2_- en.pdf.
    \4\ ISIS's propaganda has illustrated this strategy. See: ``Dabiq 
Issue 5,'' released in November 2014. Safe copy available from 
Jihadology at: https://azelin.files.wordpress.com/2015/02/the-islamic-
state-e2809cdc481biq-magazine-522.pdf; [ISIS article discussing 
downfall of U.S. progress], July 3, 2017, available with subscription 
from the SITE Intelligence Group at: https://ent.siteintelgroup.com/
Chatter/jihadist-explores-economic-military-implications-of-u-s-led-
coalition-against-is.html.
    \5\ The first publically-known ISIS attack operative crossed into 
Greece from Turkey in January 2014. Rukmini Callimachi, ``How ISIS 
built the machinery of terror under Europe's gaze,'' The New York 
Times, March 29, 2016, https://www.nytimes.com/2016/03/29/world/europe/
isis-attacks-paris-brussels.html?_r=0; ``Why Nice was an unsurprising 
location for a terrorist attack,'' The Economist, June 15, 2016, http:/
/www.economist.com/news/europe/21702282-idyllic-mediterranean-beach-
town-has-severe-problem-islamist-radicalisation-why; Paul Cruikshank, 
``Raid on ISIS suspect in the French Riviera,'' CNN, August 28, 2014, 
http://www.cnn.com/2014/08/28/world/europe/france-suspected-isis-link/
index.html.
    \6\ ``Recent chronology of the fall of Mosul,'' Institute for the 
Study of War, June 10, 2014, http://iswresearch.blogspot.com/2014/06/
recent-chronology-of-fall-of-mosul.html.
---------------------------------------------------------------------------
    Al-Qaeda's strategy is more patient and insidious. Al-Qaeda is 
pursuing long-term advantage rather than short-term wins. It intends 
first to convince Sunni Muslim populations that its goals are 
desirable, and then to bring that Sunni support to bear against the 
West.\7\ Al-Qaeda is also preparing for its own world war by enlisting 
as much of the Sunni Muslim community as it can before launching the 
next phase. Al-Qaeda is dedicating most of its efforts to identifying 
and supporting local causes within vulnerable or victimized Sunni 
Muslim communities in order to develop the legitimacy, dependence, and 
trust that will allow it to transform those communities over time into 
adherents of al-Qaeda's ideology and supporters of its global religious 
war.\8\ Al-Qaeda is vocal about denouncing ISIS's approach,\9\ 
primarily because opposing the tactics used by ISIS allows al-Qaeda to 
appear moderate in comparison. Al-Qaeda has also been willing to 
sacrifice its brand name in order to allow its affiliates to address 
local concerns over the international perception of the al-Qaeda brand 
name.\10\ Al-Qaeda's moderate image enables it to increase the overall 
percentage of the Sunni Muslim community that supports jihadism by 
converting people that would otherwise be alienated by ISIS's 
brutality. Al-Qaeda intends to fold residual elements of ISIS's 
fighting force and adherent population into its own in time.
---------------------------------------------------------------------------
    \7\ Jennifer Cafarella, ``Jabhat al-Nusra in Syria: an Islamic 
State for al Qaeda,'' Institute for the Study of War, December 2014. 
Copy available from author upon request.
    \8\ Jennifer Cafarella, ``Jabhat al-Nusra in Syria: an Islamic 
State for al Qaeda,'' Institute for the Study of War, December 2014. 
Copy available from author upon request; [Zawahiri statement in support 
of Syrian uprising as a way to create a state that defends Muslim 
countries], February 11, 2012, available with subscription from the 
SITE Intelligence Group at: https://ent.siteintelgroup.com/Multimedia/
zawahiri-issues-video-in-support-of-syrian-uprising.- html.
    \9\ [Zawahiri attacks ISIS for Creating and Maintaining Division], 
August 29, 2016, available with subscription from the SITE Intelligence 
Group at: https://ent.siteintelgroup.com/Multimedia/zawahiri-calls-
fighters-to-unite-attacks-is-for-creating-and-maintaining-
division.html.
    \10\ Jennifer Cafarella and Katherine Zimmerman, ``Avoiding al 
Qaeda's Syrian trap: Jabhat al-Nusra's rebranding,'' Institute for the 
Study of War and Critical Threats Project, July 29, 2016, http://
iswresearch.blogspot.com/2016/07/avoiding-al-qaedas-syria-trap-jabhat-
al.html.
---------------------------------------------------------------------------
    Al-Qaeda's main effort is in Syria, which has become the world's 
largest jihadist incubator. Al-Qaeda's intent in Syria is to embed 
within the uprising against the regime of Syrian President Bashar al 
Assad and to transform that uprising into a global religious 
insurgency. Al-Qaeda deployed a small unit of fighters from Iraq to 
Syria in order to grow an affiliate there after the uprising started in 
2011.\11\ It initially hid its true goals in Syria in order to avoid 
alienating what was then mostly a pro-democracy uprising.\12\ Al-
Qaeda's Syrian affiliate, Jabhat al-Nusra, announced its formation in a 
video on January 2012 but did not state its goal to establish an al-
Qaeda emirate in Syria that could become a future component of a global 
al-Qaeda caliphate.\13\ Jabhat al-Nusra merely identified itself as an 
Islamist group pursuing the ``return the rule of Allah to the 
earth.''\14\ Al-Qaeda launched immediate and successful suicide attacks 
against the Syrian regime that helped provide time and space for the 
Syrian armed opposition to coalesce while al-Qaeda built its own 
fighting force.\15\ Al-Qaeda's initial reception in Syria was largely 
that of a necessary evil. Syrians exploited al-Qaeda's willingness to 
contribute to the war against the Assad regime even though most 
disagreed with al-Qaeda's vision for Syria. Al-Qaeda's ideology was a 
problem for the future, while Assad was the here-and-now threat.\16\ 
This perception endures today, but the 6 years of horrific violence 
that Syrians have endured makes it increasingly likely that al-Qaeda is 
winning real local support for its goals.
---------------------------------------------------------------------------
    \11\ Tara John, ``Everything you need to know about the new Nusra 
Front,'' Time Magazine, July 29, 2016, http://time.com/4428696/nusra-
front-syria-terror-al-qaeda/.
    \12\ The main body of Syrian armed and political opposition groups 
that emerged after the uprising began in 2011 united under an umbrella 
titled the Syrian Opposition Coalition. This opposition body pursued a 
diplomatic settlement with the Assad regime in accordance with the 
United Nation's ``Geneva Communique'' that outlined a 6-point plan for 
a political transition in Syria, released on June 30, 2012. The 
communique called for a ``genuinely democratic and pluralistic'' Syrian 
state. The strength and perceived legitimacy of the opposition groups 
willing to adhere to this communique diminished over time as al-Qaeda 
and like-minded groups rose within the opposition and the U.N.-backed 
negotiations failed to make progress. ``Final Communique,'' U.N. Action 
Group for Syria, June 30, 2012, http://www.un.org/News/dh/infocus/
Syria/FinalCommuniqueActionGroupforSyria.pdf. Genevieve Casagrande with 
Jennifer Cafarella, ``The Syrian opposition's political demands,'' 
December 29, 2015, http://www.understandingwar.org/backgrounder/syrian-
opposition%E2%80%99s-political-demands; Devin Dwyer and Dana Hughes, 
``Obama recognizes Syrian opposition group,'' ABC News, December 11, 
2012, http://abcnews.go.com/Politics/OTUS/exclusive-president-obama-
recognizes-syrian-opposition-group/story?id=17936599#.UMfDkawpCHA.
    \13\ Jabhat al-Nusra was forced to issue a public statement 
regarding its intent to establish an emirate after someone leaked audio 
of Jabhat al-Nusra leader Abu Mohammad al Joulani discussing the 
establishment of an emirate in Syria in July 2014. Jennifer Cafarella, 
``Jabhat al-Nusra regroups after ISIS success in Iraq,'' Institute for 
the Study of War, September 18, 2014, http://iswresearch.blogspot.com/
2014/09/jabhat-al-nusra-regroups-after-isis.html.
    \14\ [Jabhat al-Nusra formation statement], January 23, 2012, 
available with subscription from the SITE Intelligence Group at: 
https://ent.siteintelgroup.com/Multimedia/site-intel-group-1-23-12-mb-
jihad-levant-syria-video.html.
    \15\ Jennifer Cafarella, ``Jabhat al-Nusra in Syria: an Islamic 
State for al Qaeda,'' Institute for the Study of War, December 2014. 
The first attack occurred in December 2011. Jabhat al-Nusra explained 
its own rise in Syria in a June 2015 video titled ``Heirs of Glory''. 
Copy of video available from author upon request. Thomas Joscelyn, ``Al 
Nusrah Front celebrates 9/11 attacks in new video,'' The Long War 
Journal, June 29, 2015, http://www.longwarjournal.org/archives/2015/06/
al-nusrah-front-celebrates-911-attacks-in-new-video.php.
    \16\ Ghaith Abdul-Ahad, ``Al-Qaida turns tide for rebels in battle 
for eastern Syria,'' The Guardian, July 30, 2012, https://
www.theguardian.com/world/2012/jul/30/al-qaida-rebels-battle-syria; 
Sarah al Deeb and Bassem Mroe, ``Syria's Ceasefire Strengthens al Qaeda 
Branch,'' Associated Press, May 29, 2016 https://apnews.com/
57bc8b0711074d74bd4b90bbf0292290/syrias-cease-fire-strengthens-al-
qaida-branch; [Creation of Mujahidin Shura Council-Deir al Zor], 
YouTube video, May 25, 2014, https://www.youtube.com/
watch?v=yGrD9yzvHgM; Thomas Joscelyn, ``Aleppo-based rebel groups 
reportedly unite behind Ahrar al Sham's former top leader,'' The Long 
War Journal, February 20, 2016, http://www.longwarjournal.org/archives/
2016/02/zleppo-based-rebel-groups-unite-behind-ahrar-al-sham-former-
top-leader.php.
---------------------------------------------------------------------------
    Al-Qaeda is also dedicating resources to restructuring the Syrian 
armed opposition under the leadership of its Syrian affiliate and 
groups that adhere to a similar ideology. Al-Qaeda does not intend to 
dominate the Syrian opposition outright because doing so risks 
triggering backlash that could marginalize al-Qaeda within the 
opposition.\17\ Al-Qaeda instead seeks to mold the opposition over time 
using a combination of infiltration, negotiated mergers, and discrete 
attacks against moderates. Al-Qaeda's operatives in Syria networked 
into the leadership of Islamist groups such as Ahrar al Sham al 
Islamiya that were close to al-Qaeda's ideology.\18\ Al-Qaeda's goal 
was to ensure that Islamist groups became dominant within the 
opposition and to influence the evolution of their goals to more 
closely adhere to al-Qaeda's. Meanwhile, al-Qaeda has quietly dedicated 
resources to purging elements of the Syrian armed opposition that 
remain unwilling to support its ideology and discrediting the moderate 
opposition's ideology. Al-Qaeda has attacked and destroyed four U.S.-
backed groups in northern Syria and co-opted at least four more since 
early 2015.\19\ Al-Qaeda faces little real opposition to these measures 
because its military support remains vital to the anti-Assad effort. 
Al-Qaeda has grown increasingly bold as a result. Al-Qaeda now openly 
describes its war in Syria as a personal obligation for Sunni Muslims, 
making it a global war, and openly condemns moderate opposition groups 
in its propaganda for betraying the Syrian people.\20\ Al-Qaeda's skill 
and experience manipulating local populations and armed groups in Syria 
makes it a formidable local actor.
---------------------------------------------------------------------------
    \17\ Al-Qaeda leader Aymen al-Zawahiri has consistently reinforced 
this approach, including an early 2015 letter to Abu Mohammad Joulani. 
[Zawahiri speaks on strategy in Syria], April 18, 2014, available with 
subscription from the SITE Intelligence Group at: https://
ent.siteintelgroup.com/Multimedia/zawahiri-denies-changing-his-
ideology-speaks-in-interview-on-syrian-conflict-egypt-war-with-u-
s.html; Charles Lister, ``An internal struggle: al Qaeda's Syrian 
affiliate is grappling with its identity,'' The Huffington Post, May 
31, 2015, http://www.huffingtonpost.com/charles-lister/an-internal-
struggle-al-q_b_7479730.html.
    \18\ Jennifer Cafarella, Nicholas Heras, and Genevieve Casagrande, 
``Al-Qaeda is gaining strength in Syria,'' Foreign Policy, September 1, 
2016, http://foreignpolicy.com/2016/09/01/al-qaeda-is-gaining-strength-
in-syria/.
    \19\ The United States-backed groups that al-Qaeda has attacked and 
destroyed are the 30th Division, Syrian Revolutionaries Front, Harakat 
Hazm, and the 13th division. Al-Qaeda has absorbed the United States-
backed group Harakat Nour al Din al Zenki while driving Fastaqim Kama 
Umirat, Kataib Thuwar al Sham, Jabhat al Shamiya-Western Sector, and 
Jaysh al Mujahideen to merge underneath Syrian Salafi jihadi group 
Ahrar al Sham. Luis Martinez, ``General Austin: only `4 or 5' U.S.-
trained Syrian rebels fighting ISIS,'' ABC News, September 16, 2015, 
http://abcnews.go.com/Politics/general-austin-us-trained-syrian-rebels-
fighting-isis/story?id=33802596; Jamie Dettmer, ``Main U.S.-backed 
Syrian rebel group disbanding, joining Islamists,'' The Daily Beast, 
March 1, 2015, http://www.thedailybeast.com/main-us-backed-syrian-
rebel-group-disbanding-joining-islamists; Dominique Soguel, ``In 
northern Syria, is the US running out of rebel allies?'' Christian 
Science Monitor, March 4, 2015, https://www.csmonitor.com/World/Middle-
East/2015/0304/In-northern-Syria-is-the-US-running-out-of-rebel-allies-
video; Mariya Petkova, ``Syrian opposition factions join Ahrar al 
Sham,'' Al Jazeera, January 26, 2017, http://www.aljazeera.com/news/
2017/01/syrian-opposition-factions-join-ahrar-al-sham-
170126133928474.html; [Agreement to end the clashes in Ma'arat al Numan 
on dissolving Division 13], All4Syria, June 10, 2017, http://
www.all4syria.info/Archive/417500.
    \20\ An example of Jabhat al-Nusra's use of the phrase ``fard 
ayn'', or personal obligation, to describe its war in Syria can be 
found in the first issue of its ar Risalah magazine, released in July 
2015. A copy is available with subscription from the SITE Intelligence 
Group at: https://ent.siteintelgroup.com/statements/anti-is-fighters-
in-syria-release-first-issue-of-english-magazine-al-risalah.html; [AQ 
leader Zawahiri declares Syrian jihad an issue concerning all Muslims], 
April 23, 2017, available with subscription from the SITE Intelligence 
Group at: https://ent.siteintelgroup.com/Multimedia/al-qaeda-aq-leader-
ayman-al-zawahiri-addressed-fighters-in-syria-urging-them-to-reject-
nationalist-sentiment-and-wage-a-protracted-guerrilla-war-against-the-
syrian-regime-and-called-on-musl.html.
---------------------------------------------------------------------------
    Al-Qaeda's rise in Syria is in large part a direct outcome of the 
strategy of Syrian president Bashar al Assad and his external backers: 
Iran and Russia. Assad quickly dismissed the opposition against him as 
terrorist-infiltrated,\21\ and then intentionally fueled the jihadist 
movement in Syria in order to make it true. He emptied Syrian prison of 
Islamists and al Qaeda-linked convicts as the protest movement against 
him gained strength in 2011 in order to create evidence of terrorist 
involvement in the uprising.\22\ He has since waged a campaign of 
deliberate slaughter against the elements of the opposition that were 
willing to negotiate with him, including chemical weapons, the 
intentional targeting of civilian infrastructure and mass executions of 
political prisoners.\23\ His aim was to preclude a Western intervention 
by eliminating any moderate opposition force that the United States 
could reasonably support. His slogan is ``Assad or we burn the 
country'',\24\ and that is exactly what he has done. Nearly half of 
Syria's prewar population had been displaced by late 2014 according to 
U.N. data.\25\ Three years later, the full scale of the damage is 
increasingly difficult to measure. The International Monetary Fund and 
the World Bank estimate that rebuilding Syria will cost up to $200 
billion dollars.\26\ Assad and his backers now want the international 
community to foot the bill while they continue their war.\27\
---------------------------------------------------------------------------
    \21\ Tim Lister, ``Al-Assad's speech: reheated promises salted with 
threats,'' CNN, June 21, 2011, http://www.cnn.com/2011/WORLD/asiapcf/
06/20/syria.assad/index.html; ``Transcript: ABC's Barbara Walters' 
interview with Syrian President Bashar al Assad,'' ABC News, December 
7, 2011, http://abcnews.go.com/International/transcript-abcs-barbara-
walters-interview-syrian-president-bashar/story?id=15099152.
    \22\ Leila Fadel, ``Syria's Assad moves to allay fury after 
security forces fire on protestors,'' The Washington Post, March 26, 
2011, https://www.washingtonpost.com/world/syrias-assad-moves-to-allay-
fury-after-security-forces-fire-on-protesters/2011/03/26/
AFFoZDdB_story.html?utm_- term=.3824551f9518; Simon Speakman Cordall, 
``How Syria's Assad helped Forge ISIS,'' Newsweek, June 21, 2014, 
http://www.newsweek.com/how-syrias-assad-helped-forge-isis-255631.
    \23\ ``White House Press Release on ``Government Assessment of the 
Syrian Government's Use of Chemical Weapons on August 21, 2013'', The 
White House, August 30, 2013, https://obamawhitehouse.archives.gov/the-
press-office/2013/08/30/government-assessment-syrian-government-s-use-
chemical-weapons-august-21; Judy Woodruff, ``Amnesty documents `human 
slaughterhouse' in Assad's Syria,'' PBS, February 7, 2017, http://
www.pbs.org/newshour/bb/amnesty-documents-human-slaughterhouse-assads-
syria/; ``Bashar al-Assad's forces crush the resistance,'' The 
Economist, December 17, 2016, https://www.economist.com/news/middle-
east-and-africa/21711738-fate-100000-civilians-terrifyingly-unclear; 
Ben Taub, ``The Assad Files,'' The New Yorker, April 18, 2016, http://
www.newyorker.com/magazine/2016/04/18/bashar-al-assads-war-crimes-
exposed.
    \24\ ``Al-Telawi: Regime's Geneva II position `Assad or we burn the 
country','' Syria Direct, January 21, 2014, http://syriadirect.org/
news/al-telawi-regime%E2%80%99s-geneva-ii-position-%E2%80%98assad-or-
we-burn-the-country%E2%80%99/; [Shabih burns a house and claims Assad 
or we burn the country leadked], Zajil Network Youtube, August 31, 
2012, https://www.youtube.com/watch?v=cDcTEL-tW6w; [Al Assad or we burn 
the country], YouTube, August 26, 2016, https://www.youtube.com/
watch?v=EG-9yLA4W7I.
    \25\ Adrian Edwards, ``Needs soar as number of Syrian refugees tops 
3 million,'' U.N. High Commission for Refugees, August 29, 2014, http:/
/www.unhcr.org/53ff76c99.html.
    \26\ Jeanne Gobat and Christina Kostial, ``Working paper: Syria's 
Conflict Economy,'' International Monetary Fund, June 2016, https://
www.imf.org/external/pubs/ft/wp/2016/wp16123.pdf; Omer Karasapan, 
``Rebuilding or Redefining Syria?'' Brookings Institution, February 13, 
2017, https://www.brookings.edu/blog/future-development/2017/02/13/
rebuilding-or-redefining-syria/.
    \27\ ``Civil war has cost Syrian economy 226 billion dollars, says 
World Bank,'' Daily Sabah, July 10, 2017, https://www.dailysabah.com/
syrian-crisis/2017/07/10/civil-war-has-cost-syrian-economy-226-billion-
dollars-says-world-bank; Tony Badran, ``Assad's Fundraiser at the World 
Bank,'' Tablet, February 8, 2017, http://www.tabletmag.com/scroll/
224291/assads-fundraiser-at-the-world-bank; Tom Rollins, ``Syria's 
reconstruction plans take shape,'' al-Monitor, May 22, 2017, http://
www.al-monitor.com/pulse/en/originals/2017/05/syria-war-reconstruction-
process-regime-opposition.html; ``The international community rises to 
the challenges of conflicts and refugees in the MENA region,'' The 
World Bank, July 5, 2016, http://www.worldbank.org/en/news/feature/
2016/07/05/the-international-community-rises-to-the-challenges-of-
conflicts-and-refugees-in-the-mena-region.
---------------------------------------------------------------------------
    Al-Qaeda's rise has been quickest in northwestern Syria, where the 
military campaign of the Assad regime and its external backers has 
focused since Russia's intervention in September 2015.\28\ Russia's air 
campaign in Syria has primarily targeted moderate, U.S.-backed elements 
of the Syrian opposition. Russia has also conducted repeated, 
intentional strikes against civilian infrastructure including 
hospitals, schools, and mosques.\29\ The brutal siege and bombardment 
of opposition-held neighborhoods of Aleppo City over the course of 2016 
helped al-Qaeda finalize its consolidation of power in northwestern 
Syria.\30\ Al-Qaeda played a prominent role defending the city, 
managing to temporarily break through the siege in August.\31\ Al-
Qaeda's visible role in Aleppo further concretized its position at the 
forefront of the Syrian opposition, while the eventual fall of Aleppo 
to the regime and its backers ultimately assisted al-Qaeda's 
consolidation by eliminating Syrian opposition groups inside the city 
that had remained relatively more independent from al-Qaeda. Al-Qaeda 
has since transitioned into a governing phase in northwestern Syria. 
Its activity there focuses on developing an ``economic office'' to 
regulate and profit from the local economy and consolidating control 
over service provision to include humanitarian aid.\32\ Al-Qaeda runs 
numerous religious schools in the province that include schools for 
children and for women, some of which have begun to don the Burqa in 
accordance with al-Qaeda's ideology.\33\ Al-Qaeda is now shifting its 
main effort south, to Dera'a Province on the Israeli and Jordanian 
borders. Al-Qaeda deployed senior military commanders, political 
leaders, and administrative officials to Dera'a Province in May 
2017.\34\ Al-Qaeda intends to replicate its success in Idlib and 
prepare to disrupt U.S. efforts to achieve a cease-fire in that area or 
strengthen opposition groups that may be willing to fight al-Qaeda in 
the future.
---------------------------------------------------------------------------
    \28\ Andrew Osborn and Phil Stewart, ``Russia begins Syria air 
strikes in its biggest Mideast intervention in decades,'' Reuters, 
September 30, 2015, http://www.reuters.com/article/us-mideast-crisis-
russia_idUSKCN0RU0MG20150930.
    \29\ Genevieve Casagrande and Ellen Stockert, ``Russia's 
unrelenting attacks on Syrian civilians,'' Institute for the Study of 
War, April 29, 2017, http://iswresearch.blogspot.com/2017/04/russias-
unrelenting-attacks-on-syrian.html.
    \30\ Jonathan Mautner, ``Russian airstrikes in Syria: September 13-
October 11, 2016,'' Institute for the Study of War, http://
iswresearch.blogspot.com/2016/10/russian-airstrikes-in-syria-
september.html.
    \31\ Genevieve Casagrande with Jennifer Cafarella, ``Opposition 
forces launch offensive to break the siege of Aleppo,'' Institute for 
the Study of War, August 3, 2016, http://iswresearch.blogspot.com/2016/
08/opposition-forces-launch-offensive-to.html; Christopher Kozak, 
``Opposition forces break siege of Aleppo City,'' Institute for the 
Study of War, August 8, 2016, http://iswresearch.blogspot.com/2016/08/
opposition-forces-break-siege-of-aleppo_19.html; Genevieve Casagrande 
and Jennifer Cafarella, ``Syrian opposition launches second offensive 
to break Aleppo siege,'' Institute for the Study of War, October 28, 
2016, http://iswresearch.blogspot.com/2016/10/syrian-opposition-
launches-second.html.
    \32\ `` `Tahrir al Sham' Establishes Commission to Monitor Currency 
Exchange Market,'' El Dorar, May 13, 2017, http://eldorar.com/node/
111399; Sam Heller, ``Syrian Jihadists Jeopardize Syrian Relief,'' The 
Century Foundation, June 1, 2017, https://tcf.org/content/report/
syrian-jihadists-jeopardize-humanitarian-relief/.
    \33\ [Ramadan in the Levant is Different! Vlog 18 Soraka al Makki], 
Soraka al Makki YouTube video, June 14, 2017, https://www.youtube.com/
watch?v=Ug76Yg1Wqig; [Watch Hay'at Tahrir al Sham's broad security 
operation in Idlib and countryside], HTS's Ibaa Channel YouTube, July 
10, 2017, https://www.youtube.com/watch?v=FssSa7Ci69Y; ``HTS News in 
Syria for June 13, 2017,'' June 13, 2017, available with subscription 
from the SITE Intelligence Group at: https://ent.siteintelgroup.com/
HTS-News-in-Syria/hts-news-in-syria-for-june-13-2017.html.
    \34\ ``Sources: `Tahrir al Sham' sends leaders from Idlib to 
Dera'a,'' Enab Baladi, May 12, 2017, https://www.enabbaladi.net/
archives/149363#; ``Hay'at Tahrir al Sham sends new leader to Dera'a 
from Idlib'' Shaam News Network, May 13, 2017, http://www.shaam.org/
news/syria-news/
%D9%87%D9%8A%D8%A6%D8%A9%D8%AA%D8%AD%D8%B1%D9%8A%D8%B1%-D8%A7%D9%84%D8%B
4%D8%A7%D9%85%D8%AA%D8%B1%D8%B3%D9%84%D9%82%-
D9%8A%D8%A7%D8%AF%D8%A9%D8%AC%D8%AF%D9%8A%D8%AF%D8%A9%D8%A7%-
D9%84%D9%89%D8%AF%D8%B1%D8%B9%D8%A7%D9%85%D9%86%D8%A7%D8%AF%-
D9%84%D8%A8.html; `` `Tahrir al Sham' confirms movement of some of its 
leaders in Dera'a to create new operations `Ending the Lies of the 
Regime','' Shaam News Network, May 15, 2017, http://www.shaam.org/news/
syrianews/%E2%80%9C%D8%AA%D8%AD%D8%B1-
%D9%8A%D8%B1%D8%B1%D8%A7%D9%84%D8%B4%D8%A7%D9%85%E2%80%9D%D8-
%AA%D8%A4%D9%83%D8%AF%D8%A7%D9%86%D8%AA%D9%82%D8%A7%D9%84%D9-
%82%D9%8A%D8%A7%D8%AF%D8%A7%D8%AA%D9%85%D9%86%D9%87%D8%A7%D8-
%A5%D9%84%D9%89%D8%AF%D8%B1%D8%B9%D8%A7%D8%A8%D9%87%D8%AF%D9-
%81%D8%A7%D9%84%D8%AA%D8%AC%D9%87%D9%8A%D8%B2%D9%84%D8%B9%D9-
%85%D9%84%D9%8A%D8%A7%D8%AA%D8%AC%D8%AF%D9%8A%D8%AF%D8%A9%E2-
%80%9C%D8%AA%D9%82%D8%B6%D9%85%D8%B6%D8%A7%D8%AC%D8%B9%D8%A7-
%D9%84%D9%86%D8%B8%D8%A7%D9%85%E2%80%9D.html.
---------------------------------------------------------------------------
    Al-Qaeda's local support confers large military advantages. Unlike 
ISIS, al-Qaeda does not need to allocate significant resources to 
maintaining control over the population and purging its own ranks of 
infiltrators.\35\ Al-Qaeda has freedom of operation throughout Syria's 
rebel-held areas that allow it to maneuver and conduct logistical 
support operations without much risk of disruption.\36\ The freedom of 
operations enables al-Qaeda rapidly to shift assets across the 
battlefield as the situation requires, further increasing the value of 
its contribution to the opposition's war effort. It is extraordinarily 
difficult for the United States to develop a strategy to destroy al-
Qaeda without declaring war on behalf of Assad against the Syrian 
opposition. We at Institute for the Study of War tested over 20 
possible U.S. courses of action in Syria, most of which failed because 
they either strengthened or failed to weaken al-Qaeda.\37\ The key to 
destroying al-Qaeda in Syria is to break its bond with the local 
population. The United States will not break this link until and unless 
the United States develops and executes as counter-Assad strategy in 
Syria. Even then, a war against al-Qaeda will be costly.
---------------------------------------------------------------------------
    \35\ ``Sources: Jaysh Khalid executes military leaders accused of 
assassinating previous leader,'' Enab Baladi, June 5, 2017, https://
www.enabbaladi.net/archives/154266; William McCants and Hassan Hassan, 
``Experts weigh in (part 7): Is ISIS good at governing?'' Brookings 
Institution, April 18, 2016, https://www.brookings.edu/blog/markaz/
2016/04/18/experts-weigh-in-part-7-is-isis-good-at-governing/; Callum 
Paton, ``War on Iraq: ISIS trapped families inside homes rigged with 
bombs to use civilians as human shields,'' Newsweek, July 10, 2017, 
http://www.newsweek.com/mosul-isis-welded-families-doors-shut-and-
rigged-homes-ieds-keep-civilians-634418.
    \36\ Jennifer Cafarella, Kimberly Kagan, Frederick W. Kagan, 
``America's Way Ahead in Syria,'' Institute for the Study of War and 
Critical Threats Project, March 2017, https://www.criticalthreats.org/
wp-content/uploads/2017/03/ISW-CTP-Recommended-Course-of-Action-in-
Syria-and-Iraq-March-2017.pdf.
    \37\ Jennifer Cafarella, Kimberly Kagan, Frederick W. Kagan, 
``America's Way Ahead in Syria,'' Institute for the Study of War and 
Critical Threats Project, March 2017, https://www.criticalthreats.org/
wp_content/uploads/2017/03/ISW-CTP-Recommended-Course-of-Action-in-
Syria-and-Iraq-March-2017.pdf.
---------------------------------------------------------------------------
    Al-Qaeda's current local efforts make it more--not less--dangerous 
to the United States. Al-Qaeda is still developing external attack 
capability from Syria as well as its other safe havens in Yemen and 
Afghanistan.\38\ The bomb maker for Al-Qaeda in the Arabian Peninsula, 
Ibrahim al Asiri, has helped train al-Qaeda's Syrian affiliate in 
advanced bomb-making techniques.\39\ The active planning of a cell of 
al-Qaeda external attack operatives based in Syria known as the 
``Khorasan group'' triggered a new campaign of U.S. airstrikes in Syria 
beginning in September 2014.\40\ Al-Qaeda has since chosen temporarily 
to deprioritize efforts to conduct major attacks in the West in order 
to avoid provoking an American response that would deny al-Qaeda its 
current freedom of operations. The then-leader of al-Qaeda's Syrian 
affiliate stated in a May 2015 interview with Al Jazeera that he 
received instructions from al-Qaeda leader Aymen al-Zawahiri not to 
conduct attacks abroad.\41\ Al-Qaeda is still preparing capability for 
the future, however. Al-Qaeda is cultivating its own foreign fighter 
population in Syria and is likely quietly cultivating a new network in 
Europe.\42\ Al-Qaeda is building up these capabilities while holding 
them in reserve for its global phase yet to come. That phase may be 
more effective than ISIS's current global campaign if al-Qaeda manages 
to acquire a popular mandate from the Syrian rebelling population for a 
global war.
---------------------------------------------------------------------------
    \38\ Jennifer Cafarella and Katherine Zimmerman, ``Warning update: 
Al Qaeda's global attack campaign,'' Institute for the Study of War and 
Critical Threats Project, November 6, 2016, http://
iswresearch.blogspot.com/2016/11/warning-update-al-qaedas-global-
attack.html.
    \39\ Ewen MacAskill, ``The Saudi chemist sparking fears of 
`invisible' bombs on transatlantic flights,'' The Guardian, July 3, 
2014, https://www.theguardian.com/world/2014/jul/03/al-qaida-bombmaker.
    \40\ Jennifer Cafarella and Katherine Zimmerman, ``Warning update: 
Al Qaeda's global attack campaign,'' Institute for the Study of War and 
Critical Threats Project, November 6, 2016, http://
iswresearch.blogspot.com/2016/11/warning-update-al-qaedas-global-
attack.html.
    \41\ ``Nusra leader: Our mission is to defeat Syrian regime,'' Al 
Jazeera, May 28, 2015, http://www.aljazeera.com/news/2015/05/nusra-
front-golani-assad-syria-hezbollah-isil-150528044857- 528.html.
    \42\ Al-Qaeda publishes propaganda to recruit foreign fighters that 
is similar to ISIS's. Al-Qaeda has featured foreign fighter units in 
its ar Risalah magazine. A prominent example is foreign fighters 
belonging to the Turkistan Islamic Party that fight with al-Qaeda in 
Syria. See the 3d issue of ar Risalah, available with subscription from 
the SITE Intelligence Group at: https://ent.siteintelgroup.com/
Periodicals/mujahideen-of-shaam-publish-3rd-issue-of-english-magazine-
al-risalah.html
---------------------------------------------------------------------------
    America is pursuing a self-defeating strategy in Syria, ensuring 
that the Syrian theater will remain a major jihadist recruitment center 
for the foreseeable future. The United States has taken no meaningful 
action to contain al-Qaeda or slow its growth aside from the handful of 
airstrikes against al-Qaeda leaders in Syria, which have had 
essentially no effect on the organization's strength. The U.S. campaign 
against ISIS will fail to destroy the group under America's current 
strategy, and is actually setting conditions that ultimately favor al-
Qaeda.\43\ The United States has been ceding regional power to Iran and 
Russia, who view the United States as their enemy, in order to focus on 
ISIS. Members of the Syrian opposition perceive the United States to be 
de facto allied with Iran, Russia, and the Assad regime as a result, 
and is not an unfair conclusion to make. This perception lends 
legitimacy to al-Qaeda's narrative that al-Qaeda is the only source of 
protection for the Syrian Sunni community. The United States has traded 
all of this for a series of tactical victories against ISIS that will 
most likely not endure. America's primary ground partner in Syria, the 
Syrian Democratic Forces (SDF) does not have the combat power to retake 
the rest of ISIS-held terrain beyond Raqqa. America's reliance on the 
SDF has put us in an indirect war with Turkey, a NATO ally, which views 
the Syrian Kurdish People's Defense Forces (YPG) as a direct threat to 
its national security because of the organization's links to the 
Turkish domestic insurgency waged by the Kurdistan Worker's Party 
(PKK).\44\ The United States has no discernable strategy for how to 
seize the rest of ISIS-held terrain in Syria or to extricate ourselves 
from an indirect war within NATO. There is a very real risk of al-Qaeda 
resurgence in areas retaken from ISIS, moreover. Al-Qaeda is 
positioning to exploit local discontent with SDF rule in Raqqa that is 
likely to emerge due to the SDF's adherence to the YPG's political 
ideology.\45\ All of these conditions undermine American National 
security by favoring al-Qaeda in the long term, which places the United 
States on a trajectory to fight an even worse war after ISIS.
---------------------------------------------------------------------------
    \43\ Jennifer Cafarella, Kimberly Kagan, Frederick W. Kagan, 
``America's Way Ahead in Syria,'' Institute for the Study of War and 
Critical Threats Project, March 2017, https://www.criticalthreats.org/
wp-content/uploads/2017/03/ISW-CTP-Recommended-Course-of-Action-in-
Syria-and-Iraq-March-2017.pdf.
    \44\ Turkey intervened in Syria in September 2016 in order to block 
and ultimately reverse the YPG's gains in northern Syria. Jennifer 
Cafarella with Leah Danson, ``Turkish incursion into northern Syria 
signals turning point in anti-ISIS fight,'' August 30, 2016, Institute 
for the Study of War, http://iswresearch.blogspot.com/2016/08/military-
situation-in-northern-syria.html.
    \45\ Al-Qaeda-linked clerics in Syria have issued support for the 
formation of new anti-YPG groups in eastern Syria, likely indicating 
that al-Qaeda will participate in future military operations against 
the YPG. @hxhassan, Twitter post, July 5, 2017, 3:13 p.m., https://
twitter.com/hxhassan/status/882693954013155328?refsrc=email&s=11.

    Mr. King. Thank you very much. Our third witness, as I said 
before, he is an old face. I didn't mean it that way, Seth.
    Dr. Seth Jones, who has been before this committee a number 
of times and has really been a great assistance to us. He is 
the director of the International Security and Defense Policy 
Center at the Rand Corporation and is an adjunct professor at 
Johns Hopkins University.
    He has served as the representative for the assistant 
secretary of Defense for Special Operations, and before that as 
an advisor the commanding general for U.S. Special Ops in 
Afghanistan.
    Dr. Jones is the author of a number of published books on 
al-Qaeda, terrorism, and insurgencies, among other topics. Dr. 
Jones is a very familiar face in Congress and continues to be a 
valuable resource to this committee.
    Dr. Jones, you are recognized for your testimony and 
welcome back.

 STATEMENT OF SETH JONES, DIRECTOR, INTERNATIONAL SECURITY AND 
            DEFENSE POLICY CENTER, RAND CORPORATION

    Mr. Jones. Thank you, Chairman King, Ranking Member Rice, 
and other distinguished Members of the subcommittee for 
conducting this hearing and for inviting us to testify. I think 
this is a very important hearing, particularly with the focus 
predominantly on ISIS.
    My testimony is gonna explore how al-Qaeda might rebound in 
the future, though I would like to note from the beginning that 
operatives from al-Qaeda, from ISIS, and other groups do move 
around quite fluidly across various countries, regions, and 
continents. So while we often like to talk about groups, and it 
is easier to do this, there is a fair amount of fluidity among 
Salafi-jihadists.
    Since al-Qaeda's establishment in 1988, it is worth 
remembering that al-Qaeda has expanded its portfolio and surged 
in terrorist attacks in a series of waves. It also has suffered 
reversals. I think it is important to understand historically 
how it has weakened and in some cases expanded.
    The first wave began in the 1990's and peaked around 2001 
following the September 11 attacks. It was followed by a 
reversal as al-Qaeda leaders and operatives were captured or 
killed in Afghanistan and Pakistan, the United States and other 
areas, and the Taliban regime was overthrown.
    The second wave began to build around 2003, around the time 
of the U.S. invasion, and was then characterized by spectacular 
attacks across not just Iraq, but in Casablanca, London, the 
relationship of the North African groups with al-Qaeda in 
Madrid, and other countries, and it was followed by a reversal 
around the type of time of the Anbar Awakening.
    A third wave surged between 2007 and 2009 following the 
rise of al-Qaeda in the Arabian Peninsula in Yemen and the 
activities of Anwar Al-Awlaki and was followed by a reversal by 
a targeting campaign by the United States against senior 
leaders, including Osama bin Laden in 2001, around that time 
period.
    Finally, the Arab Spring helped create the conditions for a 
fourth wave of activity.
    So that brings us to today. I think it is important to 
understand that the current trajectory or even past 
trajectories do not mean that is the way this organization will 
persist in the future. What I would like to highlight are six 
possible factors that could affect the rise or even decline of 
al-Qaeda over the next several years.
    First would be the unfortunate withdrawal of United States 
or other Western forces, particularly special operations forces 
from key battlefields, such as Iraq or Afghanistan or even the 
small U.S. presence in Syria.
    I think U.S. and other Western actions in these countries 
have served as a check against some groups, and their removal, 
I think as we saw in Iraq in 2011, would be extremely 
counterproductive.
    Second, I think another round of the Arab Spring or the 
collapse of one or more key governments in the Arab world might 
allow al-Qaeda or other groups to resurge. I think instability 
in countries, like in Jordan or Saudi Arabia or Tunisia or 
Egypt could present potential problems and allow groups to 
establish sanctuary.
    Most people, I should note, did not predict the first round 
of the Arab Spring and a second round would be potentially 
concerning for this subject.
    Third, one or more events that highlight the oppression or 
the perceived oppression of Muslims by Western governments 
could increase the possibility of a resurgence. The uncensored 
Abu-Ghraib photographs began to appear on jihadist websites and 
were clearly used for recruitment purposes.
    I think an overreaction by a Western government following a 
terrorist attack on its soil could trigger a broader concern 
about a war against Islam, which I think would be 
counterproductive.
    Fourth, the rise of a charismatic leader, as we have heard 
as well, particularly by al-Qaeda, could help the organization 
revitalize. I think as I have looked at the organization over 
the past two decades or so, both bin Laden and al Awlaki were 
successfully in many ways for inspiring would-be extremists.
    Adam Gadahn from the United States was not. I think nor 
has, in my view, Ayman al-Zawahiri been particularly effective 
at inspiring people. But Hamza is an interesting case, whether 
he could certainly inspire a new generation of al-Qaeda 
recruits.
    Fifth, I think a large-scale conventional deployment of 
U.S. military forces to battlefields could increase the 
possibility of a resurgence by al-Qaeda or other groups.
    Then, finally, I think the collapse of the Islamic State, 
and we are already seeing that to some degree, and the death of 
charismatic leaders, like Abu Bakr al Baghdadi, could allow 
groups like al-Qaeda to rejuvenate or at the very least 
increase the possibility of some kind of a merger between 
fighters under an umbrella, whether it is al-Qaeda or a newly-
named organization.
    I think it is worth noting, in conclusion, that al-Qaeda is 
a different organization than what we saw certainly a decade 
ago or even 9/11, probably less centralized, in my view. It is 
less focused for the moment on external operations.
    That could clearly change. But I think Islamic extremism is 
certainly here to stay, at least for the foreseeable future. 
This will be a generational struggle. Thank you very much for 
the opportunity to testify. I think we all look forward to the 
discussion.
    [The prepared statement of Dr. Jones follows:]
              Prepared Statement of Seth G. Jones \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier, and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
                             July 13, 2017
    Thank you Chairman King, Ranking Member Rice, and distinguished 
Members of the subcommittee for inviting me to testify today. While the 
U.S. public and news media has focused on the fight against the Islamic 
State, it is worth re-examining the state of al-Qaeda (or ``the base'' 
in Arabic) and its threat to the U.S. homeland. After all, it was al-
Qaeda that conducted the 9/11 attacks and nearly pulled off several 
attacks in the United States, including those led by Najibullah Zazi in 
September 2009 and Umar Farouk Abdulmutallab in December 2009.
    Assessments of al-Qaeda vary considerably. Georgetown University 
professor Bruce Hoffman argues that al-Qaeda has quietly preserved its 
strength, expanded its footprint in countries like Syria and Yemen, and 
positioned itself to take advantage of the potential collapse of the 
Islamic State.\3\ Similarly, former Federal Bureau of Investigation 
(FBI) agent Ali Soufan contends that al-Qaeda ``has transformed itself 
from a close-knit terrorist outfit with a handful of struggling 
affiliates into a vast network of insurgent groups spread from 
Southeast Asia to northwest Africa.''\4\ Daveed Gartenstein-Ross at the 
Foundation for Defense of Democracies concludes that al-Qaeda has 
``emerged stronger by pursuing a strategy of deliberate yet low-key 
growth.''\5\ Others disagree. Georgetown University professor Daniel 
Byman maintains that al-Qaeda has been in decline because of limited 
popular support, effective counterterrorism efforts by the United 
States and other countries, and al-Qaeda's killing of Muslim 
civilians.\6\ My RAND colleague Brian Jenkins argues that al-Qaeda and 
other groups have failed to conduct or inspire many attacks in the U.S. 
homeland, partly because their extreme interpretation of Islam has not 
gained traction among America's Muslims.\7\
---------------------------------------------------------------------------
    \3\ Bruce Hoffman, ``Al-Qaeda: Quietly and Patiently Rebuilding,'' 
The Cipher Brief, December 30, 2016.
    \4\ Ali Soufan, ``The Resurgent Threat of al-Qaeda,'' Wall Street 
Journal, April 21, 2017.
    \5\ Daveed Gartenstein-Ross and Nathaniel Barr, ``How Al-Qaeda 
Survived the Islamic State Challenge,'' Current Trends in Islamist 
Ideology, March 1, 2017.
    \6\ Daniel Byman, ``Judging Al-Qaeda's Record, Part I: Is the 
Organization in Decline?'' Lawfare, June 27, 2017. Also see Daniel 
Byman, ``Judging Al-Qaeda's Record, Part II: Why Has Al-Qaeda 
Declined?'' Lawfare, June 28, 2017.
    \7\ Brian Michael Jenkins, ``Why Aren't There More Terrorist 
Attacks Like the One in London?'' Fortune, June 7, 2017.
---------------------------------------------------------------------------
    Instead of predicting whether al-Qaeda will strengthen or weaken 
over the next several years--an exercise that is more guesswork than 
science--my testimony will take a slightly different approach. I argue 
that the ability of al-Qaeda or another Salafi-jihadist group to 
resurge will likely be a result of several factors: The group's ability 
to take advantage of a possible second wave of the Arab Spring; the 
rise of a charismatic leader; the withdrawal of U.S. or other Western 
forces from key counterterrorism battlefields; U.S. or other Western 
actions that fuel a perception that the West is oppressing Muslims; and 
the ability of al-Qaeda or others to co-opt extremists in the wake of 
an Islamic State collapse.
    I have divided this testimony into two main sections. The first 
examines al-Qaeda's historical waves of activity, which highlight how 
al-Qaeda has reshaped its network in the past after suffering setbacks. 
The second section explores how al-Qaeda might rebound in the future.
                     al-qaeda's waves and reverses
    Since al-Qaeda's establishment in 1988, there have been four 
primary ``waves'' of al-Qaeda activity (surges in terrorist violence), 
along with ``reverse waves'' (decreases in terrorist activity).\8\ The 
first wave began in the 1990's and peaked in 2001 with the September 11 
attacks. It was followed by a reversal, as al-Qaeda leaders and 
operatives were captured or killed in Afghanistan, Pakistan, the United 
States, and across the globe. A second wave began to build in 2003 
after the U.S. invasion of Iraq and was characterized by spectacular 
attacks across Iraq and in Casablanca, Madrid, London, and elsewhere. 
But it was followed by a reverse wave; by 2006, al-Qaeda in Iraq had 
been severely weakened, British and American intelligence agencies had 
foiled several plots, and U.S. drone strikes had killed senior al-Qaeda 
operatives in Pakistan. A third wave surged from 2007 to 2009 following 
the rise of al-Qaeda in the Arabian Peninsula, and was followed by a 
reverse wave with the 2011 death of Osama bin Laden and the deaths of 
other senior leaders. Finally, the Arab Spring helped create the 
conditions for a fourth wave of activity, as al-Qaeda affiliates 
established a foothold or expanded their presence in Syria, Yemen, 
Afghanistan, and Somalia. Most of the al-Qaeda attacks in the fourth 
wave occurred in ``near enemy'' countries like Iraq, Syria, and 
Somalia, not in the West.
---------------------------------------------------------------------------
    \8\ On terrorism waves, see David C. Rapoport, ``The Four Waves of 
Modern Terrorism,'' in Audrey Kurth Cronin and James M. Ludes, eds., 
Attacking Terrorism: Elements of a Grand Strategy, Washington: 
Georgetown University Press, 2004, p. 47; Seth G. Jones, Hunting in the 
Shadows: The Pursuit of Al Qa'ida since 9/11, New York: W.W. Norton, 
2012.
---------------------------------------------------------------------------
First Wave
    The first wave started in the late 1980's, as bin Laden, Ayman al-
Zawahiri, and other leaders established al-Qaeda during the anti-Soviet 
jihad. In August 1988, a group of foreign fighters, who had trekked to 
the region to fight the Soviets in Afghanistan, gathered in Peshawar, 
Pakistan, to form a new organization. Called al-Qaeda al-Askariya 
(``the military base''), the group included an advisory council and 
membership requirements for those interested in joining.\9\ By the 
early 1990's, Afghanistan had deteriorated into a civil war following 
the departure of Soviet forces and the end of U.S. support to the 
Afghan mujahideen. Some fighters dispersed to countries like Bosnia, 
Algeria, Sudan, and Egypt, where they attempted to transform domestic 
conflict into armed jihad, as bin Laden and other al-Qaeda leaders had 
urged them to do.\10\
---------------------------------------------------------------------------
    \9\ Peter Bergen, The Osama bin Laden I Know: An Oral History of Al 
Qaida's Leader, New York: Free Press, 2006; Lawrence Wright, The 
Looming Tower: Al-Qa'ida and the Road to 
9/11, New York: Alfred A. Knopf, 2006, p. 133. Also see the ``Tareekh 
Osama'' (``Osama's history'') document presented in United States of 
America v. Enaam M. Arnaout, United States District Court, Northern 
District of Illinois, Eastern Division.
    \10\ Thomas Hegghammer, ``The Rise of Muslim Foreign Fighters: 
Islam and the Globalization of Jihad,'' International Security, Vol. 
35, No. 3, Winter 2010/2011, pp. 53-94.
---------------------------------------------------------------------------
    Al-Qaeda leaders aimed to overthrow regimes in the Middle East (the 
near enemy, or al-Adou al-Qareeb) to establish a pan-Islamic caliphate. 
They also aimed to fight the United States and its allies (the far 
enemy, or al-Adou al-Baeed) who supported these regimes.\11\ For al-
Qaeda, the United States was the most significant far enemy. In 
February 1998, bin Laden, Zawahiri, and others published a fatwa to 
kill Americans.\12\ Following a decade of preparation and organization, 
al-Qaeda launched its first wave of violence against the United States 
in the late 1990's. On August 7, 1998, al-Qaeda perpetrated 
simultaneous attacks against the U.S. embassies in Nairobi, Kenya, and 
Dar es Salaam, Tanzania. Al-Qaeda operatives then bombed the USS Cole 
on October 12, 2000, while it was refueling in Yemen. The attack killed 
17 U.S. soldiers and injured 39 others. On September 11, 2001, al-Qaeda 
pulled off its most audacious terrorist attack, as 19 operatives 
hijacked four airplanes in the United States and killed nearly 3,000 
people and wounded thousands more.
---------------------------------------------------------------------------
    \11\ On the establishment of a caliphate see, for example, Abu Bakr 
Naji, The Management of Savagery: The Most Critical Stage Through Which 
the Ummah Will Pass, translated and published by the John M. Olin 
Institute for Strategic Studies at Harvard University, May 23, 2006.
    \12\ The text is the second fatwa originally published on February 
23, 1998, to declare a holy war, or jihad, against the West and Israel. 
It was signed by bin Laden; Zawahiri, then-head of al-Jihad; Rifai 
Taha, leader of the Islamic Group; Sheikh Mir Hamzah, secretary of the 
Jamiat-ul-Ulema of Pakistan; and Fazlul Rehman, leader of the Jihad 
Movement in Bangladesh.
---------------------------------------------------------------------------
    In response, U.S. military and Central Intelligence Agency (CIA) 
forces took aim at al-Qaeda and the Taliban regime in Afghanistan, 
which had provided sanctuary to bin Laden and other al-Qaeda 
leaders.\13\ It was a remarkably effective campaign. Approximately 100 
CIA officers, 350 special operations forces, and 15,000 Afghans--
running as many as 100 combat sorties per day--defeated a 50,000 to 
60,000-man Taliban army as well as several thousand al-Qaeda 
fighters.\14\ Al-Qaeda was severely weakened. The United States seized 
over 20 terrorist training camps, killed thousands of enemy fighters, 
and forced hundreds of al-Qaeda members and thousands of Taliban to 
flee across the border into Pakistan or Iran. By December 2001, 3 
months after the attacks, al-Qaeda was in disarray. A quarter of bin 
Laden's top commanders had been killed or captured.\15\ Al-Qaeda's 
first wave was on the wane.
---------------------------------------------------------------------------
    \13\ On the overthrow of the Taliban regime, see Gary Schroen, 
First In: An Insider's Account of How the CIA Spearheaded the War on 
Terror in Afghanistan, New York: Ballantine Books, 2005; Stephen 
Biddle, Afghanistan and the Future of Warfare: Implications for Army 
and Defense Policy, Carlisle, PA: Strategic Studies Institute, U.S. 
Army War College, 2002; Gary Berntsen and Ralph Pezzullo, Jawbreaker: 
The Attack on Bin Laden and Al Qa'ida, New York: Crown Publishers, 
2005; and Bob Woodward, Bush At War, New York: Simon and Schuster, 
2002.
    \14\ Berntsen and Pezzullo, 2005.
    \15\ George Tenet with Bill Harlow, At the Center of the Storm: My 
Years at the CIA, New York: HarperCollins, 2007, p. 187.
---------------------------------------------------------------------------
Second Wave
    In 2003, the U.S. invasion of Iraq and the subsequent insurgency 
gave al-Qaeda new life. America's invasion galvanized al-Qaeda 
sympathizers and helped launch the second wave of terrorism. One of al-
Qaeda's strongest allies in Iraq was Abu Musab al-Zarqawi, who was born 
in 1966 in Zarqa, Jordan. On October 17, 2004, Zarqawi released a 
statement using the on-line Arabic magazine Mu'askar al-Battar, 
swearing allegiance to bin Laden. Zarqawi advocated the subjugation of 
Shia Muslims and creation of a world-wide caliphate governed by sharia 
(Islamic law).\16\ By this time, Zarqawi's organization, which he 
renamed al-Qaeda in Iraq, had roughly 15 brigades operating under its 
banner, including two ``martyr'' brigades dedicated to suicide 
operations.
---------------------------------------------------------------------------
    \16\ Letter from Abu Mus'ab al-Zarqawi to al-Qaeda leaders, circa 
January 2004. Released by the Harmony Project, Combating Terrorism 
Center, West Point.
---------------------------------------------------------------------------
    Al-Qaeda's second wave of terrorism was now under way. In May 2003, 
a group with ties to al-Qaeda killed 45 people in Casablanca during a 
series of suicide bombings. The same week, al-Qaeda operatives were 
involved in multiple attacks in Riyadh, Saudi Arabia, killing 34 people 
and wounding 60 others. In August, a suicide car bomb detonated in 
front of a Marriott hotel in Jakarta, Indonesia, killing 13 and 
wounding 149 others. In November, there were multiple attacks in 
Istanbul, which killed over 40 people and wounded more than 750. Then 
came the Madrid attacks. On March 11, 2004, North African terrorists 
carried 13 improvised explosive devices concealed in blue sports bags 
into the Alcala station in Madrid, Spain. The attack left 191 dead and 
1,755 injured, up to that point the largest number of casualties from 
an attack in continental Europe since World War II. The operatives were 
not members of al-Qaeda, but they were inspired by its ideology and 
activities. In addition, some of the Madrid attackers had connections 
to al-Qaeda operatives, such as Hamza Rabi'a, al-Qaeda's head of 
operations in Europe and North America.\17\
---------------------------------------------------------------------------
    \17\ Fernando Reinares, ``The Madrid Bombings and Global 
Jihadism,'' Survival, Vol. 52, No. 2, April-May 2010, pp. 83-104; 
``Islamist Website Confirms Death of Key Player in Spanish Train 
Bombing,'' El Pais, May 8, 2010.
---------------------------------------------------------------------------
    The following year, al-Qaeda struck London. On July 7, four suicide 
bombers trained by al-Qaeda operatives conducted attacks in central 
London. Three were on London's subway system, the Underground, and one 
was on the No. 30 double-decker bus traveling east from Marble Arch. 
Roughly 56 people were killed, including the four suicide bombers, and 
over 700 were injured. The ringleader, Mohammad Sidique Khan, had 
trained in al-Qaeda-affiliated camps in Pakistan.\18\
---------------------------------------------------------------------------
    \18\ Intelligence and Security Committee, Report into the London 
Terrorist Attacks on 7 July 2005, Cm 6785, London: The Stationery 
Office, 2006; Intelligence and Security Committee, Could 7/7 Have Been 
Prevented? Review of the Intelligence on the London Terrorist Attacks 
on 7 July 2005, Cm 7617, London: The Stationery Office, May 2009; House 
of Commons, Report of the Official Account of the Bombings in London on 
7th July 2005, HC 1087, London: The Stationery Office, May 2006.
---------------------------------------------------------------------------
    Much like during the first wave, however, the tide eventually began 
to turn. Zarqawi's brutality in Iraq was too much even for some al-
Qaeda leaders. Members of the U.S. Army's 1st Brigade of the 1st 
Armored Division, Marines from the I and II Marine Expeditionary Force, 
CIA operatives, U.S. Special Operations Forces, and a host of agencies 
provided intelligence, firepower, and--ultimately--trust in local 
Iraqis to stand up for themselves. The wide-spread Sunni Arab Iraqi 
revolt against al-Qaeda in Iraq became known as the Sunni Arab 
Awakening, or sahwah in Arabic. The Awakening, which highlighted the 
end of al-Qaeda's second wave, resulted from a complex range of factors 
like egregious al-Qaeda abuses of the Sunni population, tribal 
infighting, criminal disputes, U.S. engagement, elite payoffs, and the 
surge of U.S. military forces.\19\ Sunni Arabs joined anti-al-Qaeda 
militia groups and helped identify al-Qaeda leaders for targeting. The 
results of the Awakening were clear: Al-Qaeda lost control and support 
of the Sunni population in Iraq.
---------------------------------------------------------------------------
    \19\ For better insight into the Awakening, see Niel Smith and Sean 
MacFarland, ``Anbar Awakens: The Tipping Point,'' Military Review, 
2008, pp. 65-76; Timothy S. McWilliams and Curtis P. Wheeler, eds., Al-
Anbar Awakening Volume I: American Perspectives, U.S. Marines and 
Counterinsurgency in Iraq, 2004-2009, Quantico, Va.: Marine Corps 
University Press, 2009; and Gary W. Montgomery and Timothy S. 
McWilliams, eds., Al-Anbar Awakening Volume II: Iraqi Perspectives From 
Insurgency to Counterinsurgency in Iraq, 2004-2009, Quantico, Va.: 
Marine Corps University Press, 2009.
---------------------------------------------------------------------------
Third Wave
    But al-Qaeda eventually mounted a third wave of terrorism after 
establishing a new front in Yemen, aided by a charismatic Yemeni-
American operative named Anwar al-Awlaki. In January 2009, al-Qaeda 
publicly announced that Saudi and Yemeni operatives had unified under 
the banner of a single group in Yemen, which they named al-Qaeda in the 
Arabian Peninsula.\20\ Awlaki settled in the Shabwah Governorate of 
Yemen and ran his global jihadi enterprise.\21\ He developed a blog 
(www.anwar-alawlaki.com), which was later shut down. He also improved 
his Facebook and MySpace pages and posted on YouTube and other social 
media forums to spread his jihadi message. ``The Internet has become a 
great medium for spreading the call of Jihad and following the news of 
the mujahideen,'' Awlaki wrote.\22\
---------------------------------------------------------------------------
    \20\ Video by Al Malahim Media Foundation, al-Qaeda in the Arabian 
Peninsula, January 2009.
    \21\ New York Police Department, Special Analysis: Anwar al-Awlaki, 
New York: New York Police Department, Counterterrorism Bureau, December 
2009.
    \22\ Anwar al-Awlaki, ``44 Ways to Support Jihad,'' February 2009.
---------------------------------------------------------------------------
    By 2009, al-Qaeda--with operatives inspired by individuals like 
Awlaki--was plotting attacks in the United States. In June 2009, 
Abdulhakim Mujahid Muhammad, who had changed his name from Carlos 
Bledsoe, opened fire with a semiautomatic rifle on a military 
recruiting center in Little Rock, Arkansas, killing one soldier and 
wounding another. He had listened to Awlaki's sermons and spent time in 
Yemen.\23\ On November 5, 2009, a U.S. Army major, Nidal Malik Hasan, 
gunned down 13 people and wounded 43 others at Fort Hood, Texas. Hasan 
had first met Awlaki in 2001 at the Dar al-Hijrah mosque in Falls 
Church, Virginia, where Awlaki was the imam. Hasan and Awlaki exchanged 
at least 18 emails that discussed the afterlife, the appropriate time 
for violent jihad, and how to transfer funds abroad without being 
noticed by law enforcement.\24\
---------------------------------------------------------------------------
    \23\ Tommy Hudson, ``Arrest of Abdulhakim Mujahid Muhammad,'' 
officer's report, June 1, 2009; Federal Bureau of Investigation, Arrest 
of Abdulhakim Mujahid Muhammed, Little Rock, Arkansas: Federal Bureau 
of Investigation, June 2, 2009.
    \24\ New York Police Department, Special Analysis: Anwar al-Awlaki, 
New York: New York Police Department, Counterterrorism Bureau, 
Terrorism Threat Analysis Group, 2009.
---------------------------------------------------------------------------
    Al-Qaeda then attempted to strike again. Umar Farouk Abdulmutallab, 
who was born in Nigeria, met with Awlaki several times and attended a 
training camp in the Shabwah region of Yemen. On December 24, 2009, 
Abdulmutallab boarded Northwest Airlines Flight 253 in Amsterdam, the 
Netherlands, which was scheduled to arrive in Detroit, Michigan, on 
December 25. The flight carried 279 passengers and 11 crew members. 
Abdulmutallab wore a bomb in his underwear. The bomb ignited, injuring 
Abdulmutallab and two other passengers, but the main charge failed to 
go off and the airplane landed safely.\25\ It was a close call. But al-
Qaeda was undeterred. That same year, Najibullah Zazi, a U.S. citizen 
from New York, met with senior al-Qaeda operatives in Pakistan. Zazi 
agreed to execute one of al-Qaeda's boldest plots since September 11, 
2001: A suicide attack on the New York City subway modeled, in part, on 
the successful 2005 attack in London. The plot involved two other 
Americans: Adis Medunjanin and Zarein Ahmedzay. Zazi conducted training 
at al-Qaeda camps in Pakistan.\26\ Thanks to British and U.S. 
intelligence and law enforcement agencies, Zazi's plot was thwarted. 
The FBI arrested Zazi on September 19, 2009. On January 10, 2010, the 
FBI arrested Adis Medunjanin and Zarein Ahmedzay.\27\
---------------------------------------------------------------------------
    \25\ United States of America v. Umar Farouk Abdulmutallab, United 
States District Court, Eastern District of Michigan, Criminal 
Complaint, December 26, 2009.
    \26\ U.S. Department of Justice, Zarein Ahmedzay Pleads Guilty to 
Terror Violations in Connection with Al-Qaeda New York Subway Plot, 
Washington: U.S. Department of Justice, April 23, 2010.
    \27\ United States of America v. Ferid Imam, et al., United States 
District Court, Eastern District of New York, Case 1:10-cr-00019-RJD, 
Document 53, Superseding Indictment, July 7, 2010.
---------------------------------------------------------------------------
    By late 2010, however, the third wave began to decline because of 
persistent U.S. action across the globe. U.S. strikes killed a number 
of al-Qaeda allied leaders: External operations chief Saleh al-Somali 
in Pakistan in December 2009, general manager Shaykh Sa'id al-Masri in 
Pakistan in May 2010, senior al-Qaeda operations officer Abu `Abd al-
Rahman al-Najdi in Pakistan in September 2010, Abu Hamza al-Muhajir in 
Iraq in April 2010, and Awlaki in Yemen in September 2011. The pace of 
U.S. drone strikes increased under the Obama administration and 
involved multiple U.S. intelligence agencies that recruited human 
assets, intercepted electronic communications, and analyzed satellite 
and other imagery. In May 2011, U.S. military and intelligence 
operatives killed bin Laden, and Zawahiri took up his role as leader.
Fourth Wave
    Around 2012, a fourth wave started as al-Qaeda took advantage of 
the Arab uprisings and escalating wars in Syria, Yemen, Somalia, and 
Afghanistan. Al-Qaeda also found itself in competition with the Islamic 
State. Zawahiri remained al-Qaeda's leader, flanked by general manager 
Abd al-Rahman al-Maghrebi and senior manager Abu Muhammad al-Masri. In 
addition, a small number of al-Qaeda leaders remained in nearby Iran 
with ties to the leadership, including Saif al-Adel and Abu Muhammad 
al-Masri. But the core leadership had limited legitimacy and influence 
over al-Qaeda's affiliates in Africa, the Middle East, and South Asia. 
Most of al-Qaeda's power had trickled down to its affiliates.
    In Syria, Jabhat al-Nusrah remained a key component of the 
insurgency against the Syrian regime. In July 2016, Jabhat al-Nusrah 
publicly announced a split with al-Qaeda, although in practice, Jabhat 
al-Nusrah leaders, including Mohammed al-Jawlani, remained in close 
contact with al-Qaeda. In January 2017, Jabhat al-Nusrah merged with 
elements of Ahrar al-Sham and other jihadist groups to form Hay'at 
Tahrir al-Sham, but the group continued to effectively function as al-
Qaeda's Syria branch.\28\ Al-Qaeda leaders urged Jabhat al-Nusrah and 
other groups to conduct a guerrilla campaign against the Syrian regime 
and establish sharia law in areas they controlled.\29\ From its base in 
Syria, al-Qaeda plotted external attacks against Western targets, 
though it failed to conduct an attack in the West.
---------------------------------------------------------------------------
    \28\ See, for example, U.S. Department of State, ``Rewards for 
Justice: Reward Offer for Information on al-Nusrah Front Leader 
Muhammad al-Jawlani,'' May 10, 2017.
    \29\ Ayman al-Zawahiri, ``Sham Will Submit to None Except Allah,'' 
As-Sahab Media Foundation April 2017. The transcript and translation 
are courtesy of the SITE Intelligence Group.
---------------------------------------------------------------------------
    As civil war raged in Yemen, al-Qaeda in the Arabian Peninsula 
tried to expand its foothold in the Abyan, Marib, and Shabwah 
Governorates. In April 2017, al-Qaeda in the Arabian Peninsula emir 
Qasim al-Raymi outlined his strategy of fighting the Houthis and 
building broad and deep support among Sunni groups and tribes in Yemen:

``By the grace of Allah, we fight [alongside] all Muslims in Yemen, 
together with different Islamic groups. We fought with the Salafs 
without exception. We fought with the Muslim Brotherhood and also our 
brothers from the sons of tribes. We fought together with the public in 
Aden and elsewhere. We participate with the Muslims in every 
battle.''\30\

    \30\ Thomas Joscelyn, ``AQAP Leader Discusses Complex War in 
Yemen,'' Long War Journal, May 2, 2017.
---------------------------------------------------------------------------
    In September 2014, Zawahiri announced the creation of regional 
affiliate al-Qaeda in the Indian Subcontinent, taking advantage of 
sanctuaries in Afghanistan, Pakistan, and Bangladesh.\31\ As Zawahiri 
argued, ``A new branch of al-Qaeda was established and is Qaida al-
Jihad in the Indian Subcontinent, seeking to raise the flag of jihad, 
return the Islamic rule, and empowering the sharia of Allah across the 
Indian subcontinent.''\32\ The group was led by Asim Umar, an Indian 
and former member of Harkat-ul-Jihad al-Islami, a Pakistan-based 
terrorist group with branches across the Indian subcontinent. Umar was 
flanked by Abu Zar, his first deputy. In October 2015, U.S. and Afghan 
forces targeted a large training camp in Kandahar Province, killing 
over one hundred operatives linked to al-Qaeda in the Indian 
Subcontinent.\33\
---------------------------------------------------------------------------
    \31\ Ayman al-Zawahiri, audio message, September 2014.
    \32\ Bill Roggio, ``Al Qaeda Opens Branch in the `Indian 
Subcontinent,' '' Long War Journal, September 3, 2014.
    \33\ Dan Lamothe, `` `Probably the Largest' Al-Qaeda Training Camp 
Ever Destroyed in Afghanistan,'' Washington Post, October 30, 2015.
---------------------------------------------------------------------------
    By 2017, al-Qaeda in the Indian Subcontinent boasted several 
hundred members and had cells in Afghanistan's Helmand, Kandahar, 
Zabul, Paktika, Ghazni, and Nuristan Provinces. Al-Qaeda's presence in 
Afghanistan was almost certainly larger and more expansive than 5 or 
even 10 years before.\34\ This expansion may have been due partly to 
Taliban advances in Afghanistan and al-Qaeda's relationship with 
operatives from the Taliban and other groups, such as Tehreek-e-Taliban 
Pakistan and Lashkar-e Jhangvi. Al-Qaeda operatives in Bangladesh were 
particularly active, conducting a range of attacks. In addition, al-
Qaeda in the Indian Subcontinent conducted a steady propaganda campaign 
from its media arm, As-Sahab. However, the group conducted few attacks 
in Afghanistan or Pakistan and was largely irrelevant in the Taliban-
led insurgency.
---------------------------------------------------------------------------
    \34\ See Richard Esposito, Matthew Cole, and Brian Ross, 
``President Obama's Secret: Only 100 al-Qaeda Now in Afghanistan,'' ABC 
News, December 2, 2009.
---------------------------------------------------------------------------
                       how al-qaeda might return
    Despite al-Qaeda's persistence, it has struggled to be relevant. It 
remains a loose, overlapping, and fluid series of networks across 
multiple regions. Zawahiri has been a controversial leader, who lacks 
bin Laden's charisma and ability to inspire foot soldiers. As Zawahiri 
emphasized in his ``General Guidelines for Jihad,'' published in 2013, 
al-Qaeda's ``military work first targets the head of (international) 
disbelief, America and its ally Israel, and second its local allies 
that rule our countries.'' He explained that the ``purpose of targeting 
America is to exhaust her and bleed her to death'' by, in part, baiting 
the United States to overreact so that it suffered substantial human 
and financial losses.\35\ But al-Qaeda has conducted few successful 
attacks in the West over the past several years. One exception was in 
France. Said and Cherif Kouachi, who trained in Yemen with al-Qaeda in 
the Arabian Peninsula, were involved in the January 2015 attack against 
the French satirical weekly newspaper Charlie Hebdo in Paris. The 
attack killed 12 people and injured 11 others. Most of al-Qaeda's 
violence has been directed at near-enemy targets in countries like 
Syria, Yemen, and Somalia. In addition, al-Qaeda has failed to inspire 
many attacks overseas, unlike the Islamic State.
---------------------------------------------------------------------------
    \35\ Ayman al-Zawahiri, ``General Guidelines for Jihad,'' Al-Sahab 
Media Establishment, 2013.
---------------------------------------------------------------------------
    It is unclear whether al-Qaeda will be able to establish a fifth 
wave that might include an increase in territorial control, recruits, 
and global attacks. Several factors may impact the rise--or decline--of 
al-Qaeda over the next several years. Most of these factors are outside 
of al-Qaeda's control, though much would depend on how al-Qaeda or 
other Salafi-jihadist groups responded to them.
    First, the withdrawal of U.S. or other Western military forces--
particularly special operations forces, air power, or smaller numbers 
of conventional military forces that train, advise, and assist foreign 
partners--from jihadist battlefields might contribute to a resurgence 
by al-Qaeda or other Salafi-jihadist groups. Examples include the 
withdrawal of U.S. or other Western forces from Yemen, Afghanistan, 
Syria, Iraq, Somalia, or Libya. U.S. actions in these countries, 
however limited, have served as a check against al-Qaeda and other 
terrorist organizations. The U.S. and Soviet exit from Afghanistan in 
the late 1980's and early 1990's contributed to the country's further 
deterioration and the rise of the Taliban and al-Qaeda. The U.S. 
withdrawal from Iraq in 2011 contributed to a resurgence of al-Qaeda, 
the rise of the Islamic State, and the spread of extremist ideology 
across the region. Other American disengagements, such as Lebanon in 
1984 and Somalia in 1994, contributed to further war after American 
forces withdrew.
    Second, another round of the Arab Spring or the collapse of one or 
more governments in the Arab world might allow al-Qaeda or other 
Salafi-jihadist groups to strengthen. Instability in some countries 
(such as Jordan, Saudi Arabia, Tunisia, or Egypt) or continuing war in 
others (such as Syria, Afghanistan, Iraq, Libya, or Somalia) could 
provide al-Qaeda or other jihadist groups with key sanctuaries. Among 
the most significant reasons for al-Qaeda's fourth wave was a weakening 
of governance during the Arab Spring. According to World Bank data, 
levels of political stability across the Middle East and North Africa 
dropped by 8 percentage points from 2010 to 2015, government 
effectiveness by 5 percentage points, regulatory control by 4 
percentage points, rule of law by 4 percentage points, and control of 
corruption by 4 percentage points. Levels were low across South Asian 
countries like Afghanistan as well. Governance was virtually 
nonexistent in countries that saw a rise in al-Qaeda and other Salafi-
jihadist activity.\36\
---------------------------------------------------------------------------
    \36\ World Bank, Worldwide Governance Indicators Data Set, accessed 
May 11, 2017.
---------------------------------------------------------------------------
    Third, events that highlight the oppression of Muslims by Western 
governments could increase the possibility of a resurgence by al-Qaeda 
or other Salafi-jihadist groups. In 2004, the U.S. television show 60 
Minutes II broke a story involving abuse and humiliation of Iraqi 
inmates by a group of U.S. soldiers at the Abu Ghraib prison. The 
uncensored Abu Ghraib photographs appeared on jihadist websites and 
were used for recruitment purposes. A similar situation could be used 
by Salafi-jihadist groups for propaganda. In addition, the United 
States or other Western countries could over-react to a terrorist 
attack on their soil and implement domestic policies that broadly 
target Muslims and create a ``war against Islam.'' Such a development--
which occurred during World War II, when the United States relocated 
approximately 120,000 Japanese, many of whom were American citizens, to 
internment camps--could increase radicalization and recruitment for al-
Qaeda and other groups.
    Fourth, the rise of a charismatic al-Qaeda leader might help al-
Qaeda revitalize. Bin Laden was an inspirational leader, as was Awlaki. 
Fluent in English and adept at giving eloquent talks on Islam, Awlaki's 
stirring lectures earned him a growing cadre of followers and inspired 
numerous individuals to plot terrorist attacks. His lectures were 
available on the internet, and his CDs were sold in Islamic bookstores 
around the world. Awlaki operated his own blog and was active on 
several social networking sites. Other al-Qaeda leaders, such as 
Zawahiri, have been far less charismatic. But this could change. In 
2016, al-Qaeda leaders began to promote one of bin Laden's sons, Hamza, 
in their propaganda. In May 2017, al-Qaeda labeled Hamza bin Laden a 
``shaykh,'' suggesting that they might be considering him for 
leadership. While it is unclear whether Hamza bin Laden will emerge as 
a charismatic leader, such a development could help increase global 
support for the movement.
    Fifth, large-scale deployment of U.S. or other Western military 
conventional forces to key Islamic battlefields, however unlikely, 
could increase the possibility of a resurgence by al-Qaeda or other 
Salafi-jihadist groups. The U.S. deployment of conventional forces to 
fight terrorists overseas has generally failed to stabilize countries 
and has often been counterproductive.\37\ In Iraq, for instance, the 
U.S. conventional presence contributed to radicalization. Large numbers 
of U.S. forces in Muslim countries tend to facilitate terrorist 
recruitment. Many of the extremists involved in U.S. homeland plots 
after September 11, 2001--such as Jose Padilla, Nidal Hassan, 
Najibullah Zazi, and Faisal Shahzad--were motivated, in part, by the 
deployment of large numbers of U.S. combat troops in Muslim countries 
and by a conviction, however erroneous, that Muslims were the helpless 
victims of the United States.\38\ At the moment, it is unlikely that 
the current administration or the U.S. population would support the 
large-scale deployment of military forces to fight terrorism. But some 
Americans might rethink this possibility after a major terrorist attack 
on U.S. soil.
---------------------------------------------------------------------------
    \37\ Barry R. Posen, ``Pull Back: The Case for a Less Activist 
Foreign Policy,'' Foreign Affairs, Vol. 92, No. 1, January/February 
2013, pp. 116-128.
    \38\ Seth G. Jones, Hunting in the Shadows: The Pursuit of Al 
Qa'ida Since 9/11, New York: W.W. Norton, 2012.
---------------------------------------------------------------------------
    Sixth, the collapse of the Islamic State--particularly its core so-
called caliphate area of Iraq and Syria--and the death of charismatic 
leaders like Abu Bakr al-Baghdadi might allow al-Qaeda or other groups 
to rejuvenate. The further weakening or collapse of the Islamic State 
could also increase the possibility of a merger between fighters loyal 
to both al-Qaeda and the Islamic State under one umbrella--or even to 
the emergence of a new group.\39\
---------------------------------------------------------------------------
    \39\ On the merger of al-Qaeda and the Islamic State see Bruce 
Hoffman, ``The Coming ISIS-al Qaeda Merger,'' Foreign Affairs, March 
29, 2016; and Soufan, 2017.
---------------------------------------------------------------------------
                               conclusion
    Over the course of its existence, al-Qaeda has faced numerous 
challenges. One has been a failure to hold territory where the group or 
its allies could impose their extreme interpretation of Islamic law. 
Al-Qaeda leaders developed a close relationship with Mullah Omar's 
Taliban in the 1990's and established a sanctuary in Afghanistan, only 
to lose it by late 2001 after the 9/11 attacks. Al-Qaeda affiliates in 
Yemen, Syria, Somalia, Algeria, and Mali also consistently failed to 
hold territory because of poor leadership, incompetent governance, 
limited local support, excessive violence, internal tensions, and other 
factors. Another problem has been a lack of overall Muslim support. In 
a brusque letter to Abu Musab al-Zarqawi in 2005, Zawahiri remarked 
that ``we are in a media battle in a race for the hearts and minds'' of 
Muslims.\40\ Yet bin Laden, Zawahiri, and other al-Qaeda leaders 
consistently failed to translate this recognition into practice. Public 
opinion polls show that Muslim views of al-Qaeda are consistently 
negative. ``Strong majorities in most countries have unfavorable 
opinions of the group, founded by Osama bin Laden more than a quarter 
century ago,'' concluded one poll conducted in 14 Muslim countries.\41\ 
Al-Qaeda's lack of popular support has been a chronic problem.
---------------------------------------------------------------------------
    \40\ Letter from Ayman al-Zawahiri to Abu Mus'ab al-Zarqawi, July 
9, 2005.
    \41\ Pew Research Center, ``Concerns about Islamic Extremism on the 
Rise in the Middle East,'' July 1, 2014.
---------------------------------------------------------------------------
    Al-Qaeda is a different organization today than it was even a 
decade ago. It is less centralized, less focused on external operations 
(at least for the moment), and less popular. But the Islamic extremism 
that al-Qaeda represents will not go away soon. The ideology will 
likely survive in some form. Conflicts in the Middle East, Africa, and 
Asia are likely to continue, with support from some terrorist networks 
in the West. Al-Qaeda's leaders do not control the circumstances that 
lead to its waves of resurgence, but rather position the al-Qaeda 
enterprise to take advantage of these circumstances. It is unclear 
whether al-Qaeda or other Salafi-jihadists will be able to rebound in 
the future. And even if there is a resurgence, it could be led by al-
Qaeda, the Islamic State, a new organization, or a mix of Salafi-
jihadist groups. Such a revival will likely hinge on a group's ability 
to take advantage of opportunities like the withdrawal of small numbers 
of U.S. or other Western forces from key battlefields; a second wave of 
the Arab Spring; a rising perception of U.S. or other Western 
oppression of Muslims; the rise of a charismatic leader; a large-scale 
conventional deployment of U.S. or other Western forces; or the 
collapse of the Islamic State.

    Mr. King. Thank you, Dr. Jones. I will start with the 
questions. Maybe you can tell us what is known about Hamza bin 
Laden other than being his father's son? Do we have any 
analysis of him? Would he have support? Dr. Jones mentioned 
that he has a certain charisma. But let me just--so you, Ms. 
Zimmerman, any knowledge you have of Hamza bin Laden?
    Ms. Zimmerman. I have only seen very limited knowledge, and 
that is what has been contained in the released Abadabah 
documents and how the al-Qaeda leadership was treating him. Bin 
Laden kept him very much protected for fear that he would be 
used against bin Laden.
    We do see efforts to groom Hamza, so I think that you are 
going to see him increasingly on the global stage. He had been 
releasing one statement a year, and then we just saw two this 
year.
    So I think that we are gonna see him actually try to fill 
the gap that pressure on ISIS has generated in terms of the 
ISIS propaganda with Hamza calling a younger generation to 
Islam.
    Mr. King. Yes.
    Ms. Cafarella.
    Ms. Cafarella. Yes. I would add simply that we do have some 
indications inside of Syria that al-Qaeda's local presence in 
Syria is actually assisting in building the image of Hamza. We 
have indications, for example, of al-Qaeda Syrian affiliate 
Jabhat al-Nusra referencing Hamza in lessons to children in 
Sharia camps.
    So there have been--there is a video that comes to mind 
immediately of little children, including foreign fighter 
children in one of these camps, referencing Hamza as a model 
for their own development.
    Mr. King. OK.
    Dr. Jones.
    Mr. Jones. Well, we know that Hamza spent considerable time 
after 9/11 in Iran, where some of al-Qaeda's management council 
leaders were located. He would have interacted most likely 
extensively with some of al-Qaeda's senior leaders in Iran, 
including Saif al Adel, who was a colleague of Bin Laden's.
    I think when you look around al-Qaeda right now, it 
probably lacks a very strong inspirational leader. Across the 
board it has got Muhammad al Jawlani in Syria. It has got some 
senior officials in Yemen.
    Bin Laden with his Arab background, may represent--Hamza 
with his Arab background may represent someone that is more 
inspirational across multiple fronts, which is what al-Qaeda is 
trying to do.
    But I think he is untested in many ways. So I think it is 
unclear right now how well he is received by foot soldiers 
across al-Qaeda's affiliates.
    Mr. King. Are there any known competitors to him, any 
rivals within the network?
    Mr. Jones. Well, I would say there are senior rivals in the 
organization. I mean just to take one, Saif al Adel served on 
the inner shura for Bin Laden. He has most likely been residing 
in Iran. He is Egyptian.
    But whether he is a charismatic leader is certainly an open 
question. But I think he would be somebody who would be 
considered a replacement for Zawahiri if he were to be killed.
    Mr. King. OK. Two areas where ISIS made very strong inroads 
is in attracting foreign fighters and also in almost a 
psychological use of the internet, seeing that they were able 
to go beyond the ordinary base and even appeal to people on the 
fringes of society. Does al-Qaeda--have they shown any ability 
to carry on that way?
    I will start with Ms. Zimmerman.
    Ms. Zimmerman. Al-Qaeda's ability to recruit foreign 
fighters is still much lower than that of ISIS, because al-
Qaeda hadn't weaponized the internet, as you noted. But al-
Qaeda has sustained its networks to draw in foreign fighters to 
the various fights.
    It is prioritizing the network into Syria, seeing that that 
jihad against the Assad regime as the primary fight for the 
defense of Muslims, and that is how al-Qaeda globally is 
characterizing the Syrian fight. I expect that al-Qaeda is 
still drawing on that population, and it has networks inside of 
Europe, which I know that Jennifer can explain more fully.
    I think that we are at risk of minimizing the concept that 
these foreign fighters aren't going to go anywhere if ISIS 
disappears, where a lot of them aren't mobilizing just for 
ISIS. They are mobilizing, because they see the Salafi-jihadi 
movement, the requirements to defend the Sunni as being 
something obligatory upon themselves. ISIS' call right now is 
loudest, but it is not the only one.
    Mr. King. Ms. Cafarella.
    Ms. Cafarella. Absolutely. So I would add one example, 
which is that many of the foreign fighter units actually that 
ISIS has been deploying against Europe, many of those were 
originally al-Qaeda units and ended up flipping jerseys, so to 
speak, after the schism between al-Qaeda and ISIS.
    This is noteworthy in one particular way, insofar as we 
have open-source information about the ISIS bombmakers in 
Europe, the individuals actually building the explosives used 
in the high-casualty attacks, such as Paris and Brussels.
    Those bombmakers, in many instances, have been originally 
trained by al-Qaeda as part of al-Qaeda's foreign fighter 
program and local war effort inside of Syria. So I would 
highlight that as a particular overlap and risk.
    Al-Qaeda does still have its own foreign fighter units 
inside of Syria that fight on the battlefield, are recruiting 
and have actually begun to deploy back to their home countries. 
I have less open-source information about active al-Qaeda 
deployments into Europe, although I suspect that they are 
there, in terms of foreign fighter returns.
    But we do have instances, most notably the Turkistan 
Islamic Party, which is the Uyghur foreign fighter group that 
al-Qaeda inside of Syria has recruited, trained, and then begun 
to deploy back home.
    The way that al-Qaeda--my final point is the way that al-
Qaeda harnesses actually the media coverage of the Assad 
regime's brutality is of particular concern.
    So while al-Qaeda, as Katie noted, had not been as adept at 
the social medial penetration and that kind of recruitment as 
ISIS was, al-Qaeda with its moderate image has actually managed 
to get its clerics on the BBC and in Western press and has 
managed to influence local reporters inside of, for example, 
rebel-held Aleppo, that very subtly championed the al-Qaeda 
interpretation of events, while covering the brutality of the 
Assad regime's war effort. I think that is a particular concern 
moving forward.
    Mr. King. Thank you.
    Dr. Jones.
    Mr. Jones. Just briefly, two points. One is that I think 
al-Qaeda has had some trouble inspiring people in the West to 
conduct attacks. Most of the individuals that I have looked at 
that have conducted or plotted attacks have generally been 
inspired by or at least have noted their inspiration by ISIS.
    I think that, in part, reflects Zawahiri's less than 
charismatic view and probably also reflects ISIS' control of 
the caliphate, which attracted a number of individuals.
    But I would highlight a couple of exceptions. One is Awlaki 
still from the grave is inspiring individuals, and we can see 
that in individuals that have plotted or conducted attacks in 
the West.
    There have been connections with Yemen, you know, the 
Charlie Hebdo attacks. Cherif Kouachi did train with al-Qaeda 
in Yemen. We see with the Boston bombings, and I think we would 
see more recently cases where magazines like Inspire are 
facilitating or helping people build crude bombs.
    So I think there are ways that al-Qaeda certainly has 
reached its hand in, even though it has not been, in my view, 
as effective as ISIS in inspiring, to this date anyway.
    Mr. King. Thank you.
    Miss Rice.
    Miss Rice. Thank you, Mr. Chairman.
    I would like to start with you, Dr. Jones. You mentioned, 
when you gave the list of six factors that could affect the 
rise of al-Qaeda, you mentioned one or more events that 
highlights the suppression of Muslims by the West.
    I wonder if you can tell us what effect you think the 
travel ban has on al-Qaeda's recruitment capabilities, and how 
it relates to that one point that you made about actions of the 
West that could give rise to the resurgence and continued power 
of al-Qaeda?
    Mr. Jones. Thanks. That is a good question. I think on the 
travel ban, I think it is a little early to know the impact 
that it has had. I mean, when you look at the jihadist social 
media sites, it certainly has been highlighted by a certain 
number of groups as a cause for attempting to inspire 
individuals to conduct attacks. Whether and to what degree that 
has been successful is unclear right now.
    I still think it's important to consider a range of other 
variables in looking, not just at the travel ban, but other 
variables, like U.S. actions overseas pulling out or putting in 
large numbers of forces.
    I think my final point would be just in terms of the travel 
ban itself, when you look at most plots and attacks in the 
United States, and there was a pretty good report that came out 
of G.W., George Washington University recently, most of these 
had been done by individuals that did not come into the United 
States as refugees. They were Americans that radicalized.
    So there will be a large chunk of potential threats that 
will be well outside of this ban. I would also note that the 
range of countries not on it, that I think a range of us would 
be concerned about, including Pakistan and Afghanistan.
    Miss Rice. So this morning I was at a breakfast where we 
spoke with the Afghanistan's Ambassador to the United States. 
He was talking about how al-Qaeda, ISIS, a bunch of these 
terrorist organizations are really truly alive and well in 
Afghanistan. There are instances of them working together, 
whereas maybe they didn't before.
    They are not being so ideological maybe as you would think 
that they would. They are not as much in competition as they 
are trying to maybe work together.
    So this is really a question to all three of you. This is 
just in Afghanistan, but I am sure that, you know, obviously, 
they are a joint presence in Syria and elsewhere. To what 
extent do you see that? Is it competition? Is it coordination? 
Is it a combination of the two, and how do we address that?
    We can start with you, Ms. Zimmerman.
    Ms. Zimmerman. It is an excellent question, and I actually 
think that we have done a disservice to ourselves by talking 
about the competition between al-Qaeda and ISIS because the 
competition between the two groups is literally, is minor 
ideological disagreements that are within the Salafi-jihadi 
ideology.
    They both share the same end-state, and it is the 
leadership levels that are arguing over what the right strategy 
is and how to pursue it, where the Islamic State believes that 
you need to build a state at the same time as military conquest 
and that the conditions are set today for that.
    Al-Qaeda has a much longer-term strategy to build the 
conditions in order to emerge victorious. I would say that 
action against ISIS has somewhat validated al-Qaeda's strategy.
    But at the lower levels, even at the group level, the 
affiliate level, and certainly at the foot soldier level, it is 
not an ideological competition. It is not a place where you can 
draw a line between an ISIS fighter and al-Qaeda fighter.
    Most of the local fighters are fighting in support of their 
local community or because the group is paying them or because 
it happens to be the only group that is acting against the 
government or another source of grievance.
    They are not as concerned with this idea of the Islamic 
State or of the idea of al-Qaeda. Certainly, the foreign 
fighters make a distinction, but the local fighters in each of 
these conflicts don't.
    What we saw after the rise of the Islamic State was that 
the al-Qaeda network remained very cohesive. The groups that 
were on the periphery, the ones that didn't fully share al-
Qaeda's strategic doctrine were the ones that split to ISIS not 
because they thought that ISIS was better, but because ISIS had 
delivered what they were looking for, delivered the caliphate, 
and they had delivered it with access to resources.
    So what we saw were fighters flipping inside of Yemen 
because the ISIS fighters were making twice as much as the al-
Qaeda fighters were. We can see fighters flipping inside of 
Libya and elsewhere, because to declare the caliphate in Sirte, 
Libya, immediately generated attention to their cause and drew 
in additional fighters.
    We need to understand that both al-Qaeda and ISIS are part 
of the same movement, which is on the rise, frankly, and that 
if we were to just focus on the groups, we are going to end up 
with the same problem of strengthening one over the other. That 
is why we need to draw back and actually depress both al-Qaeda, 
ISIS, and the movement writ large.
    Mr. King. Ms. Cafarella.
    Ms. Cafarella. Yes. Absolutely. Thank you for the question, 
because I agree with Katie. I think it is a very, very real 
important one, especially at this phase, as Mosul falls, and 
Raqqa, hopefully, will follow.
    The word, actually, I would use to describe al-Qaeda and 
ISIS inside of Syria, but it scales globally, is deconflict. 
Al-Qaeda deconflicts its operations with ISIS in order to 
avoid, actually, expending resources fighting a near peer that 
is pursuing the same goals.
    So al-Qaeda actually was in control of most of southeastern 
Syria along the Euphrates River Valley, southeast of Raqqa 
City, the terrain that ISIS now controls in 2013.
    In 2014 al-Qaeda basically handed that terrain over to ISIS 
and withdrew in order to use its resources against the Assad 
regime in western Syria rather than contest ISIS in 
southeastern Syria. So I think that is a very good example, 
actually, of the pragmatic decision making from al-Qaeda's 
perspective.
    The second is that al-Qaeda benefits from ISIS' existence 
because ISIS' brutality allows al-Qaeda to seem moderate in 
comparison. So al-Qaeda actually needs ISIS in some respects to 
be as successful as al-Qaeda has been in pitching to Syrians, 
but also disenfranchised Muslim communities elsewhere that, 
hey, ISIS is extreme. We are just al-Qaeda. We are here to 
defend you and your families.
    That narrative is incredibly powerful. Without ISIS to 
compare themselves to they would have a harder time with that 
narrative. So I would highlight that for your consideration.
    Miss Rice. Dr. Jones.
    Mr. Jones. I agree with what my two colleagues have noted. 
Two quick comments. One is I do think there is a fair amount of 
both competition and cooperation on the competition side. To 
take your Afghanistan example, ISIS was severely pushed back in 
southern Afghanistan, in Helmand, and Farah Province.
    Thanks to both the Taliban and al-Qaeda that were operating 
in the south, that is in part because ISIS put on a pretty 
serious ideological campaign in its magazines like ``Dabiq'' 
denigrating al-Qaeda. There was pretty intense competition, I 
think there has been, to some degree, in the East, but we have 
also seen deconfliction and cooperation.
    I would note again in the Charlie Hebdo attack in France, 
that included networks both with an ISIS connection. That is 
Coulibaly, as well as with Kouachi, who had trained with al-
Qaeda. So there was cooperation in a major Western attack.
    I think what it does suggest is when we have local groups 
in these wars, whether it is Iraq or Syria or Afghanistan 
filling this vacuum, these groups will fill it. That is my 
concern.
    Miss Rice. Well, I have gone well over my time. I am hoping 
we are going to have a second round because I have a lot of 
other questions, Mr. Chairman. Thank you.
    Mr. King. Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman, and thanks to the panel 
for being here. There seems to be a great deal of pushback, at 
least in some circles politically, against the idea that the 
war on terror, if we can still use that terminology, is a clash 
of civilizations, but that is exactly how our enemies frame it.
    I think it is interesting that we choose our enemy's 
framing of things when it suits our purposes, like the travel 
ban, which to me is geographic and very pointed. It has nothing 
to do with religion, but it is geographic. Then we disregard it 
when it doesn't suit our purposes.
    But I think a fair view of the two sides see that the two 
cultures, our culture and their culture, is diametrically 
opposed. I think that we probably at least can agree on that. 
In any case, toxic religious ideology, in my opinion, can't be 
apologized for without sacrificing lives on the altar of 
political correctness.
    So my question for you is this: How important to victory, 
to eventual victory--and like you said it is gonna be around 
for a long time, I think we recognize that as well--but how 
important is it to victory in that we acknowledge and 
effectively repudiate the toxic ideology, whether it is al-
Qaeda or ISIS and all the various different groups?
    It is an ideology they are talking--ISIS to me, and al-
Qaeda or Boko Haram, that is methodology, right, not ideology?
    But how important is it in repudiating the ideology fueling 
radical or fundamentalists? Maybe it is not even radical? Some 
people don't consider it radical, right? Fundamentalist, right?
    These people are the ones that are following the Quran and 
the radicals are the ones that are more secular in their mind, 
right? So I would use fundamentalist Islamic terrorism. How 
important to victory is that we acknowledge and effectively 
repudiate? That is the question. Anybody? Everybody?
    Mr. Jones. I think it is absolutely essential. I think the 
challenge that the United States faces right now is that the 
most talked about tool continues to be the military tool, which 
is an important one. But I think this ideology will die, and I 
think it will die eventually, only when it fails to recruit 
individuals and bring them into its fold as supporters.
    I think when you look at polling data for both ISIS and al-
Qaeda, what you see even in the Arab world, is very limited and 
in most cases declining support for its extremist views across 
large-scale populations. That is why I think it is important to 
distinguish between these organizations and ideologies which 
are a minority and larger populations.
    But I think where there has been some success against these 
groups, French efforts in Mali, and Rand has done some work on 
that, Saudi efforts against al-Qaeda in the 2003, 2004 period 
and then some efforts, including by the Jordanians to keep them 
at bay. They have been effective at leveraging locals to push 
back on the ideology and denigrate it.
    I think that has been important, including getting former 
members of the group to talk about what life was like while 
they were members, or for those people in Mosul or Fallujah and 
Ramadi who had to live under the Islamic State. I think that 
stuff needs to get out there more.
    Mr. Perry. Why doesn't the U.S. Government have its own 
counterpart to something like Inspire or Dabiq, including those 
things that we send out to those very same populations? Is that 
a consideration? Do you know?
    I mean maybe you are not the person to answer that 
question, but it seems to me, that that would be like a minimum 
part of a strategy that is outside of the military component.
    Ms. Cafarella. Sure. I would add simply that I do think 
countering the ideology is a necessary component of our 
strategy. But I think it is far from sufficient, and I actually 
would argue that it shouldn't be the main effort.
    Look, the reason why ISIS and al-Qaeda have resurged--I am 
going to focus on the Middle Eastern theater because that is 
where I have studied this most closely.
    The reason why ISIS was able to resurge in Iraq is not 
first and foremost because of its ideology. It has because of 
residual military capability that ISIS held on to when the 
United States withdrew.
    It is because the government of Nouri al Maliki executed a 
series of very sectarian policies that alienated the Sunni 
population. ISIS only actually resurged to the level of 
strength to take major cities after a Sunni protest movement 
against the government emerged, which was not ideological in 
nature. But it was about countering repression and demanding 
basic rights.
    That is what ISIS hijacked. That is the core problem. It is 
a reality problem at the root of even the ISIS phenomenon. I 
don't mean to discount the importance, again, of engaging with 
the ideology, but only to say that if we focus solely on the 
ideology, we will fail to address the roots of the actual 
problem.
    Mr. Perry. So I am almost out of time for round one, but 
since, in my opinion--and you are the expert, I am not. But 
since ISIS didn't necessarily--the genesis isn't necessarily in 
Iraq, but it is more in Syria, right, and then moved into Iraq, 
didn't that sectarian situation with Maliki and the oppressive 
policies toward the Sunnis just offer the opportunity for ISIS 
to move into Iraq, take the territory, and continue with the 
ideology as opposed to being that--I think in your argument you 
are somewhat contending that that is the genesis of ISIS, where 
I would contend it is not.
    Ms. Cafarella. Sure, yes. So I would clarify only to say 
that I do agree with you that the genesis of ISIS and why ISIS 
is fighting is an ideological war. I am arguing that in order 
to defeat ISIS we need to deprive it of civilian support----
    Mr. Perry. Concur.
    Ms. Cafarella [continuing]. Or civilian tolerance.
    Mr. Perry. I----
    Ms. Cafarella. And that that is decisive.
    Mr. Perry. Just to clarify, there are folks that will tell 
us as Americans that the reason the ideology exists is because 
these people are impoverished and they don't have work----
    Mr. King. Mr. Perry.
    Mr. Perry [continuing]. Or they, you know?
    Mr. King. I was going to give Ms. Zimmerman another chance 
if she wanted to reply.
    Mr. Perry. I just want to reject that theory. But thank 
you, Mr. Chairman.
    Ms. Zimmerman.
    Ms. Zimmerman. Thank you. I reject that theory as well, 
Congressman. So I think that to answer both of your questions, 
one, the United States shouldn't have the counter to Dabiq or 
Inspire because it is not our role to inform what ideology is 
correct.
    I think that that voice is actually quite strong in the 
Muslim majority world, where mainstream Islam rejects the 
tenets held by these groups, by al-Qaeda and ISIS almost 
entirely.
    We are treating this ideology like it is new, and it is 
not. It has been in existence since the 1960's. But it has 
really only threatened the United States at the scale that it 
has in Europe as well for the past 6 years, since the Arab 
Spring and since we saw al-Qaeda and then the rise of ISIS 
catapult Salafi-jihadism forward.
    I actually have a report that I will leave with you. But it 
looks at the reasons why this ideology is existing and how it 
has been rejected repeatedly by Muslim societies for decades. 
You can look at North Africa as a great example of societies 
that had very strong groups that were pushed out once the 
population was given a choice.
    I think that this is where we do need to be looking at 
countering the ideology for its foreign fighter recruitment. We 
do need to be looking at the sectarian policies, but it is 
really taking our strategy and reorienting it not on the enemy. 
What can we do against the enemy? How can we prevent the enemy 
from attacking us?
    But how do we orient on the population? How do we make the 
population free to choose again to reject this enemy? Because 
it has rejected it time and again. That is why the Anbar 
Awakening was successful.
    That is why the Egyptian Islamic Jihad was pushed out of 
Egypt. It is an ideology that is counter to what these Muslims 
want. The reason it is gaining attraction is because they feel 
like they are under threat.
    Mr. Perry. So my time has expired.
    Mr. King. OK.
    Mr. Perry. I thank the Chair for his indulgence and hope 
for Round 2. But I am going to contend some of your points, but 
thank you for your input.
    Mr. King. Ms. Jackson Lee.
    Ms. Jackson Lee. Sorry. Let me thank the witnesses for 
their testimony. There might be two of us on this panel that 
were here during the Iraq War. I would say, Ms. Cafarella, you 
are right, if I pronounced your name correctly, it was the 
aftermath of the Iraq War that some of us opposed.
    But the removal of Saddam, that was a given, but then his 
guard, who some might say desired to just work. When that was 
completely banished and forbidden by our policies they were 
driven in quotes, and I will use this terminology, ``into the 
underground'' and became the fodder for ISIL or at least the 
armored individuals for ISIL.
    But as Sunnis you are right. The leadership of Iraq, rather 
than try to embrace all of the Iraqi people, including the 
Shiites and the Sunnis, get them working and got rid of all of 
the civil servants that happened to be Sunni. Certainly there 
probably should have been some vetting.
    That added to, I think, what the mixture is that has 
carried forward. Am I correct in your assessment on that or 
your thoughts on that?
    Ms. Cafarella. Yes, I would largely agree.
    Ms. Jackson Lee. So let me say that my interests, both in 
this committee and the work that we have to do, is the 
protection of the homeland. I think that is our focus, albeit 
that we are connected to the world. So I am going to ask 
questions that if you will be kind enough to just yes or no.
    Then I want to pursue some line of re-questioning Dr. Jones 
with you. I thank all of you for your testimony.
    Is it your belief that focusing our policy such that we 
create the framework for protecting the homeland is crucial. 
Ms. Zimmerman? I just need the yes on the record or no.
    Ms. Zimmerman. Yes.
    Ms. Jackson Lee. All right.
    Ms. Cafarella.
    Ms. Cafarella. Yes.
    Ms. Jackson Lee. Dr. Jones.
    Mr. Jones. Yes.
    Ms. Jackson Lee. Thank you. So I want to ask the question. 
Under the present climate that we have, hopefully, the success 
that we have now with Mosul and moving ISIL out, though I think 
they will find another cave to be in.
    Dr. Jones, what is the extent of the potential of 
recruitment on our shores? How active would ISIL attempt to be 
on our shores with recruitment? Would they find that to be an 
effective tool that they could penetrate some of our 
populations and make them recruits?
    Mr. Jones. Well, I think there is no question when you look 
at what ISIS leaders have said, including what they have 
published, that they would love to recruit individuals in the 
U.S. homeland for either inspired or directed attacks. I think 
their comments on this are unambiguous.
    Ms. Jackson Lee. Let me not leave out al-Qaeda. Would they 
also be in there because there are a number of subs--I call 
them subsets or subcommittees, subgroups. Would they likewise 
potentially engage in that?
    Mr. Jones. Again, I think there is no question, like ISIS, 
al-Qaeda would like to inspire attacks. I would just note that 
the name of al-Qaeda in the Arabian Peninsula's magazine is 
Inspire for this very reason. It is written in English for this 
very reason.
    Ms. Jackson Lee. Then we have a point that I will be 
getting to. I am on the Subcommittee on Cybersecurity. We have 
been talking about it for a decade, as I know some of my 
colleagues have as well. That is the new weaponry from my 
perspective.
    Right now, we are engaged in a vigorous discussion of 
Russia's large footprint on this whole question of cyber 
weaponry which is, obviously, taking resources not from--but 
our intelligence community has to utilize resources what--for 
an entity, a KGB, that we would normally just want to know that 
we disagree, know that we have different political 
philosophies.
    We would like to find a common path, I assume, that we 
could work on certain issues. But we are ramped up to shore 
ourselves against a cyber weaponry that Russia is using, 
elections and others.
    Can you comment on the threat of cybersecurity, and the 
imbalance or the difficulty of trying to shore up against 
Russia's intrusion that then makes us either, and I don't want 
to suggest it, but less attentive maybe on the issue of the 
cyber weaponry that can be used by the likes of these various 
known terrorist groups?
    Dr. Jones.
    Mr. Jones. Sure. I am not an expert on Russian cyber 
operations. But the broader issue, there have been some efforts 
by jihadist groups, including ones we are discussing here, to 
conduct operations, cyber operations.
    I still think the more serious threat along this line is 
the inspiration or the attempted inspiration through social 
media of individuals in the West, including in the United 
States.
    In part I think, happy to go in this direction if you want, 
there is a much more serious partnership with the private 
sector, I think, that needs to occur. Both on the attempted 
inspiration, on the cyber side, as well as on communications 
between groups through encrypted apps that is critical as well.
    Ms. Jackson Lee. Well, what I would--I know that you would 
not have all the expertise, but what I was suggesting is with 
the resources that our intelligence community has being now 
having to focus on Russia's attacks on us, then we have these 
known terrorist groups that we should be focusing on as well. 
You would agree with that?
    Mr. Jones. I would certainly agree and think that there are 
threats to the United States coming from both state and, in 
this case, extremist actors.
    Ms. Jackson Lee. My last question is, and I think you made 
mention of this, and I think this is a very astute point that 
you made. First of all, we cannot fight this with a--how should 
I say it--a nonmilitary terminology, boatload of weapons or 
fight conventional wars to end terrorism.
    So the idea of countering violent extremism, both in terms 
of potential recruits here in the United States, so young 
people, or social network, how crucial is that that we not 
abandon that in terms of protecting of the homeland?
    Mr. Jones. I think it is absolutely an essential component 
to protect the homeland. I have a piece in The Wall Street 
Journal yesterday, which looks at the ISIS threat in Iraq. And 
notes that ISIS has a Plan B and C to use some of the Sunni 
grievances to continue to inspire people to conduct attacks.
    So the military instrument is certainly a part of this. But 
I think efforts by the FBI, the Department of Homeland 
Security, and not just for monitoring individuals, but for 
working with local communities in the United States to identify 
potential extremists and to work with the United States to 
protect their own cities and communities is essential.
    Ms. Jackson Lee. Well, let me thank you very much. I look 
forward to working with you because I think that that, the 
spreading across this Nation in terms of provokers, provoking 
Muslims, then the idea of people buying into I have to go for 
the fight or I have to be part of this fight against America, I 
think it is crucial that we engage in countering violent 
extremism.
    Thank all the witnesses for their work.
    Mr. King. The gentleman, from Texas, Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman. I also would like to 
thank you. There are many things that I have to do in the 
course of a day. This was something that I wanted to do because 
I follow and read all of our panelists and what they write 
about. So thank you all for being here.
    My first question is to you, Ms. Cafarella. When you talk 
about how in Syria al-Qaeda is proving or showing that they are 
the only group supporting the local population, I saw similar 
things with Lashkar-e-Taiba and Jaish-e-Muhammad during my time 
in Muzaffarabad, Pakistan.
    That the United States needs to have an anti-Assad strategy 
because Assad is the reason that there was a civil war. Assad 
is the reason that ISIS grew in Syria. In your opinion, what 
should be the tenets of an anti-Assad U.S. strategy?
    Ms. Cafarella. Sure. Well, this is something that we have 
explored in depth at the Institute for the Study of War 
because, you know, I don't mean to imply actually that there is 
an easy way forward. There is not.
    We have allowed the situation to deteriorate so far that 
there simply are no good options left. The Iranians have 
forward-deployed to an unprecedented level, for example, inside 
of Syria now, in addition to the Russian deployment.
    So this is a very difficult problem to unriddle. All I can 
say is that doing nothing has led us to where we are now. So 
the status quo is simply not an option.
    I actually would argue we are not currently on a path to 
defeat ISIS. Because in Syria, for example, our partnered force 
against ISIS, the Syrian Kurdish YPG and some associated Arabs, 
are pursuing a political ideology that is antithetical to what 
actually the local population was originally pursuing.
    Raqqa was the first provincial capital to be liberated from 
the Assad regime. We are now helping the Kurdish force in 
placing new political ideology that it is an open question 
whether the locals will even accept.
    So we need to begin. But I would submit to you that we 
actually need to begin by rectifying our on-going efforts 
against ISIS as the first place. We are currently doing more 
harm than good.
    We need to reorient our anti-ISIS effort and develop a 
larger regional, actually, and global strategy to contain the 
Russians and Iranians in order to create opportunity, actually, 
to set the kind of conditions we need to inside of Syria to 
ever set conditions for either a negotiated end to this war or 
some kind of interim, you know, actual cessation of hostilities 
that endures. We have never been close to that outcome.
    Mr. Hurd. Thank you. Did either one of the other panelists 
have an opinion? Then great.
    Then Dr. Jones, I will turn it over to you, or ask this 
question. You talk about one of the things that will ensure al-
Qaeda's return to prominence is Arab Spring, you know, or the 
collapse of another government in the Arab worlds.
    Where are you most concerned of that happening? Where do 
you think that is most likely to happen? I recognize the answer 
may be the same for both but I am curious in your opinion 
there.
    Mr. Jones. Well again, I think it would be a concern to see 
a second round. I don't think it would guarantee the return or 
the resurgence of al-Qaeda, but would certainly increase the 
probability of a resurgence by al-Qaeda or other groups.
    I think there are a number of countries I am concerned 
about, or would be concerned about, the war spilling over into 
Jordan, but I think they have been pretty good so far, Egypt in 
part, economic and other conditions triggering broad unrest.
    The one I would highlight though would be based on its next 
door and proximity to Libya is Tunisia. It is a country that 
the United States has spent some efforts trying to stabilize.
    It is the first and potentially the most important. It is 
the first democratic country as part of the Arab Spring. It has 
been under severe strain because of its location next to Libya 
and the large number of returning foreign fighters coming there 
from Iraq and Syria.
    I think it is a very fragile situation right now. It would 
be concerning. I think it would be headlined as the first 
democratic state in the Arab Spring destabilizing.
    Mr. Hurd. Thank you. I am going to slip in a final question 
to you, Ms. Zimmerman. A question I often ask of folks that are 
experienced in this area, what day do we celebrate when it 
comes to the global war on terrorism or ending, I should say, 
the global war on terrorism?
    Ms. Zimmerman. Congressman, that is a very difficult 
question, as you know. I don't think that we celebrate at the 
defeat of ISIS. I don't think we celebrate at the defeat of al-
Qaeda in whatever form it is.
    I think we celebrate when we have enabled the Muslim world 
to stabilize and to reshape what is legitimate and responsive 
governance in the failed states that we see, where that is the 
de-escalation of conflict inside of Mali, inside of Libya, in 
Somalia, in Yemen, Syria, Iraq, Afghanistan.
    Preventing the collapse or the disintegration of the states 
in Egypt, in Niger, in Tunisia, watching Algeria very closely, 
looking at the Indian subcontinent because it is incredibly 
restive but not reported on and, you know, recognizing that we 
have key interests in the broader stability of the region.
    I think that once we reduce the grievances, the popular 
grievances that are different in all of these contexts, I 
recognize. I am advocating a very complex and challenging 
solution.
    But once we recognize that those grievances are reduced, I 
think then Salafi-jihadi movement moves back into the shadows 
and then we can celebrate victory.
    Mr. Hurd. I thank you, Mr. Chairman. I yield back the time 
I do not have.
    Mr. King. Thank you, Mr. Hurd, at least you acknowledge it.
    The gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to thank the witnesses.
    Dr. Jones, in your written testimony, you, in your 
conclusion, you said al-Qaeda is a different organization today 
than it was a decade ago. It is less centralized, less focused 
on external operations.
    One point you put in parentheses, at least for the moment, 
and second, less popular. Can you first give us some examples 
of what you think has made them less popular? Something that we 
should be aware of and maybe try and build on?
    Mr. Jones. Sure. The available--and it is limited polling 
data from places, including Pew, indicates decreasing 
popularity. So the question is why?
    That may be partially a result of what some perceive as the 
successes, at least up until recently, of ISIS in establishing 
territorial control and declaring a caliphate, that unlike al-
Qaeda some had gravitated toward ISIS because they had 
territory and substantial amounts of territory to show for it. 
That may be one key reason. Obviously that is changing quickly.
    Mr. Keating. Right. Well, thank you. A question, you know, 
I traveled to Tunisia not too long ago. But I also have had 
conversations anecdotally with non-government citizens, just to 
try and get their view on things.
    When it came to the Islamic State and pro rata, they are 
probably the leading country in foreign fighters in terms of 
their population, this person explained to me that there really 
wasn't initially any radicalized view.
    That the economy is so bad that there are no alternatives 
and that ISIS would come in and be able to say, ``Well, we are 
going to take care of your family if something happens to you. 
We are going to support you.''
    Do you think that that is--what is your opinion, all the 
panelists, generally? Do you think that oftentimes it is really 
the economic issues, no radicalization, and then that comes 
later on when they are, you know, connected with these groups, 
either al-Qaeda or ISIS in that respect?
    I mean, how much of that is what your research shows what 
happens? What comes first do you think?
    Ms. Zimmerman. I don't think that radicalization comes 
first for most of the fighters, with the exception of, I think, 
Western foreign fighters where they are radicalized before they 
leave. Within the context of the Arab Muslim fighters that flow 
into ISIS and al-Qaeda, some have radicalized, some haven't, 
but you are right to point out the differences.
    I wouldn't say that poverty or unemployment or a youth 
followage is actually causing the draw and the radicalization. 
I think that both ISIS and to some degree al-Qaeda exploit the 
gaps. They are able to use different ways to draw people in 
where it is----
    Mr. Keating. What kind of ways do you----
    Ms. Zimmerman. It is the lack of opportunity, so it is the 
salary. It is the ability for Boko Haram to pay fighters, young 
males, enough money so that they can then leave Boko Haram and 
get married.
    Mr. Keating. Are they making good on those promises?
    Ms. Zimmerman. They are, and this is, you know, there are 
different reasons why people fight. It is to defend their 
community, to defend their livelihood, and in Syria and Iraq 
many times it is to defend their lives.
    Ms. Cafarella. I would simply add that to say, you know, 
one of the reasons why al-Qaeda is powerful on the ground is 
often because it is viewed as less corrupt. In many instances 
it is. So the Free Syrian Army suffered a lot of corruption and 
mismanagement actually that provided an open door for al-Qaeda.
    But the real rift, I think, in terms of transitioning from 
pragmatic support to ideological support in Syria is actually 
the sense of profound injustice that many Syrians feel for what 
they have endured for the past over 6 years.
    My concern is not first and foremost that al-Qaeda is going 
to convince the entirety of the Syrian opposition to go to war 
with America, but rather that the next step that al-Qaeda will 
make is to convince Syrians not to fight against global 
attacks----
    Mr. Keating. You mean, like----
    Ms. Cafarella [continuing]. That the Syrians do perceive--
--
    Mr. Keating. Yes, with the AQAP, for instance, it was a 
breakdown of local services and then al-Qaeda has been moving 
into that offering that stability. Is that----
    Ms. Cafarella. Absolutely.
    Mr. Keating [continuing]. A concern in Syria, too, as 
things break down?
    Ms. Cafarella. Absolutely. So al-Qaeda does provide that 
kind of civilian services, everything, but the thing I am 
worried about in Syria is al-Qaeda resuming external attacks at 
some point. And Syrians saying, well, we have been suffering 
attacks for 6 years and nobody cared, so why should I care 
whether al-Qaeda attacks abroad?
    Mr. Keating. Yes. Just a quick question that hasn't been I 
don't think asked, quickly, Bangladesh. What are your concerns 
with Bangladesh? We don't hear that much about that, but I 
think it is a concern.
    Mr. Jones. I think there is no question it is a concern if 
you look at the increasing levels of violence that have been 
perpetrated by groups associated with al-Qaeda in the Indian 
subcontinent, as well as ISIS in Bangladesh.
    We have a range of the conditions. We have already talked 
about on this committee, on this panel, weak governance, 
economic challenges, opportunities for fighters, and its 
proximity to both Pakistan and Afghanistan active war zones 
that make Bangladesh of concern.
    Mr. Keating. Thank you. Any other comments?
    Ms. Zimmerman. I just want to offer one anecdote, which is 
the centrality of the Syrian conflict in all of these war zones 
where an NGO worker relayed to me a story of why he asked 
Muslims in Bangladesh why there is radicalization.
    The response they got back was not jobs or unemployment or 
questions about the government. But the question was what is 
the United States doing in Syria? I think that we do need to 
recognize the ripple effect that our actions have had in terms 
of the perception that we have abandoned the Sunni inside of 
Syria.
    Mr. Keating. Well, thank you. I yield back, Mr. Chair.
    Mr. King. Thank you, Mr. Keating.
    We will go for a second round of questions. Is that OK with 
you? Great, OK. In the immediate aftermath of 9/11 and 
certainly in several years afterwards, al-Qaeda was definitely 
the center of the jihad world.
    Today, assuming ISIS, you know, continues to decline, what 
is al-Qaeda's relationship with AQAP, with Boko Haram, with al-
Shabaab and other groups that may be in the jihadist world?
    Mr. Jones. Well, I can start. I mean, the core has clearly 
been weakened. I think there has been some movement of some of 
the key people from Pakistan into Afghanistan to take advantage 
of some territory that has been taken by the Taliban and other 
groups.
    I would say there is a fair amount of autonomy that exists 
with al-Qaeda in the Arabian Peninsula. There are still some 
strategic guidance, I would say, from senior leaders in South 
Asia, including Ayman al Zawahiri. al-Shabaab, very concerning 
links between its intelligence and external operations unit the 
Amniyat and al-Qaeda in the Arabian Peninsula.
    Al-Shabaab is mostly regional, but it continues to have a 
close relationship with al-Qaeda to some degree and al-Qaeda in 
the Arabian Peninsula.
    Boko Haram is an interesting story. It has been, more 
recently it has rebranded itself as ISIS in West Africa, but 
Boko Haram is--there are a lot of divergences there. Bin Laden 
had historically, we know, had conversations with senior Boko 
Haram leaders.
    Whether Boko Haram switches at some point is an interesting 
question. But the bigger picture, I would say, is that the role 
of a core or a central al-Qaeda is, in my view, fairly limited 
right now.
    Most of the operational planning and the day-to-day 
activity is handled in Yemen. It is handled in Somalia. It is 
handled in Syria and other locations, rather than being guided, 
certainly implemented like a screwdriver from the Afghan-
Pakistan region.
    Mr. King. Yes, Ms. Zimmerman.
    Ms. Zimmerman. I would like to echo Seth's thoughts and lay 
out that the way that I see the al-Qaeda affiliate nodes today 
is somewhat mirroring and replicating the capabilities that the 
core once had where they are all able or seeking the capability 
to conduct external attacks. They do run day-to-day.
    There are relationships that run between the groups, not 
just al-Qaeda in the Arabian Peninsula and Yemen and al-Shabaab 
in Somalia, but from al-Shabaab across the Sahara into the 
Maghreb and the Sahel. There is a self-supporting network where 
there is movement of personnel, resources, funding, expertise 
throughout the al-Qaeda network.
    That is something that our strategy of pushing hard against 
one group, the group that is the most threatening to the United 
States has not recognized. That a lot of the resources move 
elsewhere.
    Right now, the resources are flowing into Syria and that is 
why the Syrian jihad has been so strong from the al-Qaeda 
perspective, but we are looking at conditions where it will be 
able to use the safe havens it has in Africa in particular to 
reconstitute globally and push forward.
    I think there is resilience within the network that we just 
haven't recognized.
    Ms. Cafarella. I would simply add briefly that the 
affiliates are also coordinating with each other so you often 
get joint statements actually by Sharia figures and, you know, 
religious clerics within AQIM, AQAP, and Nusra inside of Syria. 
So they are also developing out that echelon and enabling it to 
communicate and coordinate with less oversight and input, 
actually, from the senior leadership echelon.
    Mr. King. Thank you. I don't have much time left, and you 
may want to get back to me in writing on this, but we talk 
about Syria and if ISIS is defeated or if ISIS is vanquished 
there, what is the optimal realistic result for Syria?
    I don't want to be impinging on the turf of the Department 
of Foreign Affairs Committee, but from the extent of 
marginalizing al-Qaeda, of reducing al-Qaeda, what is the most 
we can realistically hope for if there is such a thing as a 
final settlement in Syria?
    Ms. Cafarella. Sure. I would say briefly it depends first 
and foremost on what time line you are talking. So I think my 
concern is that the United States will try to pursue a Syria-
wide outcome in the next 5 years that I do not assess is 
possible, actually, to achieve. So I think we have to be very 
humble about how much influence we currently have.
    Mr. King. Are you saying--OK. Even in 5 years you don't see 
it?
    Ms. Cafarella. Even in 5 years, yes, because look, we still 
have a ground war against ISIS, which is going to take years, 
and we haven't even started operations against al-Qaeda. We 
haven't even started operations to contain the Iranians or 
undertaken any effort really to do that. So we are a very long 
way.
    But I do want to leave you with a hopeful note, which is 
that it took over----
    Mr. King. I have been waiting all morning for one.
    [Laughter.]
    Ms. Cafarella. Yes. It took over 6 years of absolutely 
horrific violence----
    Mr. King. Right.
    Ms. Cafarella [continuing]. Against the Syrian population 
almost completely unchecked for us to have this big of a 
jihadist problem. That is good. This was originally a pro-
democracy uprising. It took insane conditions that these 
populations were living under until these groups, these 
ideological groups, were able to grow this strong.
    That does give me hope actually that it is possible to 
change this, recognizing how far we have come and how far we 
have yet to go, but giving, you know, giving that hope where it 
is due.
    Mr. King. OK.
    Dr. Jones.
    Mr. Jones. I think in terms of optimal cases, I think if 
one is looking at trying to dampen down the terrorist threat, 
so that is ISIS and to some degree al-Qaeda through Jabhat al-
Nusra, a situation where U.S. efforts between Raqqa and Deir 
Ezzor along the Euphrates River Valley, that ISIS loses 
territory, and what gets put in place are organizations that 
are most likely to be sub-state actors, Kurdish, Sunni Arab, 
that effectively do not allow notable nodes of Jabhat al-Nusra 
or other fighters into that area.
    The Syrian regime continues to operate against Idlib and 
other areas where we have al-Nusra. So that would mean a 
dampening both in the East and the West against ISIS.
    The concern is that the United States will with its special 
operations forces continue to work with the SDF and then leave 
after ISIS loses its territory, and in its place we may go back 
to 2013 where we will see a pushback into that area from rebels 
that have been mostly focusing on the west of Syria, Nusra, or 
other organizations.
    That would be my worst outcome is a move to fill that back 
into that vacuum. So part of this hinges on who stays in play 
along the Euphrates River Valley.
    Mr. King. OK.
    Miss Rice.
    Miss Rice. So the common theme here, and really this is not 
a political statement because I was, you know, pretty critical 
of the previous administration's lack of a plan in Syria. That 
is just continuing with this administration, so this is not a 
Republican or Democratic thing.
    We have got to come up with a plan. But one of the 
overwhelming themes that, you know, I hear from this panel is 
that it is clear that terrorist organizations are able to 
flourish in areas that lack strong governmental institutions.
    We are dealing with a budget now where the present 
administration wants to cut the State Department's budget by 30 
percent, and we have a Secretary of State who is saying I am 
fine with that.
    So that causes me great concern in a number of areas 
because here we are talking about--you know, Ms. Zimmerman, you 
talked before about how al-Qaeda is very, very good at going 
into local communities and providing them life services, right, 
water, food, electricity to gain their loyalty.
    I juxtapose that to Dr. Jones, your comment before and your 
list of things that could actually make things worse is you 
quote a recurrent theme that large-scale conventional 
deployment of U.S. troops to a battlefield could aid in 
increasing the strength of these terrorist organizations.
    So if that is going to make it worse, and a lack of 
American presence, i.e., money, personnel, nongovernmental 
organizations that are supported by our money, how do you 
square that?
    I mean, you know, Mattis himself said if you take away the 
budget of the State Department and you decimate that, then I am 
just going to have to buy more bullets, basically.
    Again, this is not a political statement. You know, we have 
to figure out exactly what the mix is. It is not just, solely 
either/or, right? You have to show that you have a strong and 
ready military.
    But I think the first step should be investing like al-
Qaeda is in these local communities so that we can strengthen 
them where they are and so we can address the issue that way.
    So this is, like, that was just a mini therapy session 
right there, me just getting my confusion here about what we 
do? What do we do with this, and I would ask all three of you, 
who are all obviously very learned in this area, if you could 
just give us a little insight and your thoughts about that?
    Ms. Zimmerman. Well, you have laid out the challenges very 
well, and I think it is a big problem. It is part of the 
strategic weaknesses that I referenced that al-Qaeda is 
exploiting where U.S. personnel have withdrawn from areas that 
are insecure and they are made insecure partially by the 
presence of these groups, or the departure of American 
personnel enables the arrival of these groups into the space.
    I think that we do need to add some robust support to the 
State Department for its efforts. I think that we also need to 
pressure the State Department to start accepting more risk for 
its personnel.
    We are in an era today where our diplomats are only active 
inside of an embassy behind a wall. It means that they are not 
talking to the power brokers that are involved in the conflict.
    They don't understand what is going on on the ground. Our 
embassy for Yemen is, I have heard, fewer than 20 people. That 
means that we don't have enough people to talk to the Yemenis 
who are looking for a resolution to the civil war.
    Everyone knows the conflict in Yemen doesn't have a 
military resolution to it. Everyone knows that the Yemenis are 
looking for that political solution and that meanwhile al-Qaeda 
is growing inside of Yemen. Yet we are not actively shaping the 
space for that dialog to happen.
    In terms of addressing the places where al-Qaeda is 
delivering services, I think that I just want to reframe it 
from governmental institutions, which is obviously how our 
government works, state-to-state to government institutions and 
look at it from governance where a lot of these local 
communities have systems to mediate conflict, have systems to 
ensure that the population doesn't starve.
    So the robustness and resilience within the community 
itself is reliant upon governance and not the government 
institution inside.
    It needs to be a dual track where we both strengthen the 
governmental institutions because that is how we are able to 
transfer capabilities and fundamentally resourcing. One of the 
reasons Yemen didn't make it through the Arab Spring was 
because its own institutions were so weak it could only absorb 
so much aid.
    The challenges that it had helped catapult it back into 
civil war, but also the governance at the bottom level where, 
you know, particularly in Yemen we saw local populations asking 
for support against al-Qaeda.
    Because they were not the state there was no actor that 
stepped in besides al-Qaeda to support them. That is the place 
that we really need to find how to operate in that gray space.
    Ms. Cafarella. I would add just briefly that it matters not 
just if we have, you know, a State Department effort, but also 
what we do with it. So I am going to give you one positive and 
one very negative impact that the United States has had inside 
of Syria through that effort.
    The positive one is that we have been doing a lot of 
programming, actually, in rebel-held Syria to support civil 
society and local NGO's, you know, and political groups that 
are connected to the moderate opposition.
    That investment is very important because it did slow al-
Qaeda down. It was not enough to defeat al-Qaeda, but it was 
very important in keeping alive that thread within the 
opposition that al-Qaeda and Assad and the Russians and the 
Iranians have all been trying desperately to destroy. So that 
is a positive.
    The negative thing is that the United States had been 
backing the Geneva process for a negotiated settlement of the 
war long after it became clear that the Geneva process would 
never actually result in a negotiated settlement to the war 
because Assad has never had any intent to negotiate.
    The longer he has held on, the more the terrorist threat 
has been real and the less power those opposition figures 
willing to come to the table have had.
    Actually investing in the Geneva process as long as we did 
actually made true the al-Qaeda narrative that Syrians should 
never expect the West to be helpful even in negotiations, that 
Syrians can only expect to experience war. So I would highlight 
that actually as a damaging use of State Department resources.
    Mr. Jones. Just briefly, I think State and USAID have made 
vital contributions. I have worked in past government lives 
with organizations like OTI and USAID that I think are very 
effective at local levels. I would add to several of the 
comments already being made that a range of the locations we 
are talking about right now, where we have al-Qaeda concerns, 
take Somalia, we don't even have an embassy.
    Miss Rice. Right.
    Mr. Jones. Our embassy is based out of Nairobi, Kenya, 
nearby. So this is risk aversion that if we are to get serious 
about this we need people on the ground in the range of these 
areas that aren't just military people.
    My last comment is, again, I would also say that this does 
not always have to be us. I find it somewhat disturbing, for 
example, in Libya that our European allies have not stepped up 
as much as I think they can, particularly after connections 
between the Manchester attacks and Libya itself.
    We have got the Italians, French, British equities at stake 
in Libya. So in some cases I think these are allies who should 
also, including their development agencies, that should be 
stepping up.
    Miss Rice. Well, but I totally agree with you there, but 
this, what looks to be an American recession from Europe and 
NATO and engagement at all feeds right into what you are 
talking about. If we are not there, why should they be, you 
know--oy.
    I thank you, Mr. Chairman.
    Mr. King. Mr. Perry.
    Mr. Perry. Thanks, Mr. Chairman. So, you know, I have to 
apologize up-front, but I have got to go into a little 
editorial before I ask you a couple of questions. I am thinking 
about, you know, the context of the conversation is al-Qaeda 
and ostensibly the Department of Homeland Security exists 
because of the actions of al-Qaeda.
    Dr. Jones, you talked about we won't know the effects of 
the travel ban for some time, but there is this contention, so 
to speak, that the travel ban leads to recruiting.
    I have got a news flash for everybody, but I don't really 
think it is a news flash for you folks. Everything we do, the 
fact that we are is a recruiting tool. So you can ascribe or 
assign any portion of anything we do as Americans to 
recruiting.
    You know, I read a book called ``America Alone'' about 10 
years ago about the demographics of Europe, right, and how it 
was already lost 10 years ago. Now we are seeing the fruits of 
the labor of their policies and their actions.
    I think the travel ban seeks to--a geographic travel ban 
seeks to provide some time and space to ensure that the vetting 
process is correct so that we don't wholesale as Europe has 
done, import the essential elements, right?
    You said that the attacks on America haven't come from the 
refugees or the people that have come directly. Well, in 
Europe, at some point they could say the same thing, but years 
on, years on, with Sharia courts, with no-go zones, this is 
what they have fostered. This is what they have sown, right?
    So what America is saying and what the travel ban is 
saying, we want to take a breath, make sure we are doing the 
right things so we don't sow those seeds, right? That is to me 
what that is about.
    Ms. Zimmerman, I couldn't agree with you more that America 
shouldn't be the one that provides the counter to Dabiq and 
Inspire, but your contention that the Muslim world is opposed 
to this and that they have been vocal in that, maybe they have 
been to some extent, but in my opinion it hasn't been 
successful or we wouldn't be here, right?
    When I think about Saudi Arabia, Wahhabism, Salafism, and 
the wholesale exportation and funding of that, and let us not 
just pick on the Sunnis.
    You know, the Shia and the Knife Intifada and the 
publications and so on and so forth, somebody has got to lead. 
Apparently these folks aren't, or if they are they are doing a 
poor job at it. We are suffering the consequences.
    That is my point. But I get some of your points. I just 
wanted to give the counter to that.
    Moving on to a couple questions here. Al-Qaeda in Iraq once 
there is a vacuum, once ISIS is fully defeated or generally 
defeated in Iraq and Iran's Shia component seeks to re-
establish its network for guns and for ammunition and supplies 
through Syria and so on and so forth.
    Is al-Qaeda going to play in that space? Did they care? Are 
they going to try and reserve some of that? Or are they just 
going to allow Iran to have that wholesale, just as a 
curiosity? What can we expect? Do you know?
    Ms. Cafarella. I do expect al-Qaeda will attempt to exploit 
that because, look, we have defeated ISIS in Mosul. There 
remains a lot to go actually to defeat ISIS. It still holds 
cities.
    But we haven't actually addressed the core grievances, 
again, that originally gave rise to ISIS. So it is unclear to 
me whether Muslawi Sunni civilians are going to trust the 
government in Baghdad now. That still remains to be seen.
    That is still a vacuum, and al-Qaeda will attempt to 
exploit it. So you have al-Qaeda clerics, for example, in Syria 
already discussing the Iraqi government among the list of the 
enemies of the Sunni people. So I think that is a given. Where, 
how and when they are able to activate that capability I think 
remains to be seen.
    Mr. Perry. Fair enough. In the context of the whole hearing 
generally, we have the perception--I do at least, and I just 
want you to verify it if you can, because I have heard from 
other people in your community. Al-Qaeda is at least as strong 
if not stronger from an operation--maybe not operationally, but 
organizationally their affiliates around the globe, et cetera, 
as it was on September 11, 2001. Is that true or not true?
    Ms. Cafarella. I would say it is true and even worse 
because, again, at least in Syria they are perceived 
increasingly as having the moral high ground. That is a 
capability that they didn't have at the same scale.
    Mr. Perry. OK. Finally, al-Qaeda and the Muslim 
Brotherhood, does anybody want to make the connection? I put 
this in the context of the Holy Land Foundation investigation 
and trial, the unindicted co-conspirators and the fact that 
those folks were let go and in many respects, at least in many 
opinions, they have reconstituted themselves doing the same 
things under different names in Illinois.
    So I just want to see if there is a context that you want 
to inform the audience about regarding al-Qaeda and the Muslim 
Brotherhood?
    Mr. Jones. Yes, just briefly, two comments. One is most of 
the areas where I see al-Qaeda or its affiliates operate I 
don't see a major coordinated relationship, particularly 
between senior members of the organization and the brotherhood.
    I have seen al-Qaeda operate with other groups, including 
Salafi-jihadist groups. But when I look around Iraq and 
Afghanistan and Syria and Libya, I don't see a notable, what I 
call, partnership.
    But let me just say that there is, and I think all of us 
have said this here, a lot of fluidity among extremist groups 
across Africa, north, east, West Africa, the Middle East and 
into South Asia. So we do see partnerships among extremist 
groups, whether it is al-Qaeda, ISIS, the brotherhood and 
others.
    Mr. Perry. Like, just so in that context, even though it 
might not be the strongest of bonds and maybe it is fluid and 
maybe it is a little here and a little there, there is a stark 
difference.
    There is a great contrast between people, whether they are 
in the Muslim Brotherhood who collaborate even loosely with 
terrorists and terrorist organizations and nations, nation-
states, individuals, organizations, who eschew that, who don't 
get involved at all.
    So my point would be even a loose connection is problematic 
because the Muslim Brotherhood, you know, we can't get a 
declaration that they are a problem here in Congress because, 
oh, I don't know. Not a big fan of the king of Jordan, but he 
has got to work with those people, like, you know, because they 
are in his, you know, in his government.
    That is his problem. I think the United States ought to 
take a stand. They are wandering around our country and they 
have this loose affiliation. How long do we wait until there is 
a strong affiliation? Do we wait? How is that in our best 
interest?
    That is my position, but if you have got something to 
countervail that, I would certainly like to hear that because I 
don't want to be wrong, but I think I am right. Do you have 
anything to offer?
    Ms. Zimmerman. I think that not directly on that point, I 
think the Muslim Brotherhood and al-Qaeda and ISIS disagree 
primarily on the means to achieve their end-state. So the 
advantage is that the Muslim Brotherhood seeks to use only 
political means.
    When you look at the Salafi ideology that both groups are 
part of, that is a high minority within the Muslim world. There 
are very few Salafis percentage-wise. The Muslim Brotherhood 
has not been able to gain additional support.
    The risk that I see in isolating the Muslim Brotherhood, in 
removing the political track for resistance, is that you then 
give those who believe that this is what they should be doing 
the only option of violence. That actually drives support to 
the other end of the spectrum.
    I think that we can look at the events in Egypt and the 
discussions that we are seeing, not at the old guard within the 
Muslim Brotherhood remain anti-, against the use of violence, 
but the younger generations that didn't see the failures that 
violence brings are starting to talk about it a little bit 
more.
    Mr. Perry. So I don't want to be difficult for the sake of 
being difficult----
    Mr. King. The time of the gentleman has expired, so if you 
could wrap it up, OK?
    Mr. Perry. Yes, sir, Mr. Chairman.
    It seems to me that the critical and pivotal component was 
is that they all seek the same ends, but different means. I 
don't want to get to the end for any of them for Western 
civilization and for the United States and saying that if we 
isolate them it will push them toward violence.
    I am not necessarily wishing to isolate them. I am wishing 
to identify them for what they are and what their means are.
    Thank you, Mr. Chairman. I yield.
    Mr. King. OK. First I want to thank the witnesses for their 
testimony. This was one of the most interesting, and I think we 
will agree, hearings we have had. Just like you said that al-
Awlaki in some ways is ruling from the grave and I think many 
people thought that al-Qaeda was in the grave. Actually they 
are alive and unfortunately well.
    So I want to thank you for your testimony. Expect to be 
called back again in the future if you don't mind. We would 
love to have you back. Anyway, Members of the subcommittee may 
submit additional questions to witnesses, and I would ask you 
to respond to those in writing. Pursuant to committee rule 
VII(D), the hearing record will be held open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you very much.
    [Whereupon, at 11:41 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Honorable Mike Gallagher for Katherine Zimmerman
    Question 1. Ms. Zimmerman, in your opening remarks you stated that 
al-Qaeda ``has acted deliberately below the thresholds that would set 
off alarms in Washington.'' Doesn't the very nature of this threat mean 
that Washington needs to rethink what those thresholds are when it 
comes to the activities of transnational terrorist organizations?
    Answer. Yes, the thresholds policy makers set to trigger an 
American response to transnational threat groups are insufficient. 
Smart adversaries such as al-Qaeda and even Russia understand and 
operate below the threshold, all the while strengthening and pursuing 
their own objectives. Al-Qaeda and others have learned to mask their 
threat to the United States by engaging in low-level activities that do 
not seem to affect American interests directly. However, the sum of 
these activities places these transnational groups directly in 
opposition to American interests.
    The United States must both retain the thresholds that when met 
trigger an immediate and decisive response and lower its threshold 
against groups that are shaping an environment counter to American 
interests. Specifically, the United States should clearly identify and 
define as enemy all groups and individuals that subscribe to the 
Salafi-jihadi ideology and act to eliminate the threat they pose to the 
United States and the West as well as to limit their influence. The 
United States should work to prevent Salafi-jihadi groups from shaping 
the local environments to their benefit.
    These actions must be part of a comprehensive strategy against the 
Salafi-jihadi base and are not necessarily defined as focused on the 
enemy or requiring the use of force. In fact, it is possible to weaken 
al-Qaeda, ISIS, and other like-minded transnational organizations by 
breaking their ties to local communities, which requires focusing on 
the people and not the enemy.
    Question 2. While ISIS seeks to recruit followers of all stripes, 
al-Qaeda is known for having a stricter standard for recruiting 
members. How, if at all, has AQ changed its recruitment strategy in 
recent years? Do any of you believe AQ will need to change its 
recruiting to compete for influence with ISIS fighters in failed states 
like Libya and Yemen?
    Answer. Al-Qaeda's strict standards for recruits remain, though al-
Qaeda has adopted a battlefield posture that enables it to attract 
fighters who operate in its interest, but who do not become full-blown 
members. It fields insurgent force commanders who lead militias 
comprised of local fighters who do not necessarily subscribe to al-
Qaeda's global vision, or in certain cases, its ideology. Ansar al-
Sharia in Yemen is an example of one such insurgent force that included 
non-al-Qaeda fighters. The integration of al-Qaeda elsewhere into the 
local insurgency, such as Syria and Mali, creates a network of al-Qaeda 
operatives across multiple groups. These individuals help shape the 
group's actions to be in the interest of al-Qaeda, but group membership 
does not require the same sort of vetting that membership of al-Qaeda 
requires.
    Al-Qaeda will increase its efforts to capture the foreign fighter 
flows to direct them to key battlefields--Syria, Afghanistan, Yemen, 
and Libya--as ISIS weakens in Iraq and Syria. The influx of foreign 
fighters will strengthen al-Qaeda further and expand its capacity to 
conduct attacks in the West.
    Al-Qaeda's recruitment in failed states like Libya and Yemen will 
increasingly target non-violent Islamists and Salafis in order to 
capture a broader segment of the population. The loss of political 
space coupled with targeted campaigns against political Islamists and 
Salafis threatens the prospect of these groups in any future state. 
They are threatened, and al-Qaeda will exploit their fears to recruit 
individuals into the Salafi-jihadi camp, where the slogan is ``bullets, 
not ballots'' for Islam.
    Question 3. Does ISIS have the resources or willingness to 
challenge al-Qaeda in Yemen given the on-going exodus of ISIS fighters 
from Iraq and Syria?
    Answer. ISIS does not have the resources to challenge al-Qaeda in 
Yemen. It is unlikely to be able to do so even should ISIS leadership 
prioritize the Yemeni theater. Skilled ISIS fighters from Iraq and 
Syria could surge ISIS' capabilities and resources in Yemen should they 
enter the Yemeni battlefield. These fighters would restore ISIS to at 
least the strength at which it was operating in 2015-2016, enabling 
ISIS to resume mass-casualty attacks, especially in southern Yemen. But 
ISIS did not pose a serious threat to al-Qaeda's position in Yemen even 
at its height.
    Al-Qaeda's source of strength in Yemen is its relationship with 
local communities, which al-Qaeda has cultivated for over two decades. 
Al-Qaeda's composition as a Yemeni organization willing to defend and 
protect local communities makes the population more willing to tolerate 
al-Qaeda's presence, even while rejecting its ideology. ISIS is 
unlikely to generate popular support because it operates outside of 
customary law ('urf) and because it targets groups that the local 
communities do not necessarily see as legitimate targets, such as 
unarmed police recruits.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
